No. ______

In The Supreme Court of the United States
PHILIP E. BERGER, in his official capacity as President Pro Tempore of the North
Carolina Senate; and TIMOTHY K. MOORE, in his official capacity as Speaker of the
North Carolina House of Representatives,
v.

Applicants,

NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY
JOHNSON; JADE JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,
Plaintiff Respondents,
THE NORTH CAROLINA STATE BOARD OF ELECTIONS; and DAMON CIRCOSTA, in his
official capacity as Chair of the North Carolina State Board of Elections,
Defendant Respondents,
&
REPUBLICAN NATIONAL COMMITTEE; NATIONAL REPUBLICAN SENATORIAL COMMITTEE;
NATIONAL REPUBLICAN CONGRESSIONAL COMMITTEE; DONALD J. TRUMP FOR
PRESIDENT, INC.; and NORTH CAROLINA REPUBLICAN PARTY,
Intervenor Defendants.
On Application for Stay Pending Appeal from
the Supreme Court of North Carolina
APPENDIX

October 27, 2020

(Counsel listed on next page)

Nathan A. Huff
PHELPS DUNBAR LLP
4140 ParkLake Ave., Suite 100
Raleigh, NC 27612
Telephone: (919) 789-5300
Fax: (919) 789-5301

David H. Thompson
Counsel of Record
Peter A. Patterson
Nicole J. Moss
John W. Tienken
Nicholas A. Varone
COOPER & KIRK PLLC
1523 New Hampshire Ave., NW
Washington, DC 20036
Telephone: (202) 220-9600
Fax: (202) 220-9601
dthompson@cooperkirk.com

APPENDIX TABLE OF CONTENTS
Exhibit 1:

Order Denying Writ of Supersedeas, No. 440P20
North Carolina Supreme Court, October 26, 2020 ..................................... App. 001

Exhibit 2:

Order Denying Writ of Supersedeas, No. P20-513
North Carolina Court of Appeals, October 19, 2020 .................................. App. 004

Exhibit 3:

Order Denying Motion to Stay, No. 20 CVS 8881
North Carolina Wake County Superior Court, October 16, 2020............... App. 007

Exhibit 4:

Order Granting Temporary Stay, No. P20-513
North Carolina Court of Appeals, October 15, 2020 .................................. App. 012

Exhibit 5:

Finding of Facts and Conclusions of Law Supporting Granting of Joint
Motion for Entry of Consent Judgment, No. 20 CVS 8881, North Carolina
Wake County Superior Court, October 5, 2020 .......................................... App. 015

Exhibit 6:

Stipulation and Consent Judgment, No. 20 CVS 8881
Wake County Superior Court, October 2, 2020 .......................................... App. 027

Exhibit 7:

Karen Brinson Bell Letter to Gov. Cooper, March 26, 2020 ...................... App. 051

Exhibit 8:

Original Numbered Memo 2020-19, August 21, 2020 ............................... App. 058

Exhibit 9:

Emails from Hilary Harris Klein to Alexander McC. Peters,
September 18, 2020 .................................................................................... App. 066

Exhibit 10:

Amended Complaint, No. 20 CVS 8881
North Carolina Wake County Superior Court, August 18, 2020 ................ App. 076

Exhibit 11:

Joint Motion for Entry of a Consent Judgment, No. 20 CVS 8881
North Carolina Wake County Superior Court, September 22, 2020 .......... App. 119

Exhibit 12:

Notice of Appeal, No. 20 CVS 8881
North Carolina Wake County Superior Court, October 6, 2020................. App. 162

Exhibit 13:

Numbered Memo 2020-27, October 1, 2020 .............................................. App. 166

Exhibit 14:

Numbered Memo 2020-28, October 4, 2020 .............................................. App. 168

Exhibit 15:

Executive Defendants’ Brief in Support of the Joint Motion for Entry
of a Consent Judgment, No. 20 CVS 8881, North Carolina Wake County
Superior Court, September 30, 2020........................................................... App. 171

Exhibit 16:

Order Denying Temporary Stay, No. 440P20
North Carolina Supreme Court, October 23, 2020 ..................................... App. 220

EXHIBIT 1

App. 001

No. 440P20

TENTH DISTRICT

Supreme Court of North Carolina
NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY JOHNSON;
JADE JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; and CAREN RABINOWITZ,
Plaintiffs
v
THE NORTH CAROLINA STATE BOARD OF ELECTIONS; AND DAMON CIRCOSTA, CHAIR OF THE
NORTH CAROLINA STATE BOARD OF ELECTIONS, Defendants
PHILIP E. BERGER IN HIS OFFICIAL CAPACITY AS PRESIDENT PRO TEMPORE OF THE NORTH
CAROLINA SENATE; and TIMOTHY K. MOORE IN HIS OFFICIAL CAPACITY AS SPEAKER OF THE
NORTH CAROLINA HOUSE OF REPRESENTATIVES,
Intervenor-Defendants
and
REPUBLICAN NATIONAL COMMITTEE; NATIONAL REPUBLICAN SENATORIAL COMMITTEE;
NATIONAL REPUBLICAN CONGRESSIONAL COMMITTEE; DONALD J. TRUMP FOR PRESIDENT, INC;
and NORTH CAROLINA REPUBLICAN PARTY, Intervenor-Defendants
From N.C. Court of Appeals
( P20-513 )
From Wake
( 20CVS8881 )

ORDER

Upon consideration of the petition filed by Intervenor-Defendants (Phil E. Berger and Timothy K. Moore, in
their official capacities) on the 21st of October 2020 for Writ of Supersedeas of the judgment of the Superior Court,
Wake County, the following order was entered and is hereby certified to the North Carolina Court of Appeals:
"Denied by order of the Court in conference, this the 26th of October 2020."
Beasley, C.J., Recused
Newby, J., Recused
Davis, J., Recused
s/ Earls, J.
For the Court

WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 26th day of October 2020.

App. 002

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. Hackney
Assistant Clerk, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. Nathan A. Huff, Attorney at Law, For Berger, Philip E et al - (By Email)
Ms. Nicole J. Moss, Attorney at Law, For Berger, Philip E et al - (By Email)
Mr. Burton Craige, Attorney at Law, For Barker, Fowler et al - (By Email)
Mr. Alexander McC. Peters, Special Deputy Attorney General, For The North Carolina State Board of Elections, et al. - (By Email)
Mr. R. Scott Tobin, Attorney at Law, For Republican National Committee, et al. - (By Email)
Mr. Narendra K. Ghosh, Attorney at Law, For Barker, Fowler et al - (By Email)
Mr. Terence Steed, Assistant Attorney General, For The North Carolina State Board of Elections, et al. - (By Email)
Mr. Ryan Y. Park, Solicitor General, For The North Carolina State Board of Elections, et al. - (By Email)
Ms. Kellie Z. Myers, Trial Court Administrator - (By Email)
Mr. James W. Doggett, Deputy Solicitor General, For The North Carolina State Board of Elections, et al. - (By Email)
Mr. Paul Mason Cox, Special Deputy Attorney General, For The North Carolina State Board of Elections, et al. - (By Email)
West Publishing - (By Email)
Lexis-Nexis - (By Email)

App. 003

EXHIBIT 2

App. 004

North Carolina Court of Appeals
Fax: (919) 831-3615
Web: https://www.nccourts.gov

DANIEL M. HORNE JR., Clerk
Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. P20-513

NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY JOHNSON;
JADE JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; AND CAREN
RABINOWITZ,
PLAINTIFFS,
V.
THE NORTH CAROLINA STATE BOARD OF ELECTIONS; AND DAMON CIRCOSTA, CHAIR OF THE
NORTH CAROLINA STATE BOARD OF ELECTIONS,
DEFENDANTS,
PHILIP E. BERGER IN HIS OFFICIAL CAPACITY AS PRESIDENT PRO TEMPORE OF THE NORTH
CAROLINA SENATE; AND TIMOTHY K. MOORE IN HIS OFFICIAL CAPACITY AS SPEAKER OF THE
NORTH CAROLINA HOUSE OF REPRESENTATIVES,
Intervenor-Defendants,
AND
REPUBLICAN NATIONAL COMMITTEE; NATIONAL REPUBLICAN SENATORIAL COMMITTEE;
NATIONAL REPUBLICAN CONGRESSIONAL COMMITTEE; DONALD J. TRUMP FOR PRESIDENT,
INC;AND NORTH CAROLINA REPUBLICAN PARTY
From Wake
( 20CVS8881 )

ORDER

The following order was entered:
The 'Petition for Writ of Supersedeas and Motion for Temporary Stay' filed in this cause on 13 October
2020 by Philip E. Berger and Timothy K. Moore, in their respective official capacities as President Pro
Tempore of the North Carolina Senate and Speaker of the North Carolina House of Representatives, and the
'Renewed Petition for Writ of Supersedeas and Motion for Temporary Stay and Expedited Review' filed in this
cause on 13 October 2020 by the Republican National Committee, National Republican Senatorial
Committee, National Republican Congressional Committee, Donald J. Trump for President, Inc, and the
North Carolina Republican Party, are decided as follows: The petitions for writ of supersedeas are denied
except for the purpose of directing the trial court to conduct any hearings it deems necessary and to issue
any necessary orders to determine the scope of implementation of the order entered on 2 October 2020 by
Judge G. Bryan Collins, Jr. in Wake County Superior Court in light of Numbered Memo 2020-19 and any
orders entered by a federal court in any related matters. The temporary stay granted by this Court on 15
October 2020 is dissolved. The Motion for Expedited Review is dismissed without prejudice to re-filing once
the appeal has been docketed in this Court.
By order of the Court this the 19th of October 2020.
The above order is therefore certified to the Clerk of the Superior Court, Wake County.
WITNESS my hand and the seal of the North Carolina Court of Appeals, this the 19th day of October

App. 005

2020.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Mr. Nathan A. Huff, Attorney at Law, For Berger, Philip E et al
Ms. Nicole J. Moss, Attorney at Law
Mr. David H. Thompson, Attorney at Law
Mr. Peter A. Patterson, Attorney at Law
Mr. Burton Craige, Attorney at Law
Mr. Alexander McC. Peters, Special Deputy Attorney General
Mr. R. Scott Tobin, Attorney at Law, For Berger, Philip E et al
Marc E. Elias, For Barker, Fowler et al
Ms. Denise S. Upchurch
Lalitha D Madduri, For Barker, Fowler et al
Jyoti Jasrasaria, For Barker, Fowler et al
Uzoma N. Nkwonta, For Barker, Fowler et al
Mr. Narendra K. Ghosh, Attorney at Law, For Barker, Fowler et al
Mr. Terence Steed, Assistant Attorney General, For Berger, Philip E et al
Bobby R. Burchfield, King & Spaulding LLP, For Berger, Philip E et al
Mr. Ryan Y. Park, Solicitor General, For The North Carolina State Board of Elections
Hon. Frank Blair Williams, Clerk of Superior Court

App. 006

EXHIBIT 3

App. 007

App. 008

App. 009

App. 010

App. 011

EXHIBIT 4

App. 012

North Carolina Court of Appeals
Fax: (919) 831-3615
Web: https://www.nccourts.gov

DANIEL M. HORNE JR., Clerk
Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600
From Wake
( 20CVS8881 )

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. P20-513
NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; AND CAREN RABINOWITZ,
PLAINTIFFS,
V.
THE NORTH CAROLINA STATE BOARD OF ELECTIONS; AND DAMON CIRCOSTA, CHAIR OF THE NORTH
CAROLINA STATE BOARD OF ELECTIONS,
DEFENDANTS,
PHILIP E. BERGER IN HIS OFFICIAL CAPACITY AS PRESIDENT PRO TEMPORE OF THE NORTH CAROLINA
SENATE; AND TIMOTHY K. MOORE IN HIS OFFICIAL CAPACITY AS SPEAKER OF THE NORTH CAROLINA
HOUSE OF REPRESENTATIVES,
Intervenor-Defendants,
AND
REPUBLICAN NATIONAL COMMITTEE; NATIONAL REPUBLICAN SENATORIAL COMMITTEE; NATIONAL
REPUBLICAN CONGRESSIONAL COMMITTEE; DONALD J. TRUMP FOR PRESIDENT, INC;AND NORTH
CAROLINA REPUBLICAN PARTY

ORDER

The following order was entered:
The 'Petition for Writ of Supersedeas and Motion for Temporary Stay' filed in this cause on 13 October
2020 by Philip E. Berger and Timothy K. Moore, in their respective official capacities as President Pro
Tempore of the North Carolina Senate and Speaker of the North Carolina House of Representatives, and the
'Renewed Petition for Writ of Supersedeas and Motion for Temporary Stay and Expedited Review' filed in this
cause on 13 October 2020 by the Republican National Committee, National Republican Senatorial
Committee, National Republican Congressional Committee, Donald J. Trump for President, Inc, and the
North Carolina Republican Party, are decided as follows:
The motions for temporary stay are allowed. The judgment entered on 2 October 2020 by Judge G.
Bryan Collins, Jr. in Wake County Superior Court is hereby stayed pending a ruling on the petitions for writ of
supersedeas. Responses, if any, to the petitions shall be filed no later than Monday 19 October 2020 by 5 p.
m. This Court will rule on the petitions for writ of supersedeas upon the filing of responses to the petitions or
the expiration of the time for the responses if no responses are filed.
By order of the Court this the 15th of October 2020.
WITNESS my hand and official seal this the 15th day of October 2020.

App. 013

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Mr. Nathan A. Huff, Attorney at Law, For Berger, Philip E et al
Ms. Nicole J. Moss, Attorney at Law
Mr. David H. Thompson, Attorney at Law
Mr. Peter A. Patterson, Attorney at Law
Mr. Burton Craige, Attorney at Law
Mr. Alexander McC. Peters, Special Deputy Attorney General
Mr. R. Scott Tobin, Attorney at Law, For Berger, Philip E et al
Marc E. Elias, For Barker, Fowler et al
Ms. Denise S. Upchurch
Lalitha D Madduri, For Barker, Fowler et al
Jyoti Jasrasaria, For Barker, Fowler et al
Uzoma N. Nkwonta, For Barker, Fowler et al
Mr. Narendra K. Ghosh, Attorney at Law, For Barker, Fowler et al
Mr. Terence Steed, Assistant Attorney General, For Berger, Philip E et al
Bobby R. Burchfield, King & Spaulding LLP, For Berger, Philip E et al
Hon. Frank Blair Williams, Clerk of Superior Court

App. 014

EXHIBIT 5

App. 015

App. 016

parties, and made a series of oral rulings upon which it based the granting of the Joint Motion and
entry of the Consent Judgment. These rulings, which were effective at the time they were
announced from the bench, are hereby memorialized and further explained below.
FINDINGS OF FACT
2.

This matter involves claims brought by Plaintiffs involving as-applied challenges

to the absentee ballot receipt deadline set forth in N.C.G.S. § 163-231(b)(1), (2), enforcement of
the witness requirement for absentee ballots set forth in N.C.G.S. § 163-231(a) (as modified by SL
2020-17), the lack of prepaid postage available to absentee-by-mail voters, application of any
signature verification requirement, enforcement of elections laws prohibiting individuals and
organizations from assisting voters when submitting or filling out absentee ballot request forms or
absentee ballots as set forth in N.C.G.S. §§ 163-226.3(a)(5), -230.2(c), (e), and -231(b)(1), and the
failure to provide an additional 21 days of early voting.
3.

Plaintiff North Carolina Alliance For Retired Americans is incorporated in North

Carolina as a 501(c)(4) nonprofit, social welfare organization. The Alliance has over 50,000
members across all 100 of North Carolina’s counties. Its members comprise retirees from public
and private sector unions, community organizations, and individual activists. Some of its members
are disabled, and all of its members are of an age that places them at a heightened risk of
complications from coronavirus.
4.

Individual Plaintiffs each have their own hardships as well as shared hardships,

which encumber their abilities to vote in the election. These include, but are not limited to,
significant concerns regarding the United States Postal Service’s ability to timely deliver and
return absentee ballots; and health concerns related to voting in person, interacting with a witness,
2

App. 017

traveling to and from voting sites, or delivering an absentee ballot, particularly for those deemed
high risk for COVID-19.
5.

On July 30, 2020, Thomas J. Marshall, General Counsel and Executive Vice

President of the United States Postal Service sent a letter to North Carolina’s Secretary of State,
warning her that North Carolina elections law relating to absentee ballot deadlines was
“incongruous with the Postal Service’s delivery standards.” Pennsylvania v. DeJoy, No. 2:20-cv04096 (E.D.P.A.), Dkt. 1-1 at 53-55. USPS also stated that “there is a significant risk” that “ballots
may be requested in a manner that is consistent with your election rules and returned promptly,
and yet not be returned on time or be counted.” Id. In particular, USPS recommended that elections
officials transmitting communication to voters “allow 1 week for delivery to voters” and that
civilian voters “should generally mail their completed ballots at least one week before the state’s
due date. In states that allow mail-in ballots to be counted if they are both postmarked by Election
Day and received by election officials by a specific date that is less than a week after Election Day,
voters should mail their ballots at least one week before they must be received by election
officials.” Id. Accordingly, in North Carolina, voters can postmark their ballot by Election Day,
but because of USPS delays and through no fault of their own, not have their ballots counted
because the ballots arrived at the county board of elections office after the statutory deadline.
6.

On May 12, 2020, Legislative Defendants noticed their intervention in this case

purportedly “as agents of the State” and “on behalf of the General Assembly.” LDs’ Mot. to
Intervene, ¶¶ 9-10.
7.

On July 1, 2020, the Republican National Committee, the National Republican

Senatorial Committee, the National Republican Congressional Committee, Donald J. Trump for
3

App. 018

President, Inc., and the North Carolina Republican Party (the Political Committees) moved to
intervene in this case to protect their “specific desire to elect particular candidates,” and “the
interests of voters throughout North Carolina,” as well as their “members’ ability to participate in
those elections . . . governed by the challenged rules.” Political Committees’ Mot. to Intervene,
¶¶ 1, 25. The Court granted the Political Committees permissive intervention on September 24,
2020.
8.

On August 18, 2020, Plaintiffs filed a motion for preliminary injunction.

9.

On September 22, 2020, Plaintiffs and State Defendants jointly moved for the entry

of a consent judgment as full and final resolution of Plaintiffs’ claims against the State Defendants
related to the conduct of the 2020 elections. On October 1, 2020, Plaintiffs withdrew their motion
for preliminary injunction.
10.

Under the consent order as proposed in the Joint Motion, plaintiffs agreed to forgo

many of their demands, including expanded early voting, elimination of the witness requirement
for mail-in absentee ballots, elimination of the postmark requirement, and pre-paid postage for
mail-in absentee ballot return envelopes. The Executive Defendants agreed: (1) to extend the
deadline for receipt of mail-in absentee ballots mailed on or before Election Day to nine (9) days
after Election Day to match the UOCAVA deadline, in keeping with the guidance received on July
30, 2020 from the Postal Service; (2) implement the revised cure process set forth in Numbered
Memo 2020-19; and (3) establish separate mail-in absentee ballot “drop off stations” staffed by
elections officials at each early voting site and at each county board of elections to reduce the
congestion and crowding at early voting sites and county board offices. Plaintiffs agreed to accept
4

App. 019

these measures, which fell far short of their demands, “as a full and final resolution of Plaintiffs’
claims against Executive Defendants related to the conduct of the 2020 elections.”
11.

The consent judgment as proposed does not enjoin any statutes. The proposed

consent judgment retains fidelity to the purpose behind these statutes: (1) ensuring that all ballots
that are marked in accordance with all state laws are counted so long as the delay in delivery to
the county board of elections is no fault of the voter’s, (2) ensuring that there is a log of the person
who returns absentee ballots so that, in the event of concerns about fraud, these concerns can be
investigated, and (3) ensuring that the voter to whom the absentee ballot was issued is the one who
voted the ballot that the county board of elections received. In addition, the consent order is
narrowly targeted to modifications that address the exigent circumstances of the COVID-19
pandemic. It therefore does not modify any election procedures beyond the 2020 election cycle.
12.

As of September 29, 2020, more than 1,116,696 absentee ballots have been

requested. As of October 2, 2020, 325,345 have been submitted, and 319,209 have been accepted.
Early voting starts on October 15.
13.

The Court hereby incorporates by reference those factual statements made in the

Stipulation and Consent Judgment, Part I – Recitals, and entered on October 2, 2020 by this Court,
as if set forth fully herein.
CONCLUSIONS OF LAW
14.

North Carolina courts have a “strong preference for settlement over litigation.”

Ehrenhaus v. Baker, 216 N.C. App. 59, 72, 717 S.E.2d 9, 19 (2011).
15.

Although North Carolina courts have not articulated a standard for approval of a

consent judgment, courts in this State have looked to the federal standard to provide guidance in
5

App. 020

similar contexts. See, e.g., Ehrenhaus, 216 N.C. App. at 71-72, 717 S.E.2d at 18-19 (adopting
federal standard for approval of class-action settlements). Before approving entry of a consent
judgment, a federal court has the duty to “satisfy itself that the agreement is ‘fair, adequate and
reasonable,’ and is ‘not illegal, a product of collusion, or against the public interest.’” United States
v. North Carolina, 180 F.3d 574, 581 (4th Cir. 1999) (quoting United States v. Colorado, 937 F.2d
505, 509 (10th Cir. 1991)).
16.

On June 10, 2020, the North Carolina General Assembly enacted House Bill 1169,

which the Governor signed into law as North Carolina Session Law 2020-17 the following day.
This law made a number of changes in response to the COVID-19 pandemic. The legislature did
not revise, in any way relevant to the Joint Motion or the Consent Judgment, the emergency powers
granted to the State Board or its Executive Director under section 163-27.1 or revise powers
granted to the State Board to enter into agreements to avoid protracted litigation under section 16322.2.
17.

Joint movants have demonstrated that the plaintiffs are likely to succeed on the

merits of their constitutional claims.
18.

The Court finds this agreement is fair, adequate, and reasonable. It is not illegal. It

is not a product of collusion. On its face, comparing the complaint to the consent order, the
plaintiffs did not obtain all the relief that they had sought. On its face, this is a compromise. There
exists no evidence to the contrary.
19.

The relief imposed by this consent judgment is very limited. It makes only minor

and temporary changes to election procedures to accommodate the exigencies of the COVID-19
pandemic, which also makes it reasonable.
6

App. 021

20.

The Court finds that there is a strong public interest in having certainty in our

elections procedures and rules, and the entry of this consent judgment is, therefore, in the public
interest.
21.

The North Carolina State Board of Elections has a strong incentive to settle this

case to ensure certainty on the procedures that will apply during the current election
cycle. Settlement will also provide public confidence in the safety and security in this election, in
light of all the serious public-health challenges faced at this time.
22.

The North Carolina State Board of Elections has authority to enter into this consent

judgment under two separate provisions of the North Carolina General Statutes: sections 163-22.2
and 163-27.1.
23.

First, section 163-22.2 authorizes the State Board, “upon recommendation of the

Attorney General, to enter into agreement with the courts in lieu of protracted litigation until such
time as the General Assembly convenes.” This section applies here. The proposed consent
judgment is an “agreement with the courts.” The State Board, moreover, has made the reasonable
decision to enter into this agreement to avoid “protracted litigation” regarding plaintiffs’ claims
with an election fast approaching.
24.

Second, section 163-27.1 authorizes the Executive Director of the State Board to

“exercise emergency powers to conduct an election in a district where the normal schedule for the
election is disrupted by” a “natural disaster.” A “natural disaster” includes a “[c]atastrophe arising
from natural causes [that] result[s] in a disaster declaration by the President of the United States
or the Governor.” 08 NCAC 01.0106. The COVID-19 pandemic constitutes a natural disaster
within the meaning of the statute, as shown by the declaration of emergency by the Governor, the
7

App. 022

declaration of disaster by the President, and the emergency order that the Executive Director issued
under this authority on July 17, 2020. The Executive Director therefore had the statutory authority
to issue the Numbered Memoranda that form the basis of this consent judgment pursuant to her
emergency powers under section 163-27.1.
25.

Accordingly, votes cast and counted pursuant to the Numbered Memoranda and the

consent judgment are lawfully cast votes under North Carolina law, because the North Carolina
State Board of Elections and its Executive Director validly issued the Numbered Memoranda and
entered into the consent judgment under their statutory authority conferred on them by the General
Assembly.
26.

Sections 1-72.2 and 120-32.6 of the North Carolina General Statutes do not alter

the State Board’s authority under sections 163-22.2 or 163.27.1. Nor do they provide that the
Speaker and the President Pro Tem are necessary parties to the consent judgment in this case.
As an initial matter, the authority delegated to the State Board in sections 163-22.2 and 163-27.1
is more specific than the more general grants of authority listed in sections 1-72.2 and 120-32.6.
More specific grants of statutory authority control over more general grants. Here, therefore, the
more general grants of certain litigation authority in sections 1-72.2 and 120-32.6 do not displace
the settlement and emergency powers of the State Board.
27.

In addition, sections 1-72.2 and 120-32.6 allow the Speaker and the President Pro

Tem to appear and be heard, or in some cases to request to do so, in certain lawsuits on behalf of
the legislative branch alone. However, this limited authority does not allow these legislators to
represent the interests of the executive branch or of the State, including any interest of the State in
the execution and enforcement of its laws. These statutes do not authorize the Speaker and the
8

App. 023

President Pro Tem, individually or jointly, to control executive officials’ decisions about execution
and enforcement of state law, or to prevent executive officials from entering into settlements that
affect how statutes are executed or enforced after their enactment. Nor do these statutes make the
General Assembly or these legislative officers necessary parties to any such settlement. To read
sections 1-72.2 and 120-32.6 otherwise would violate the North Carolina Constitution’s separation
of powers clause. See N.C. Const. art. I, § 6; Cooper v. Berger, 370 N.C. 392, 414-15, 809 S.E.2d
98, 111-12 (2018).
28.

For all these reasons, therefore, the consent of the Speaker and the President Pro

Tem is not needed for this Court to approve and enter this consent judgment.
29.

Because the North Carolina General Statutes delegate to the State Board the

authority to issue the directives that form the basis for the proposed consent judgment, neither the
Numbered Memoranda, nor the consent judgment itself, violates the Elections Clause of the U.S.
Constitution, art. I, § 4, cl.1.
30.

Neither the Numbered Memoranda, nor the consent judgment itself, violates the

Equal Protection Clause of the U.S. Constitution, amend. XIV, § 1. They provide adequate
statewide standards for determining what is a legal vote, and practicable procedures to implement
them. They do not dilute or discount anyone’s vote. Instead, they ensure that all eligible voters
have an opportunity to cast their ballots and correct any deficiencies in those ballots under the
same, uniform standards.
31.

The Numbered Memoranda and the consent judgment are therefore consistent with

both the North Carolina Constitution and the U.S. Constitution.
9

App. 024

32.

Based upon the foregoing, on October 2, 2020, Plaintiffs’ and Executive

Defendants’ Joint Motion for Entry of a Consent Judgment was granted and final judgment was
entered.

ISSUED, this 5th day of October 2020, nunc pro tunc October 2, 2020.

10

App. 025

CERTIFICATE OF SERVICE
The undersigned hereby certifies that the forgoing document was served on the following
parties via email:
Burton Craige
Narendra K. Ghosh
Paul E. Smith
Patterson Harkavy LLP
100 Europa Dr., Suite 420
Chapel Hill, N.C. 27517
bcraige@pathlaw.com
nghosh@pathlaw.com
psmith@pathlaw.com
Marc E. Elias
Uzoma N. Nkwonta
Ariel B. Glickman
Jyoti Jasrasaria
Lalitha D. Madduri
PERKINS COIE, LLP
700 Thirteenth Street, N.W. Suite 800
Washington, D.C. 20005
MElias@perkinscoie.com
UNkwonta@perkinscoie.com
AG1ickman@perkinscoie.com
JJasrasaria@perkinscoie.com
LMadduri@perkinscoie.com
Counsel for Plaintiffs
Alexander McC. Peters
Chief Deputy Attorney General
N.C. Dept. of Justice
Post Office Box 629
Raleigh, NC 27602
apeters@ncdoj.gov
Counsel for the Executive Defendants

Nathan Huff
Phelps Dunbar LLP
4140 ParkLake Avenue, Suite 100
Raleigh, N.C. 27612
nathan.huff@phelps.com
Nicole Jo Moss
David H. Thompson
Peter A. Patterson
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, NW
Washington, D.C. 20036
nmoss@cooperkirk.com
ppatterson@cooperkirk.com
dthompson@cooperkirk.com
Counsel for Intervenor-Defendants
R. Scott Tobin
Taylor English Duma LLP
4208 Six Forks Road, Suite 1000
Raleigh, N.C. 27609
stobein@taylorenglish.com
Bobby Burchfield
Matthew M. Leland
King & Spalding LLP
1700 Pennsylvania Ave. N.W., Suite 200
Washington, DC 20006-4707
BBurchfield@KSLAW.com
mleland@kslaw.com
Counsel for Intervenor-Defendants

This the 5th day of October, 2020.

App. 026

EXHIBIT 6

App. 027

App. 028

App. 029

App. 030

App. 031

App. 032

App. 033

App. 034

App. 035

App. 036

App. 037

App. 038

App. 039

App. 040

App. 041

App. 042

App. 043

App. 044

App. 045

App. 046

App. 047

App. 048

App. 049

App. 050

EXHIBIT 7

App. 051

Mailing Address:

P.O. Box 27255, Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

TO:

FROM:
RE:
DATE:

Governor Roy Cooper; Speaker Tim Moore; President Pro Tempore Phil Berger;
Joint Legislative Elections Oversight Committee; Joint Legislative Oversight Committee on General Government; and House Select Committee on COVID-19, Continuity of State Operations Working Group
Karen Brinson Bell, Executive Director
Recommendations to Address Election-Related Issues Affected by COVID-19
March 26, 2020

The spread of the novel coronavirus (COVID-19) impacts the conduct of elections and daily operations for the State Board of Elections (State Board) and county boards of elections. In response,
our agency has taken a number of actions in recent days and weeks to address election-related
impacts of the pandemic and inform the public about our efforts. These include:
•

An emergency Executive Order issued on March 20, 2020, that, among other things,
rescheduled the Republican second primary in Congressional District 11 from May
12, 2020, to June 23, 2020.

•

An amended Administrative Rule 08 NCAC 01 .0106, by both emergency and proposed temporary rulemaking, to clarify the Executive Director’s statutory authority
to exercise emergency powers to conduct an election in a district where the normal
schedule for the election is disrupted by a natural disaster, extremely inclement
weather, or armed conflict. The amendment clarifies that a catastrophe arising from
natural causes includes a disease epidemic or other public health incident that makes
it impossible or extremely hazardous for elections officials or voters to reach or otherwise access the voting place or that creates a significant risk of physical harm to
persons in the voting place, or that would otherwise convince a reasonable person to
avoid traveling to or being in a voting place.

•

Numbered Memo 2020-11, released on March 15, 2020, provides guidance on immediate actions that may be taken by authority of the Executive Director and other
steps that may be taken by county boards of elections.

•

Establishment of a working group of State and county election officials to consider
immediate steps that should be taken for the conduct of the federal second primary
and also more long-term steps including legislative requests to administer elections
in times of disease epidemics, necessary measures if mail balloting were expanded,
and efforts that must be taken to ensure the health and well-being of voters and workers during in-person voting.

•

A statement released by the NCSBE on March 12, 2020.

App. 052

While the State Board will continue to administer elections in the wake of COVID-19 within our
current legal authority, the State Board respectfully recommends the General Assembly consider
making the following statutory changes to address the impacts of the coronavirus pandemic on our
elections. We believe that, in order to ensure continuity and avoid voter confusion, the changes
should be made permanent, except where indicated otherwise.
•

Expand options for absentee requests. We recommend allowing a voter to submit an absentee ballot request form by fax and email. Current law restricts the
return of the absentee request form to the voter and the voter’s near relative or
legal guardian, and restricts the methods by which the requests can be returned to
in-person or by mail or designated delivery service. We also recommend a limited exception to G.S. § 163-230.2(e)(2) to allow county boards of elections to
pre-fill a voter’s information on an absentee request form. The voter or near relative would still be required to sign the form, but this change would allow voters
who are home due to COVID-19 to request an absentee request form by phone
and have a pre-filled form sent to them rather than having to travel to the county
board office to receive assistance.

•

Establish online portal for absentee requests. The State Board expects a large
increase in the number of voters who choose to vote absentee by mail this year,
and creating an online portal for absentee voting would make it easier for voters
to request an absentee ballot from home. The voter or near relative would provide
identifying information (including the voter’s date of birth and the last four digits
of the voter’s Social Security or drivers license number), and an electronic signature as defined in G.S. § 66-312 of the Uniform Electronic Transaction Act would
be permitted. An allocation of funds to purchase a program or application to
support this functionality may be needed.

•

Allow a voter to include a copy of a HAVA document with their absentee
request form if the voter is unable to provide their drivers license number or
last four digits of their Social Security number. We recommend allowing a
voter who did not include their drivers license number or the last four digits of
their Social Security number the option to include a copy of a current utility bill,
bank statement, government check, paycheck, or other government document
showing the name and address of the voter. Making this change to G.S. § 163230.2 would make it easier for those who wish to vote absentee by-mail to do so.
The State Board has received multiple reports from county boards of elections
and from voters that, without this option, some voters are no longer able to request
an absentee ballot. This particularly affects senior citizens who may not have a
drivers license number and cannot recall or do not have access to their Social
Security number. Allowing this option will make it easier for those most at risk
of contracting COVID-19 to vote absentee by mail.

•

Establish a fund to pay for postage for returned absentee ballots. Elections
officials across the nation are anticipating a surge in absentee voting in light of
2
App. 053

restrictions on movement imposed due to the spread of COVID-19. Prepaid postage would increase the likelihood that a voter would return their ballot, would
eliminate the need for a voter to leave their home to purchase postage, and would
also decrease any incentive for a voter to turn their ballot over to someone else.
Prepaid postage for the return of absentee ballots would also further enable residents and patients of facilities such as nursing homes and group homes to return
their ballots safely, easily, and with minimal human contact.
•

Reduce or eliminate the witness requirement. In light of social distancing requirements to prevent the spread of COVID-19, we recommend reducing the witness requirement for the certification on absentee container-return envelopes.
Currently, a voter must have their absentee envelope signed by two witnesses or
one notary. North Carolina residents are currently being asked to stay at home,
and without a timeline for when the disease will be under control, requiring only
one witness would reduce the likelihood that a voter would have to go out into
the community or invite someone to their home to have their ballot witnessed.
Eliminating the witness requirement altogether is another option and would further reduce the risk.

•

Modify procedure for counting of ballots on Election Day. To allow county
boards of elections more time to process the anticipated surge in absentee ballots,
we recommend amending the law to provide that ballots received by the Saturday
prior to the election must be counted on Election Day, and all other absentee ballots that are timely received will be counted on the day of the canvass. Currently,
G.S. § 163-234(2) requires county boards to meet on Election Day to count all
absentee ballots received by 5:00 p.m. on the day before the election. Changing
the timeframe for when absentee ballots are counted would help ease the burden
of an increased volume of absentee ballots, especially in larger counties. This
change would not affect the deadline for the county boards to receive absentee
ballots, nor would it affect which ballots are counted; rather, it would ameliorate
the anticipated increase in absentee ballots received by county boards between
the Saturday before the election and 5:00 p.m. on the day before the election. As
part of this change, we also recommend extending county canvass to 14 days after
the election, rather than 10 days after the election as provided in G.S. § 163182.5(b), to allow county boards of elections sufficient time to count the large
number of ballots that are anticipated being received; State Board canvass would
also need to extended accordingly.

•

Temporarily modify restrictions on assistance in care facilities. Currently,
G.S. § 163-226.3(a)(4) makes it a Class I felony for an owner, director, manager,
or employee of a hospital, clinic, nursing home, or adult care home to assist a
voter in that facility in requesting, voting, or returning the voter’s absentee ballot.
There are important reasons to discourage facility employees from assisting patients and residents with their absentee requests and with voting their ballots.
However, many localities are currently restricting or banning visitors to facilities,
and an Executive Order issued by the Governor prevents visitors altogether to
reduce the spread of COVID-19. With this in mind, it may not be possible for
3
App. 054

multipartisan assistance teams (MATs), or others who would traditionally assist
facility residents, to provide assistance. Individuals may also be unwilling to
serve on MATs due to the increased risk of transmission of COVID-19 at a facility. Many voters in these facilities do require help with requesting, voting, and/or
returning their ballots, and with no option available for assistance they may effectively be disenfranchised. We suggest considering options, such as temporarily allowing a facility employee to assist, to ensure these voters are able to continue to exercise their right to vote.
•

Clarify authorization for telephonic meetings. It would be helpful to clarify
that telephonic meetings and meetings held by other remote means are specifically authorized by the open meetings law. State Board counsel construe Article
33C of Chapter 143 to permit telephonic and other remotely held meetings. However, the UNC School of Government has a different interpretation of the law
based on its stated familiarity with the law’s history.

•

Expand student pollworker program. We are recommending expanding the
student pollworker program to allow students to fill the role of judge or chief
judge, to allow juniors or seniors to serve as long as they are at least 16 years old,
and to allow service as a pollworker to count as an approved school trip. Chief
judges and judges would still be appointed from recommendations provided by
the political parties. Currently, G.S. § 163-42.1 requires students be at least 17
years old and only allows them to serve in the role of precinct assistant. It also
requires the principal of the student’s school to recommend the student; we suggest this section include an exception to that requirement if the school is closed.
These changes would increase the county boards of elections’ recruitment of students, who tend to be less at risk of COVID-19. The changes will be especially
necessary if large numbers of pollworkers are unable to serve. The average age
of pollworkers in North Carolina is around 70 and the role requires significant
interaction with the public, so we anticipate that pollworkers in at-risk categories
may be advised not to serve or may be unable to serve this year.

•

Make Election Day a holiday. Designating Election Day as a State holiday
would expand the potential pool of pollworkers to students, teachers, and younger
individuals. It would also encourage state and county employees to work the
polls. These groups tend to be in a lower-risk category for COVID-19 and therefore would be an asset given current concerns. An alternative option would be to
provide paid leave for state and county employees who serve as pollworkers and
providing course credit for student pollworkers.

•

Increase pay for pollworkers. Precinct officials safeguard the democratic process and help ensure confidence in the system. Increasing pay for pollworkers
will help county boards of elections recruit and retain a strong elections workforce
this year and for years to come. Current pay for precinct officials is the state
minimum wage, $7.25 per hour. G.S. § 163-46. On Election Day, pollworkers
must serve for the entire day without leaving the site—a shift of more than 14
hours. The minimum wage requirement was put in place in 1981 (see Session
4
App. 055

Law 1981-796). Ensuring that pollworkers’ unemployment benefits are not affected by their service is another way to increase recruitment efforts.
•

Eliminate requirement that a majority of pollworkers reside in precinct.
Eliminating the requirement in G.S. § 163-41(c) that a majority of pollworkers at
a polling place must reside in the precinct would provide county boards of elections with greater flexibility to staff their precincts. It would increase the likelihood a county board of elections would be able to keep a polling place open rather
than having to combine it with another polling place to meet the residency requirement.

•

Temporarily suspend purchase and contract requirements for elections-related supplies and other items. To allow the State Board and county boards to
continue operating in a time when many business and government entities have
reduced capacity or have closed, temporarily lifting the purchase and contract
requirements of Article 3 of Chapter 143 in 2020 would significantly speed up
the ability to procure necessary supplies.

•

Match HAVA funds. In order to receive federal elections security funds that
were authorized in late 2019, the State must make a 20% match. This funding
will be indispensable in our agency’s continued effort to secure North Carolina’s
elections. This is true even more so as we react and respond to the pandemic,
since times of crisis and uncertainty increase the threats of cyber attacks, phishing
attempts, and scams. Federal authorities have also indicated these funds may be
used for COVID-19 response efforts such as cleaning supplies and protective
masks for staff and pollworkers, resources to meet an unanticipated increased demand for mail ballots due to self-isolation and quarantine in response to COVID19, and temporary staff to process the increased absentee ballot demand. Funds
may also be used for costs incurred to communicate law changes, such as changes
in absentee-by-mail ballot rules, that could result from the pandemic. Exempting
HAVA-funded positions at the State Board from a possible hiring freeze would
also be important to ensuring the agency is able to continue to secure the statewide
voter registration database and many other duties to protect North Carolina’s elections from cyber threats.

•

One-Stop. Consider whether changes to one-stop requirements, such as site and
hour requirements, may be needed in light of the uncertainty regarding containment of the COVID-19 pandemic by the early voting period in October 2020.
Currently, if any one-stop site is open all one stop-sites must be open and all sites
other than the county board office must be open 8:00 a.m. to 7:30 p.m. County
boards of elections need flexibility to determine hours because they are affected
differently by, and respond differently to, the COVID-19 pandemic.

While the situation with COVID-19 is changing on a daily and sometimes hourly basis, we believe
the above recommendations will help the elections that form the basis of North Carolina’s democracy remain strong and resilient in these uncertain times.
5
App. 056

We are appreciative of the appointment of the House Select Committee on COVID-19, Continuity
of State Operations Working Group, and I stand ready to answer your questions or provide any
other information that may be useful in consideration of these recommendations.
Sincerely,

Karen Brinson Bell
Executive Director
State Board of Elections

6
App. 057

EXHIBIT 8

App. 058

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-19
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Absentee Processes

DATE:

August 21, 2020

As you know—and are preparing for—we are expecting an unprecedented number of voters who
will vote absentee-by-mail during the 2020 general election. In light of this, statewide uniformity
and consistency in reviewing and processing these ballots will be more essential than ever. County
boards of elections must ensure that the votes of all eligible voters are counted using the same
standards, regardless of the county in which the voter resides.
This numbered memo directs the procedure county boards must use to address deficiencies in absentee ballots. The purpose of this numbered memo is to ensure that a voter is provided every
opportunity to correct certain deficiencies, while at the same time recognizing that processes must
be manageable for county boards of elections to timely complete required tasks. 1

1. No Signature Verification
County boards shall accept the voter’s signature on the container-return envelope if it appears to
be made by the voter, meaning the signature on the envelope appears to be the name of the voter
and not some other person. Absent clear evidence to the contrary, the county board shall presume
that the voter’s signature is that of the voter, even if the signature is illegible. A voter may sign
their signature or make their mark.
The law does not require that the voter’s signature on the envelope be compared with the voter’s
signature in their registration record. Verification of the voter’s identity is completed through the
witness requirement. See also Numbered Memo 2020-15, which explains that signature comparison is not permissible for absentee request forms.

1

This numbered memo is issued pursuant to the State Board of Elections’ general supervisory
authority over elections as set forth in G.S. § 163-22(a) and the authority of the Executive Director in G.S. § 163-26.

App. 059

2. Types of Deficiencies
Trained county board staff shall review each executed container-return envelope the office receives to determine if there are any deficiencies. Review of the container-return envelope for
deficiencies occurs after intake. The initial review is conducted by staff to expedite processing of
the envelopes.
Deficiencies fall into two main categories: those that can be cured with an affidavit and those that
cannot be cured. If a deficiency cannot be cured, the ballot must be spoiled and a new ballot issued
if there is time to mail the voter a new ballot that the voter would receive by Election Day. See
Section 3 of this memo, Voter Notification.

2.1. Deficiencies Curable with an Affidavit (Civilian and UOCAVA)
The following deficiencies can be cured by sending the voter an affidavit:
•
•

Voter did not sign the Voter Certification
Voter signed in the wrong place

The cure affidavit process applies to civilian and UOCAVA voters.

2.2. Deficiencies that Require the Ballot to Be Spoiled (Civilian)
The following deficiencies cannot be cured by affidavit, because the missing information comes
from someone other than the voter:
•
•
•
•
•

Witness or assistant did not print name 2
Witness or assistant did not print address 3
Witness or assistant did not sign
Witness or assistant signed on the wrong line
Upon arrival at the county board office, the envelope is unsealed or appears to have been
opened and re-sealed

If a county board receives a container-return envelope with one of these deficiencies, county board
staff shall spoil the ballot and reissue a ballot along with a notice explaining the county board
office’s action, in accordance with this numbered memo.

2

If the name is readable and on the correct line, even if it is written in cursive script, for example, it does not invalidate the container-return envelope.
3

Failure to list a witness’s ZIP code does not invalidate the container-return envelope. G.S. §
163-231(a)(5).
2
App. 060

2.3. Deficiencies that require board action
Some deficiencies cannot be resolved by staff and require action by the county board. These include situations where the deficiency is first noticed at a board meeting or if it becomes apparent
during a board meeting that no ballot or more than one ballot is in the container-return envelope
If the county board disapproves a container-return envelope by majority vote in a board meeting,
it shall proceed according to the notification process outlined in Section 3.

3. Voter Notification
If a county board office receives a container-return envelope with a deficiency, it shall contact the
voter in writing within one business day of identifying the deficiency to inform the voter there is
an issue with their absentee ballot and enclosing a cure affidavit or new ballot, as directed by
Section 2. The written notice shall also include information on how to vote in-person during the
early voting period and on Election Day. The written notice shall be sent to the address to which
the voter requested their ballot be sent; however, if the deficiency can be cured and the voter has
an email address on file, the county board shall send the cure affidavit to the voter by email. The
notice shall also state that, if the voter prefers, they may appear at the county canvass to contest
the status of their absentee ballot.
There is not time to reissue a ballot if it would be mailed the Friday before the election,
October 30, 2020, or later. Within one business day of the determination that the container-return
envelope is deficient, the county board shall:
1. Notify the voter by phone or email, if available, to provide information about how to vote
in-person at early voting or on Election Day, if the determination is made between the
Friday before the election and Election Day (between October 30 and November 3, 2020),
and inform the voter about the ability to contest the status of their absentee ballot at county
canvass; and
2. Notify the voter by mail. This notification shall inform the voter about the ability to contest the status of their absentee ballot at county canvass.

Receipt of the Cure Affidavit
The cure affidavit must be received by the county board of elections by no later than 5 p.m. on
Thursday, November 12, 2020, the day before county canvass. The cure affidavit may be submitted to the county board office by fax, email, in person, or by mail or commercial carrier. If a voter
appears in person at the county board office, they may also be given and fill out a new cure affidavit. The cure affidavit may only be returned by the voter, the voter’s near relative or legal
guardian, or a multipartisan assistance team (MAT).
A wet ink signature is not required, but the signature used must be unique to the individual. A
typed signature is not acceptable, even if it is cursive or italics such as is commonly seen with a
program such as DocuSign.
3
App. 061

4. Late Absentee Ballots
Voters whose ballots are not counted due to being late shall be mailed a notice stating the reason
for the deficiency and they may appear at the county canvass to contest the status of their absentee
ballot.

4.1. Civilian Ballots
Civilian absentee ballots must be received by the county board office by 5 p.m. on Election Day,
November 3, 2020, or, if postmarked by Election Day, by 5:00 p.m. three days after the election,
November 6, 2020. 4 Civilian absentee ballots received after this time are invalid.

4.2. UOCAVA Ballots
Ballots from UOCAVA voters must be received by the county board office by 7:30 p.m. on Election Day, November 3, 2020, or submitted for mailing, electronic transmission, or fax by 12:01
a.m. on Election Day, at the place where the voter completes the ballot. 5 If mailed, UOCAVA
ballots must be received by the close of the business on the day before county canvass. County
canvass is scheduled for November 13, 2020, and therefore the deadline would be November 12,
2020. UOCAVA ballots received after the statutorily required time are invalid.

5. Hearing at Canvass
If the voter appears in person at the county canvass to contest the disapproval of their deficient
ballot, the county board shall provide the voter with an opportunity to be heard. The county board
shall determine by majority vote whether the decision to disapprove the absentee container-return
envelope should be reconsidered. The burden shall be on the voter to prove by a preponderance
of the evidence that their container-return envelope was properly executed and timely received.
The voter cannot “cure” a deficient absentee container-return envelope at the hearing.

6. Return of the Ballot
6.1. Method of Return
Civilian absentee ballots may be returned:
•
•
•

In person at the county board office;
In person at a one-stop early voting site in the voter’s county;
By mail or commercial carrier.

4

G.S. § 163-231(b).

5

G.S. §§ 163-231(b); 163- 258.10.
4
App. 062

An absentee ballot returned to a polling place on Election Day shall not be counted. Precinct
officials shall be trained to instruct a voter who brings their ballot to the polling place to instead
return it to the county board office or mail it the same day ensuring a postmark is affixed.

6.2. Who May Return a Ballot
Only the voter, or the voter’s near relative or legal guardian, is permitted to possess an absentee
ballot. 6 A multipartisan assistance team (MAT) or a third party may not take possession of an
absentee ballot. For this reason, county boards are required by rule to log absentee ballots that are
delivered in person to their county board office. The log, which is completed by the person dropping off the ballot, shall include the name of the voter, name of person delivering the ballot, relationship to the voter, phone number and current address of person delivering the ballot, date and
time of delivery of the ballot, and signature or mark of the person delivering the ballot certifying
that the information is true that that they are the voter or the voter’s near relative or legal guardian. 7
Because of the requirements about who can deliver a ballot, and because of the logging requirement, an absentee ballot may not be left in an unmanned drop box. The county board
shall ensure that, if they have a drop box, slot, or similar container at their office, the container has
a sign indicating that absentee ballots may not be deposited in it.
Failure to comply with the logging requirement, or delivery of an absentee ballot by a person other
than the voter, the voter’s near relative, or the voter’s legal guardian, is not sufficient evidence in
and of itself to establish that the voter did not lawfully vote their ballot. 8 A county board shall not
disapprove an absentee ballot solely because it was delivered by someone who was not authorized
to possess the ballot. The county board may, however, consider the delivery of a ballot in accordance with the rule, 08 NCAC 18 .0102, in conjunction with other evidence in determining whether
the container-return envelope has been properly executed.

6

It is a class I felony for any person other than the voter’s near relative or legal guardian to take
possession for delivery to a voter or for return to a county board of elections the absentee ballot
of any voter. G.S. § 163-223.6(a)(5).
7

08 NCAC 18 .0102.

8

Id. Compare G.S. § 163-230.2(3), as amended by Section 1.3.(a) of Session Law 2019-239,
which states that an absentee request form returned to the county board by someone other than an
unauthorized person is invalid.
5
App. 063

Absentee Board Meetings
Pursuant to Session Law 2020-17, county boards will begin holding their absentee board meetings
the fifth Tuesday before the election, rather than the third Tuesday before the election. Because
the meetings must be noticed at least 30 days prior to the election, county boards should consider
noticing additional meetings in order to plan for the increased volume of absentee ballots that are
expected for this election. 9 The meetings may later be cancelled if the county board does not have
absentee container-return envelopes to consider at that meeting. Additional guidance will be forthcoming regarding processing the increased volume of absentee ballots at these board meetings.

9

G.S. § 163-230.1(f).
6
App. 064

Absentee Cure Affidavit
Instructions
You are receiving this affidavit because you did not sign the absentee ballot container-return envelope, or because you signed in the wrong place. For your absentee ballot to be counted, complete and return this affidavit as soon as possible. It must be received by your county board of
elections by no later than 5 p.m. on Thursday, November 12, 2020, the day before the
county canvass. You, your near relative or legal guardian, or a multipartisan assistance team
(MAT), can return the affidavit by:
•
•
•
•

Email
Fax
Delivering it in person to the county board of elections office
Mail or commercial carrier

If this affidavit is not returned to the county board of elections by the deadline, your absentee ballot will not count. You may still vote in person during the early voting period (October 15-October 31) or on Election Day, November 3, 2020.
READ AND COMPLETE THE FOLLOWING:
I am an eligible voter in this election and registered to vote in [name] County, North Carolina. I
solemnly swear or affirm that I requested, voted, and returned an absentee ballot for the November 3, 2020 general election and that I have not voted and will not vote more than one ballot in
this election. I understand that fraudulently or falsely completing this affidavit is a Class I felony
under Chapter 163 of the North Carolina General Statutes.
__________________
Voter’s Name
__________________
Voter’s Signature
__________________
Voter’s Address

7
App. 065

EXHIBIT 9

App. 066

From:
To:
Cc:
Subject:
Date:

Hilary Harris Klein
Peters, Alec; Narasimhan, Sripriya; jsherman@fairelectionscenter.org; george.varghese@wilmerhale.com;
joseph.yu@wilmerhale.com; rebecca.lee@wilmerhale.com; Allison Riggs
Hathcock, Kathryne; McHenry, Neal; Love, Katelyn
RE: [External]RE: DemNC v. NCSBOE - cure remedy
Friday, September 25, 2020 5:19:00 PM

Thank you Alec. We can make 3 – 3:30pm work. Please see the below conference details.

Join Zoom Meeting
https://zoom.us/j/96602468251?pwd=byttbFpndWdCa3lGcUZ1VHhIZzlvUT09
Meeting ID: 966 0246 8251
Passcode: 866291
One tap mobile
+19292056099,,96602468251#,,,,,,0#,,866291# US (New York)
+13017158592,,96602468251#,,,,,,0#,,866291# US (Germantown)
Dial by your location
        +1 929 205 6099 US (New York)
        +1 301 715 8592 US (Germantown)
        +1 312 626 6799 US (Chicago)
        +1 669 900 6833 US (San Jose)
        +1 253 215 8782 US (Tacoma)
        +1 346 248 7799 US (Houston)
Meeting ID: 966 0246 8251
Passcode: 866291
Find your local number: https://zoom.us/u/ads1oIO2Kd

Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Peters, Alec <apeters@ncdoj.gov>
Sent: Friday, September 25, 2020 5:11 PM
To: Hilary Harris Klein <hilaryhklein@scsj.org>; Narasimhan, Sripriya <SNarasimhan@ncdoj.gov>;
jsherman@fairelectionscenter.org; george.varghese@wilmerhale.com; joseph.yu@wilmerhale.com;
rebecca.lee@wilmerhale.com; Allison Riggs <AllisonRiggs@southerncoalition.org>
Cc: Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry, Neal <NMcHenry@ncdoj.gov>; Love,
Katelyn <Katelyn.Love@ncsbe.gov>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
I’m afraid we’re not available at 10 Monday morning. It looks as though the possibilities on Monday
for us are from 11–1, and from 3–on. If those times don’t work, we can look at Tuesday.
BTW, I would not expect Beth and Neal to be part of this conversation. Their role in this case has
been in their capacities as counsel to the Department of Transportation, Division of Motor Vehicles,

App. 067

and to the Department of Health and Human Services, neither of which are involved in cure
procedures.
— Alec

Alexander McC. Peters
Chief Deputy Attorney General
919.716.6400
apeters@ncdoj.gov
114 W. Edenton St., Raleigh, NC 27603
ncdoj.gov
Please note messages to or from this address may be public records.

From: Hilary Harris Klein <hilaryhklein@scsj.org>
Sent: Friday, September 25, 2020 4:52 PM
To: Peters, Alec <apeters@ncdoj.gov>; Narasimhan, Sripriya <SNarasimhan@ncdoj.gov>;
jsherman@fairelectionscenter.org; george.varghese@wilmerhale.com; joseph.yu@wilmerhale.com;
rebecca.lee@wilmerhale.com; Allison Riggs <AllisonRiggs@southerncoalition.org>
Cc: Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry, Neal <NMcHenry@ncdoj.gov>; Love,
Katelyn <Katelyn.Love@ncsbe.gov>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Thank you Alec. How about 10am on Monday? I will send out a calendar invite with conference
details if that works for everyone.
Kind regards,
Hilary
Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Peters, Alec <apeters@ncdoj.gov>
Sent: Friday, September 25, 2020 4:32 PM
To: Hilary Harris Klein <hilaryhklein@scsj.org>; Narasimhan, Sripriya <SNarasimhan@ncdoj.gov>;
jsherman@fairelectionscenter.org; george.varghese@wilmerhale.com; joseph.yu@wilmerhale.com;
rebecca.lee@wilmerhale.com; Allison Riggs <AllisonRiggs@southerncoalition.org>
Cc: Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry, Neal <NMcHenry@ncdoj.gov>; Love,
Katelyn <Katelyn.Love@ncsbe.gov>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Hilary, I apologize if there has been confusion. I had not been back in touch because I knew Priya
was in conversation with you, which we intended as responsive to your emails. I’m sorry if that

App. 068

wasn’t clear. As Priya says below, we are happy to continue to confer cooperatively.
Best regards,
Alec

Alexander McC. Peters
Chief Deputy Attorney General
919.716.6400
apeters@ncdoj.gov
114 W. Edenton St., Raleigh, NC 27603
ncdoj.gov
Please note messages to or from this address may be public records.

From: Hilary Harris Klein <hilaryhklein@scsj.org>
Sent: Friday, September 25, 2020 3:30 PM
To: Narasimhan, Sripriya <SNarasimhan@ncdoj.gov>; jsherman@fairelectionscenter.org;
george.varghese@wilmerhale.com; joseph.yu@wilmerhale.com; rebecca.lee@wilmerhale.com;
Allison Riggs <AllisonRiggs@southerncoalition.org>
Cc: Peters, Alec <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry, Neal
<NMcHenry@ncdoj.gov>; Love, Katelyn <Katelyn.Love@ncsbe.gov>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Hi Priya,
My email was directed to those attorneys appearing in this matter, who have yet to respond to any of
my below inquiries or to indicate that you would be acting in this litigation in their stead. And while I
appreciate our calls have covered some of these issues, I also understood they were outside the
litigation context per your representation to that effect.
In any event, I would look forward to conferring on these issues at your earliest convenience, and can
be available 4:30 – 5pm today, at various times over the weekend, or Monday 10am-11am or 2pm–
3pm.
Kind regards,
Hilary
Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Narasimhan, Sripriya <SNarasimhan@ncdoj.gov>
Sent: Friday, September 25, 2020 2:52 PM
To: Hilary Harris Klein <hilaryhklein@scsj.org>; jsherman@fairelectionscenter.org;
george.varghese@wilmerhale.com; joseph.yu@wilmerhale.com; rebecca.lee@wilmerhale.com;
Allison Riggs <AllisonRiggs@southerncoalition.org>
Cc: Peters, Alec <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry, Neal
<NMcHenry@ncdoj.gov>; Love, Katelyn <Katelyn.Love@ncsbe.gov>
Subject: FW: [External]RE: DemNC v. NCSBOE - cure remedy

App. 069

Hil a r y,
T h a n k y o u f o r y o u r e m ail. I’ m s u r p ri s e d at y o u r a s s e rti o n t h at t h e r e h a s b e e n a l a c k of e n g a g e m e nt o n
t h e s e i s s u e s a s y o u a n d I h a v e h a d s e v e r al c o n v e r s ati o n s i n t h e p a st c o u pl e of w e e k s — all a d d r e s si n g i s s u e s
y o u’ v e r ai s e d h e r e. I n f a ct, w e l a st s p o k e o n W e d n e s d a y a b o ut t h e s e s a m e t o pi c s. D O J a n d t h e St at e
B o a r d a r e h a p p y t o c o nti n u e t o c o nf e r c o o p e r ati v el y, a s w e h a v e b e e n d oi n g f o r t h e l a st s e v e r al w e e k s.
T h a n k s,
P ri y a

S ri p ri y a N a r a si m h a n
D e p ut y G e n e r al C o u n s el
N o rt h C a r oli n a D e p a rt m e nt of J u sti c e
1 1 4 W. E d e nt o n St., R al ei g h, N C 2 7 6 0 3
T el: ( 9 1 9) 7 1 6- 6 4 2 1 * E m ail: s n a r a si m h a n @ n c d oj. g o v

Fr o m: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >
S e nt: Fri d a y, S e pt e m b er 2 5, 2 0 2 0 2: 2 6 P M
T o: P et ers, Al e c <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al
< N M c H e nr y @ n c d oj. g o v >
C c: 'J o n S h er m a n' <js h er m a n @f air el e cti o ns c e nt er. or g>; ' V ar g h es e, G e or g e'
< G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.' < J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a
< R e b e c c a. L e e @ wil m er h al e. c o m >; Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >; L o v e, K at el y n
< K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
D e ar Al e c, N e al, a n d K at hr y n e,
I a m writi n g t o e x pr e s s o ur c o n c er n wit h t h e S B E’ s l a c k of c o m pli a n c e wit h t h e PI Or d er. T o d at e, w e
ar e n ot a w ar e of a n y c o m m u ni c ati o n fr o m d ef e n d a nt s t o t h e c o u nt y b o ar d s of el e cti o n s r e g ar di n g
t h e PI Or d er i n pl a c e, i n cl u di n g s p e cifi c all y t h at c o u nti e s m a y n ot “ di s all o w[] or r ej e ct[] . . . a b s e nt e e
b all ot s wit h o ut d u e pr o c e s s a s t o t h o s e b all ot s wit h a m at eri al err or t h at i s s u bj e ct t o r e m e di ati o n.”
( PI Or d er, p. 1 8 7). If o ur u n d er st a n di n g i s n ot c orr e ct, w e a s k t h at y o u cl arif y w h er e a n d h o w t hi s
c o m m u ni c ati o n h a s b e e n m a d e t o t h e c o u nti e s a n d h o w t h e S B E i nt e n d s t o m o nit or c o m pli a n c e wit h
t hi s dir e cti o n. Wit h o ut t hi s dir e cti o n, w e p er c ei v e a s u b st a nti al ri s k t h at c o u nt y b o ar d s of el e cti o n s
will r ej e ct b all ot s i n t h e m e eti n g s t h at ar e t o st art S e pt e m b er 2 9, 2 0 2 0 wit h o ut h a vi n g aff or d e d d u e
pr o c e s s t o v ot er s i n vi ol ati o n of t h e PI Or d er.
A d diti o n all y, t h e r e vi s e d m e m o i s s u e d S e pt e m b er 2 2, 2 0 2 0 ( N u m b er e d M e m o 2 0 2 0 -1 9) n o w o mit s a n y
m e nti o n of v ot er s h a vi n g a n y o p p ort u nit y t o b e h e ar d d uri n g c a n v a s s r e g ar di n g m at eri al err or s o n
t h eir b all ot s a s a n o pti o n. T hi s i s f urt h er c o n c er ni n g, i n a d diti o n t o ot h er i s s u e s w e h a v e r ai s e d t o y o ur
att e nti o n i n pri or c orr e s p o n d e n c e.

A p p. 0 7 0

We remain confused at your lack of engagement with us on these issues, and believe that conferring
in good faith would allow us to resolve these issues without the need for further court involvement.
We can be available later today, over this weekend, or Monday 10am-11am or 2pm–3pm to discuss.
Kind regards,
Hilary
Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Hilary Harris Klein
Sent: Friday, September 18, 2020 4:45 PM
To: 'Peters, Alec' <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry,
Neal <NMcHenry@ncdoj.gov>
Cc: 'Jon Sherman' <jsherman@fairelectionscenter.org>; 'Varghese, George'
<George.Varghese@wilmerhale.com>; 'Yu, Joseph J.' <Joseph.Yu@wilmerhale.com>; Lee, Rebecca
<Rebecca.Lee@wilmerhale.com>; Allison Riggs <AllisonRiggs@southerncoalition.org>; Love, Katelyn
<Katelyn.Love@ncsbe.gov>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Dear Alec, Kathryne, and Neal,
I’m following up on my correspondence below and to express our growing concerns about the status
of the due process relief that has been ordered. We understand that, last Friday (September 11),
counties were directed to halt sending voter notification of deficiencies pending further guidance but
that no such further guidance has been issued, and thus it appears the county processing of absentee
ballots may be currently stalled. We also recognize some urgency given that county boards of
election are to start meeting on September 29 (one and a half weeks from now) to formally accept /
reject absentee ballots. We would like to avoid any unnecessary motions practice and therefore seek
again to meet and confer with you regarding the relief ordered by the Court on August 4. We can be
available Monday 10am – 2pm or 2pm – 4pm.
Kind regards,
Hilary
Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Hilary Harris Klein
Sent: Wednesday, September 2, 2020 10:29 AM
To: 'Peters, Alec' <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry,
Neal <NMcHenry@ncdoj.gov>
Cc: 'Jon Sherman' <jsherman@fairelectionscenter.org>; 'Varghese, George'
<George.Varghese@wilmerhale.com>; 'Yu, Joseph J.' <Joseph.Yu@wilmerhale.com>; Lee, Rebecca
<Rebecca.Lee@wilmerhale.com>; Allison Riggs <AllisonRiggs@southerncoalition.org>; Love, Katelyn
<Katelyn.Love@ncsbe.gov>

App. 071

Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Dear Alec, Kathryne, and Neal,
I’m following up on my letter from a week ago to see if you are available to discuss. We would be
available tomorrow 12 – 1:30pm.
Kind regards,
Hilary
Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Hilary Harris Klein
Sent: Wednesday, August 26, 2020 10:37 AM
To: 'Peters, Alec' <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry,
Neal <NMcHenry@ncdoj.gov>
Cc: 'Jon Sherman' <jsherman@fairelectionscenter.org>; 'Varghese, George'
<George.Varghese@wilmerhale.com>; 'Yu, Joseph J.' <Joseph.Yu@wilmerhale.com>; Lee, Rebecca
<Rebecca.Lee@wilmerhale.com>; Allison Riggs <AllisonRiggs@southerncoalition.org>; Love, Katelyn
<Katelyn.Love@ncsbe.gov>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Dear Alec, Kathryn, and Neal,
Please see the attached follow-up letter regarding and the cure remedy ordered by the Court on
August 4, 2020 and Numbered Memo 2020-19.
Kind regards,
Hilary
Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Hilary Harris Klein
Sent: Wednesday, August 12, 2020 12:51 PM
To: 'Peters, Alec' <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry,
Neal <NMcHenry@ncdoj.gov>
Cc: 'Jon Sherman' <jsherman@fairelectionscenter.org>; 'Varghese, George'
<George.Varghese@wilmerhale.com>; 'Yu, Joseph J.' <Joseph.Yu@wilmerhale.com>; Lee, Rebecca
<Rebecca.Lee@wilmerhale.com>; Allison Riggs <AllisonRiggs@southerncoalition.org>; Love, Katelyn
<Katelyn.Love@ncsbe.gov>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Dear Alec, Kathryne, and Neal,

App. 072

Please see the attached letter regarding the cure remedy ordered by the Court on August 4, 2020.
Kind regards,
Hilary
Hilary Harris Klein
919-323-3380 ext. 119 | hilaryhklein@scsj.org

From: Allison Riggs <AllisonRiggs@southerncoalition.org>
Sent: Friday, August 7, 2020 10:02 AM
To: 'Peters, Alec' <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry,
Neal <NMcHenry@ncdoj.gov>; Love, Katelyn <Katelyn.Love@ncsbe.gov>
Cc: Hilary Harris Klein <hilaryhklein@scsj.org>; 'Jon Sherman' <jsherman@fairelectionscenter.org>;
'Varghese, George' <George.Varghese@wilmerhale.com>; 'Yu, Joseph J.'
<Joseph.Yu@wilmerhale.com>; Lee, Rebecca <Rebecca.Lee@wilmerhale.com>
Subject: RE: [External]RE: DemNC v. NCSBOE - cure remedy
Thanks, Alec, we’ll look forward to hearing from you. And of course, thanks for understanding that
given the court’s order on topic, the need to confer with prevailing parties on the sufficiency of the
remedy before issuing any guidance.
Thanks,
Allison Riggs
Interim Executive Director
Chief Counsel for Voting Rights
Southern Coalition for Social Justice
1415 West Highway 54, Ste. 101
Durham, NC 27707
919-323-3380 ext. 117
919-323-3942 (fax)
allison@southerncoalition.org
CONFIDENTIAL & PRIVILEGED
This communication is intended solely for the addressee. Any unauthorized review, use, disclosure
or distribution is prohibited. If you believe this message has been sent to you in error, please notify
the sender by replying to this transmission and delete the message without disclosing it. Thank you.
From: Peters, Alec <apeters@ncdoj.gov>
Sent: Friday, August 7, 2020 9:13 AM
To: Allison Riggs <AllisonRiggs@southerncoalition.org>; Hathcock, Kathryne
<KHathcock@ncdoj.gov>; McHenry, Neal <NMcHenry@ncdoj.gov>; Love, Katelyn
<Katelyn.Love@ncsbe.gov>

App. 073

Cc: Hilary Harris Klein <hilaryhklein@scsj.org>; 'Jon Sherman' <jsherman@fairelectionscenter.org>;
'Varghese, George' <George.Varghese@wilmerhale.com>; 'Yu, Joseph J.'
<Joseph.Yu@wilmerhale.com>; Lee, Rebecca <Rebecca.Lee@wilmerhale.com>
Subject: [External]RE: DemNC v. NCSBOE - cure remedy
Hey Allison, and thanks for your understandable interest in the guidance that the State Board will be
preparing. We will be happy to reach out when we are ready to discuss this with the other parties.
Best regards,
Alec

Alexander McC. Peters
Chief Deputy Attorney General
919.716.6400
apeters@ncdoj.gov
114 W. Edenton St., Raleigh, NC 27603
ncdoj.gov
Please note messages to or from this address may be public records.

From: Allison Riggs <AllisonRiggs@southerncoalition.org>
Sent: Thursday, August 06, 2020 3:22 PM
To: Peters, Alec <apeters@ncdoj.gov>; Hathcock, Kathryne <KHathcock@ncdoj.gov>; McHenry, Neal
<NMcHenry@ncdoj.gov>; Love, Katelyn <Katelyn.Love@ncsbe.gov>
Cc: Hilary Harris Klein <hilaryhklein@scsj.org>; 'Jon Sherman' <jsherman@fairelectionscenter.org>;
'Varghese, George' <George.Varghese@wilmerhale.com>; 'Yu, Joseph J.'
<Joseph.Yu@wilmerhale.com>; Lee, Rebecca <Rebecca.Lee@wilmerhale.com>
Subject: DemNC v. NCSBOE - cure remedy
Importance: High
Alec et al.,
Hope you’re doing well. We’d like to schedule a time to talk to you all about the steps your client
will take to comply with Judge Osteen’s injunction from Tuesday about notice and cure for absentee
voters this year. We’d like to ensure that we’re on the same page with respect to what full
compliance looks like so that we don’t have to engage in any motions practice on this front.
We’re available tomorrow at 3:30 PM or Monday between noon and 3 PM. Please let me know if
any of those times work and we’ll circulate a dial-in.
Thanks,
Allison Riggs
Interim Executive Director

App. 074

Chief Counsel for Voting Rights
Southern Coalition for Social Justice
1415 West Highway 54, Ste. 101
Durham, NC 27707
919-323-3380 ext. 117
919-323-3942 (fax)
allison@southerncoalition.org
CONFIDENTIAL & PRIVILEGED
This communication is intended solely for the addressee. Any unauthorized review, use, disclosure
or distribution is prohibited. If you believe this message has been sent to you in error, please notify
the sender by replying to this transmission and delete the message without disclosing it. Thank you.

App. 075

EXHIBIT 10

App. 076

App. 077

App. 078

App. 079

App. 080

App. 081

App. 082

App. 083

App. 084

App. 085

App. 086

App. 087

App. 088

App. 089

App. 090

App. 091

App. 092

App. 093

App. 094

App. 095

App. 096

App. 097

App. 098

App. 099

App. 100

App. 101

App. 102

App. 103

App. 104

App. 105

App. 106

App. 107

App. 108

App. 109

App. 110

App. 111

App. 112

App. 113

App. 114

App. 115

App. 116

App. 117

App. 118

EXHIBIT 11

App. 119

App. 120

1.

On August 18, 2020, Plaintiffs filed an Amended Complaint, seeking declaratory

and injunctive relief to enjoin North Carolina laws related to in-person and absentee-by-mail
voting in the remaining elections in 2020 that they alleged unconstitutionally burden the right to
vote in light of the current public health crisis caused by the novel coronavirus (“COVID-19”).
2.

Also on August 18, Plaintiffs filed a Motion for Preliminary Injunction seeking

to:
(i)

enjoin the enforcement of the absentee ballot receipt deadline set forth in
N.C.G.S. § 163-231(b)(1), (2), as applied to ballots submitted through the
United States Postal Service (USPS) for the 2020 elections, and order
Defendants to count all otherwise eligible ballots that are postmarked by
Election Day and received by county boards of elections up to nine days
after Election Day;

(ii)

enjoin the enforcement of the witness requirements for absentee ballots set
forth in N.C. Gen. Stat. § 163-231(a), as applied to voters residing in
single-person or single-adult households;

(iii)

enjoin the enforcement of N.C. Gen. Stat. § 163-231(b)(1) to the extent
that it requires voters to pay for postage in order to mail their absentee
ballots;

(iv)

order Defendants to provide postage for absentee ballots submitted by
mail in the November election;

(v)

order Defendants to provide uniform guidance and training for election
officials engaging in signature verification and instruct county election
officials not to reject absentee ballots due to perceived non-matching
signatures until the county officials receive such guidance and undergo
training;

(vi)

enjoin the enforcement of N.C. Gen. Stat. §§ 163-226.3(a)(5), 163230.2(c) and (e), 163-231(b)(1), and any other laws that prohibit
individuals or organizations from assisting voters to submit absentee
ballots or to fill out and submit absentee ballot request forms; and

(vii)

enjoin the enforcement of N.C. Gen. Stat. § 163-227.2(b) and any other
laws that prevent county election officials from providing additional onestop (“early”) voting days and ordering Defendants to allow county
election officials to expand early voting by up to an additional 21 days for
the November election.

-2-

App. 121

Plaintiffs filed a brief in support of their Motion on September 4, 2020.
3.

Since Plaintiffs moved the Court for preliminary injunctive relief, Plaintiffs and

Executive Defendants have engaged in substantial good-faith negotiations regarding a potential
settlement of Plaintiffs’ claims against Executive Defendants.
4.

Following extensive negotiation, the Parties have reached a settlement to fully

resolve Plaintiffs’ claims, the terms of which are set forth in the proposed Consent Judgment
filed concurrently with this Joint Motion.
5.

As set forth in the Consent Judgment and in the exhibits thereto, (Numbered

Memos 2020-19, 2020-22, and 2020-23), all ballots postmarked by Election Day shall be
counted if otherwise eligible and received up to nine days after Election Day, pursuant to
Numbered Memo 2020-22. Numbered Memo 2020-19 implements a procedure to cure certain
deficiencies with absentee ballots, including missing voter, witness, or assistant signatures and
addresses. Finally, Numbered Memo 2020-23 instructs county boards to designate separate
absentee ballot drop-off stations at all one-stop early voting locations and county board offices,
through which voters and authorized persons may return absentee ballots in person.
6.

Plaintiffs and Executive Defendants further agree to each bear their own fees,

expenses, and costs with respect to all claims raised by Plaintiffs against the Executive
Defendants, and all such claims Plaintiffs allege against the Executive Defendants in this action
related to the conduct of the 2020 elections shall be dismissed.
WHEREFORE Plaintiffs and Executive Defendants respectfully request that this Court grant
their Joint Motion and enter the proposed Consent Judgment, filed concurrently with this motion,
as a full and final resolution of Plaintiffs’ claims against Executive Defendants related to the
conduct of the 2020 elections.

-3-

App. 122

Dated: September 22, 2020

Respectfully submitted,

Marc E. Elias
Uzoma N. Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
Ariel B. Glickman
PERKINS COIE LLP
700 Thirteenth Street, N.W., Suite 800
Washington, D.C. 20005
Telephone: 202.654.6200
Facsimile: 202.654.6211
MElias@perkinscoie.com
UNkwonta@perkinscoie.com
LMadduri@perkinscoie.com
JJasrasaria@perkinscoie.com
AGlickman@perkinscoie.com

By:
Narendra K. Ghosh, NC Bar No. 37649
Burton Craige, NC Bar No. 9180
Paul E. Smith, NC Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517
Telephone: 919.942.5200
BCraige@pathlaw.com
NGhosh@pathlaw.com
PSmith@pathlaw.com
Attorneys for Plaintiffs

Molly Mitchell
PERKINS COIE LLP
1111 West Jefferson Street, Suite 500
Boise, Idaho 83702
Telephone: 208.343.3434
Facsimile: 208.343.3232
MMitchell@perksincoie.com
Attorneys for Plaintiffs
/s/ Alexander McC. Peters
Alexander McC. Peters, N.C. Bar No. 13654
Terrance Steed
North Carolina Dept. of Justice
Post Office Box 629
Raleigh, N.C. 27602
apeters@ncdoj.gov
tsteed@ncdoj.gov
Attorneys for Executive Defendants

-4-

App. 123

CERTIFICATE OF SERVICE
I certify that I served the foregoing document by email to counsel for defendants,
addressed as follows:
Alexander McC. Peters
N.C. Department of Justice
PO Box 629
Raleigh, NC 27602
apeters@ncdoj.gov
Attorney for Defendants
Nicole Jo Moss, N.C. Bar No. 31958
Cooper & Kirk, PLLC
1523 New Hampshire Avenue NW
Washington DC, 20036
nmoss@cooperkirk.com
Nathan A. Huff, N.C. Bar No. 40626
Phelps Dunbar LLP
GlenLake One
4140 Parklake Avenue, Suite 100
Raleigh, North Carolina 27612-3723
Nathan.Huff@phelps.com
Attorneys for Intervenors
R. Scott Tobin
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road. Suite 1000
Raleigh, NC. 27609
stobin@taylorenglish.com
Bobby R. Burchfield
KING & SPALDING LLP
1700 Pennsylvania Ave, N.W., Suite 200
Washington. D.C. 20006-4707
BBurchfield@KSLAW.com
Attorneys for Proposed Intervenors
This the 22nd day of September, 2020.
_______________________________
Narendra K. Ghosh

-5-

App. 124

STATE OF NORTH CAROLINA
COUNTY OF WAKE
NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER
FOWLER; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION

No. 20-CVS-8881

Plaintiffs,
v.
THE NORTH CAROLINA STATE BOARD
OF ELECTIONS; and DAMON CIRCOSTA,
in his official capacity as CHAIR OF THE
NORTH CAROLINA STATE BOARD OF
ELECTIONS,

STIPULATION AND CONSENT
JUDGMENT

Defendants, and,
PHILIP E. BERGER, in his official capacity as
President Pro Tempore of the North Carolina
Senate; and TIMOTHY K. MOORE, in his
official capacity as Speaker of the North
Carolina House of Representatives,
Intervenor-Defendants.

Plaintiffs North Carolina Alliance for Retired Americans, Barker Fowler, Becky Johnson,
Jade Jurek, Rosalyn Kociemba, Tom Kociemba, Sandra Malone, and Caren Rabinowitz, and
Executive Defendants Damon Circosta and the North Carolina State Board of Elections
(collectively, “the Consent Parties”) stipulate to the following and request that this Court approve
this Consent Judgment. This Stipulation and Consent Judgment encompasses Plaintiffs’ claims,
which pertain to elections in 2020 (“2020 elections”) and are premised upon the current public
health crisis facing North Carolina caused by the ongoing spread of the novel coronavirus.

App. 125

I.
RECITALS
WHEREAS on August 10, 2020, Plaintiffs filed a complaint, and, on August 18, 2020,
Plaintiffs filed an amended complaint against Executive Defendants challenging the
constitutionality and enforcement, during the 2020 elections, of: (1) North Carolina’s limitations
on the number of days and hours of early voting that counties may offer, N.C. Gen. Stat. § 163227.2(b); (2) its requirement that all absentee ballot envelopes must be signed by a witness
during the pandemic, as applied to voters in single-person or single-adult households, Bipartisan
Elections Act of 2020, 2020 N.C. Sess. Laws 2020-17, § 1.(a) (“HB 1169”) (the “Witness
Requirement”); (3) its failure to provide pre-paid postage for absentee ballots and ballot request
forms, N.C. Gen. Stat. § 163-231(b)(1) (the “Postage Requirement”); (4) laws requiring county
boards of elections to reject absentee ballots that are postmarked by Election Day but delivered
to county boards more than three days after the election, as applied to voters who submit ballots
through the United States Postal Service, id. § 163-231(b)(2) (the “Receipt Deadline”); (5) the
practice in some counties of rejecting absentee ballots for signature defects (the “Signature
Matching Procedures”); (6) laws prohibiting voters from receiving assistance from the vast
majority of individuals and organizations in completing or submitting their absentee ballot
request forms, 2019 N.C. Sess. Laws 2019-239, § 1.3(a) (“SB 683”), (the “Application
Assistance Ban”); and (7) laws severely restricting voters’ ability to obtain assistance in
delivering their marked and sealed absentee ballots to county boards, and imposing criminal
penalties for providing such assistance, N.C. Gen. Stat. § 163-226.3(a)(5) (the “Ballot Delivery
Ban”) (collectively, the “Challenged Provisions”);

2

App. 126

WHEREAS the Complaint seeks to enjoin enforcement of the Challenged Provisions
during the 2020 elections due to the ongoing public health crisis caused by the spread of the
novel coronavirus (COVID-19);
WHEREAS the COVID-19 public health crisis is ongoing, and North Carolina remains
under Executive Order 163, which contemplates a phased reopening of North Carolina but
strongly recommends social distancing, Exec. Order 163, § 2.2, mandates mask wearing in most
business and government settings, id. § 3.2, imposes capacity limits in most public-facing
business and government settings, id., § 3.2(e), prohibits mass gatherings, id. § 7, and states that
“[p]eople who are at high risk of severe illness from COVID-19 are very strongly encouraged to
stay home and travel only for absolutely essential purposes,” id. § 2.1;
WHEREAS North Carolina remains under a state of emergency, declared by the
Governor, “based on the public health emergency posed by COVID-19,” Exec. Order 116, and
under a federal disaster declaration statewide, 85 Fed. Reg. 20701;
WHEREAS as of September 19, 2020, North Carolina has had more than 192,248
confirmed COVID-19 cases, with more than 3,235 fatalities;
WHEREAS COVID-19 case counts continue to grow across the country, and the
director of the Center for Disease Control and Prevention recently warned that the country
should brace for “the worst fall from a public health perspective, we’ve ever had” 1;
WHEREAS the Executive Director of the North Carolina State Board of Elections
observed that COVID-19 infections in North Carolina are likely to continue into the fall, through
at least Election Day; 2
1

Coronavirus in Context: CDC Director Discusses Next Steps in the War Against COVID,
Interview with John Whyte, WebMD (Aug. 13, 2020), https://www.webmd.com/coronavirus-incontext/video/robert-redfield.

3

App. 127

WHEREAS, on June 22, 2020, the Centers for Disease Control and Prevention (CDC)
issued interim guidance to prevent the spread of COVID-19 in election-polling locations. 3 The
CDC guidance encourages elections officials to:
• “Encourage voters to stay at least 6 feet apart” from each other by posting signs and
providing other visual cues and have plans to manage lines to ensure social distancing
can be maintained;
• Increase the number of polling locations available for early voting and extend hours of
operation at early voting sites;
• Maintain or increase the total number of polling places available to the public on
Election Day to improve the ability to social distance;
• Minimize lines as much as possible, especially in small, indoor spaces;
• “Limit the number of voters in the facility by moving lines outdoors if weather permits
or using a ticket system for access to the facility”;
• Offer alternatives to in-person voting;
• Offer alternative voting options that minimize exposure between poll workers and
voters;

2

N.C. State Bd. of Elections, Emergency Order, Administering the November 3, 2020
General Election During the Global COVID-19 Pandemic and Public Health Emergency (July
17,
2020),
https://s3.amazonaws.com/dl.ncsbe.gov/State_Board_Meeting_Docs/Orders/Executive%20Direc
tor%20Orders/Emergency%20Order_2020-07-17.pdf.
3
Considerations for Election Polling Locations and Voters: Interim guidance to prevent
spread of coronavirus disease 2019 (COVID-19), CDC, https://www.cdc.gov/coronavirus/2019ncov/community/election-polling-locations.html.

4

App. 128

WHEREAS large crowds at early voting and long lines on Election Day may create
public health risks and impose severe burdens on the right to vote, making absentee voting by
mail essential to ameliorate these possibilities;

WHEREAS, as of September 18, 2020, more than 889,273 absentee ballots had already
been requested by North Carolina voters, more than 14 times the number of absentee ballots that
had been requested by this time in 2016;
WHEREAS the absentee voting period for the 2020 elections began on September 4,
2020, N.C. Gen. Stat. § 163-227.10(a), and, as of September 21, 2020, nearly 1,400 absentee
ballots had been flagged for incomplete witness information, according to data from the State
Board of Elections 4;
WHEREAS, on August 4, 2020, the United States District Court for the Middle District
of North Carolina enjoined the State Board from “the disallowance or rejection . . . of absentee
ballots without due process as to those ballots with a material error that is subject to
remediation.” Democracy N.C. v. N.C. State Bd. of Elections, No. 1:20-cv-00457-WO-JLW
(M.D.N.C. Aug. 4, 2020) (Osteen, J.), ECF 124 at 187. The injunction is to remain in force until
the State Board implements a cure process that provides a voter with “notice and an opportunity
to be heard before an absentee ballot with a material error subject to remediation is disallowed or
rejected.” Id.
WHEREAS courts in other states have enjoined those states from enforcing witness and
notarization requirements, some of which are similar to North Carolina’s Challenged Provisions,

4

North
Carolina
Early
Voting
Statistics,
https://electproject.github.io/Early-Vote-2020G/NC.html.

5

U.S.

Elections

Project,

App. 129

for elections occurring this year during the COVID-19 pandemic. See, e.g., Common Cause R.I.
v. Gorbea, No. 20-1753, 2020 WL 4579367, at *2 (1st Cir. Aug. 7, 2020) (denying motion to
stay consent judgment suspending “notary or two-witness requirement” for mail ballots and
finding that “[t]aking an unusual and in fact unnecessary chance with your life is a heavy burden
to bear simply to vote.”), stay denied sub nom. Republican Nat’l Comm. v. Common Cause, No.
20A28, 2020 WL 4680151 (U.S. Aug. 13, 2020); Thomas v. Andino, No. 3:20-cv-01552-JMC,
2020 WL 2617329, at *21 (D.S.C. May 25, 2020) (finding “strong likelihood that the burdens
placed upon [plaintiffs] by” single-witness signature requirement “outweigh the imprecise, and
(as admitted by [defendants]) ineffective, state interests of combating voter fraud and protecting
voting integrity”); League of Women Voters of Va. v. Va. State Bd. of Elections, No. 6:20-CV00024, 2020 WL 2158249, at *8 (W.D. Va. May 5, 2020) (“In our current era of social
distancing—where not just Virginians, but all Americans, have been instructed to maintain a
minimum of six feet from those outside their household—the burden [of the witness
requirement] is substantial for a substantial and discrete class of Virginia’s electorate. During
this pandemic, the witness requirement has become ‘both too restrictive and not restrictive
enough to effectively prevent voter fraud.’”); Stipulation and Partial Consent Judgment, LaRose
v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. June 17, 2020) (approving consent judgment
to not enforce Witness Requirement and Receipt deadline for primary election); Stipulation and
Partial Consent Judgment, LaRose v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. July 17,
2020) (approving similar consent judgment for November general election);

6

App. 130

WHEREAS the delivery standards for the Postal Service, even in ordinary times,
contemplate at a minimum at least a week for ballots to be processed through the postal system
and delivered to election officials 5;
WHEREAS the General Counsel of the Postal Service sent a letter on July 30, 2020 to
North Carolina’s Secretary of State warning that, under North Carolina’s “election laws, certain
deadlines for requesting and casting mail-in ballots are incongruous with the Postal Service’s
delivery standards,” and that “there is a significant risk” that “ballots may be requested in a
manner that is consistent with your election rules and returned promptly, and yet not be returned
in time to be counted.” 6 In particular, the Postal Service recommended that election officials
transmitting communication to voters “allow 1 week for delivery to voters,” and that civilian
voters “should generally mail their completed ballots at least one week before the state’s due
date. In states that allow mail-in ballots to be counted if they are both postmarked by Election
Day and received by election officials by a specific date that is less than a week after Election
Day, voters should mail their ballots at least one week before they must be received by election
officials.” Id.;
WHEREAS mail delivery conditions are already leading to greater delays: since midJuly there have been sharp decreases in the percentage of U.S. Postal Service mail, sent by any
method, delivered on time; 7

5

State and Local Election Mail—User’s Guide, U.S. Postal Serv. (Jan. 2020),
https://about.usps.com/publications/pub632.pdf.
6
Letter to North Carolina Secretary of State from USPS General Counsel, App’x to Compl.,
ECF No. 1-1 at 53-55, Commonwealth of Pennsylvania v. DeJoy, No. 2:20-cv-04096-GAM
(E.D. Pa. Aug. 21, 2020).
7
Service Performance Measurement PMG Briefing, U.S. Postal Serv. (Aug. 12, 2020),
https://oversight.house.gov/sites/democrats.oversight.house.gov/files/documents/PMG%20Briefi
ng_Service%20Performance%20Management_08_12_2020.pdf.

7

App. 131

WHEREAS on August 21, 2020, the State of North Carolina, along with six other states
filed a lawsuit challenging the Postal Service’s procedural changes that the State alleges will
likely delay election mail even further, creating a “significant risk” that North Carolina voters
will be disenfranchised by the State’s relevant deadlines governing absentee ballots;
WHEREAS increases in absentee voting, coupled with mail delays, threaten to slow
down the process of mailing and returning absentee ballots, and appear likely to impact the 2020
elections;
WHEREAS pursuant to N.C. Gen. Stat. § 163-231(b)(2)(c), North Carolina already
accepts military and overseas absentee ballots until the end of business on the business day
before the canvass which occurs no earlier than the tenth day after the election, see id. § 163182.5(b);
WHEREAS for the April 7, 2020 primary election in Wisconsin, the U.S. Supreme
Court affirmed the implementation of a postmark rule, whereby ballots postmarked by Election
Day could be counted as long as they were received within six days of Election Day, Republican
Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (2020), and other courts have
also extended Election Day Receipt Deadlines in light of the current public health crisis. See
Mich. All. for Retired Americans v. Benson, No. 20-000108-MM (Mich. Ct. Cl. Sept. 18, 2020)
(extending ballot receipt deadline for November 2020 election); Pa. Democratic Party v.
Boockvar, K., 133 MM 2020, 2020 WL 5554644 (Pa. Sept. 17, 2020) (extending ballot receipt
deadline for the November 2020 election); New Ga. Project v. Raffensperger, No. 1:20-cv01986-ELR (N.D. Ga, Aug. 31, 2020) (granting motion for preliminary injunction in part and
extending receipt deadline); Driscoll v. Stapleton, No. DV 20-408 (Mont. Dist. Ct. May 22,
2020), stayed pending appeal No. DA 20-0295 (preliminarily enjoining Montana’s receipt

8

App. 132

deadline and recognizing that enforcing the deadline was likely to disenfranchise thousands of
voters); LaRose v. Simon, No. 62-CV-20-3149 at *25 (Minn. Dist. Ct. Aug. 3, 2020) (entering
consent judgment extending Minnesota’s receipt deadline);
WHEREAS multiple courts have found that the enforcement of various other state
election laws during the pandemic violate constitutional rights. See, e.g., Esshaki v. Whitmer, 813
F. App’x 170, 173 (6th Cir. 2020) (finding ballot-access provisions unconstitutional as applied
during COVID-19 pandemic and upholding part of injunction enjoining state from enforcing the
provisions under the present circumstances against plaintiffs and all other candidates); Garbett v.
Herbert, No. 2:20-CV-245-RJS, 2020 WL 2064101, at *18 (D. Utah Apr. 29, 2020); Libertarian
Party of Ill. v. Pritzker, No. 20-cv-2112, 2020 WL 1951687 (N.D. Ill. Apr. 23, 2020) (applying
Anderson-Burdick in light of pandemic, and alleviating signature and witness requirements for
minor party candidates), aff’d sub nom. Libertarian Party of Ill. v. Cadigan, No. 20-1961, 2020
WL 5104251 (7th Cir. Aug. 20, 2020); People Not Politicians Oregon v. Clarno, 20-cv-1053,
2020 WL 3960440 (D. Or. July 13, 2020); Cooper v. Raffensperger, -- F. Supp. 3d --, 20-cv1312, 2020 WL 3892454 (N.D. Ga. July 9, 2020); Reclaim Idaho v. Little, 20-cv-268, 2020 WL
3490216 (D. Idaho June 26, 2020); Paher v. Cegavske, -- F. Supp. 3d --, 20-cv-243, 2020 WL
2089813 (D. Nev. Apr. 30, 2020); Goldstein v. Sec’y of Commonwealth, 484 Mass. 516, 142
N.E.3d 560 (2020);
WHEREAS the State Board of Elections has broad, general supervisory authority over
elections as set forth in N.C. Gen. Stat. § 163-22(a). As part of its supervisory authority, the State
Board is empowered to “compel observance” by county boards of election laws and procedures
as set forth in N.C. Gen. Stat. § 163-22(c).

9

App. 133

WHEREAS the Executive Director of the State Board, as the chief State elections
official, has the authority to issue Emergency Orders pursuant to N.C. Gen. Stat. § 163-27.1 and
08 NCAC 01.0106, which authorize her to exercise emergency powers to conduct an election
where the normal schedule is disrupted. See, e.g., Numbered Memo 2020-14; Numbered Memo
2020-19;
WHEREAS the Consent Parties agree that an expeditious resolution of this matter for
the 2020 elections, in the manner contemplated by the terms of this Stipulation and Consent
Judgment, will limit confusion and increase certainty surrounding the 2020 elections and is in the
best interests of the health, safety, and constitutional rights of the citizens of North Carolina, and,
therefore, in the public interest;
WHEREAS the Executive Defendants believe that continued litigation over the
Challenged Provisions will result in the unnecessary expenditure of State resources, and is
contrary to the best interests of the State of North Carolina;
WHEREAS the Consent Parties wish to avoid uncertainty about the requirements and
obligations of voting in the 2020 elections for State Board officials and non-parties including
county board officials, staff, and election workers, and the voting public;
WHEREAS the Consent Parties, in agreeing to these terms, acting by and through their
counsel, have engaged in arms’ length negotiations, and the Consent Parties are represented by
counsel knowledgeable in this area of the law;
WHEREAS, other courts across the country have approved similar consent judgments
between parties, see Common Cause R.I. v. Gorbea, No. 120CV00318MSMLDA, 2020 WL
4460914 (D.R.I. July 30, 2020) (approving consent judgment to not enforce Witness
Requirement in primary and November general elections); Stipulation and Partial Consent

10

App. 134

Judgment, LaRose v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. June 17, 2020) (approving
consent judgment to not enforce Witness Requirement and Receipt deadline for primary
election); Stipulation and Partial Consent Judgment, LaRose v. Simon, No. 62-CV-20-3149 (2d
Jud. Dist. Minn. July 17, 2020) (approving similar consent judgment for November general
election); League of Women Voters of Va., 2020 WL 2158249 (approving consent judgment to
not enforce Witness Requirement in primary election); see also Common Cause R.I. v. Gorbea,
970 F.3d 11, 14 (1st Cir. 2020) (denying motion to stay the consent judgment and judgment
pending appeal) stay denied sub nom. Republican Nat’l Comm. v. Common Cause R.I., No.
20A28, 2020 WL 4680151 (U.S. Aug. 13, 2020);
WHEREAS the Executive Defendants do not waive any protections offered to them
through federal or state law and do not make any representations regarding the merits of
Plaintiffs’ claims or potential defenses which could be raised in litigation;
WHEREAS the Consent Parties agree that the Consent Judgment promotes judicial
economy, protects the limited resources of the Consent Parties, and resolves Plaintiffs’ claims
regarding the 2020 elections against the Executive Branch Defendants;
WHEREAS Plaintiffs agree to a waiver to any entitlement to damages and fees,
including attorneys’ fees, expenses, and costs against the Executive Defendants with respect to
any and all claims raised by Plaintiffs in this action relating to the 2020 elections;
WHEREAS it is the finding of this Court, made on the pleadings and upon agreement of
the Consent Parties, that: (i) the terms of this Consent Judgment constitute a fair and equitable
settlement of the issues raised with respect to the 2020 elections, and (ii) the Consent Judgment
is intended to and does resolve Plaintiffs’ claims;

11

App. 135

NOW, THEREFORE, upon consent of the Consent Parties, in consideration of the
mutual promises and recitals contained in this Stipulation and Consent Judgment, including
relinquishment of certain legal rights, the Consent Parties agree as follows:
II.
JURISDICTION AND VENUE
This Court has jurisdiction over the subject matter of this action pursuant to Article 26 of
Chapter 1 of the General Statutes, N.C. Gen. Stat. § 7A-245(a)(2), and N.C. Gen. Stat. § 1-493,
and has jurisdiction over the Consent Parties herein. Venue for this action is proper in Wake
County Superior Court because the Executive Defendants reside in Wake County. Id. § 1-82.
The Court shall retain jurisdiction of this Stipulation and Consent Judgment for the duration of
the term of this Stipulation and Consent Judgment for purposes of entering all orders and
judgments that may be necessary to implement and enforce compliance with the terms provided
herein.
III.
PARTIES
This Stipulation and Consent Judgment applies to and is binding upon the following
parties:
A.

Damon Circosta, in his capacity as Chair of the North Carolina State Board of

Elections;
B.

The North Carolina State Board of Elections; and

C.

All Plaintiffs.
IV.
SCOPE OF CONSENT JUDGMENT

12

App. 136

A.

This Stipulation and Consent Judgment constitutes a settlement and resolution of

Plaintiffs’ claims against Executive Defendants pending in this Lawsuit. Plaintiffs recognize that
by signing this Stipulation and Consent Judgment, they are releasing any claims under the North
Carolina Constitution that they might have against Executive Defendants with respect to the
Challenged Provisions in the 2020 elections. Plaintiffs’ release of claims will become final upon
the effective date of this Stipulation and Consent Judgment.
B.

The Consent Parties to this Stipulation and Consent Judgment acknowledge that

this does not resolve or purport to resolve any claims pertaining to the constitutionality or
enforcement of the Challenged Provisions for elections held after the 2020 elections.
C.

The Consent Parties to this Stipulation and Consent Judgment further

acknowledge that by signing this Stipulation and Consent Judgment, the Consent Parties do not
release or waive the following: (i) any rights, claims, or defenses that are based on any events
that occur after they sign this Stipulation and Consent Judgment, (ii) any claims or defenses that
are unrelated to the allegations filed by Plaintiffs in this Lawsuit, and (iii) any right to institute
legal action for the purpose of enforcing this Stipulation and Consent Judgment or defenses
thereto.
D.

By entering this Stipulation and Consent Judgment, Plaintiffs are fully settling a

disputed matter between themselves and Executive Defendants. The Consent Parties are entering
this Stipulation and Consent Judgment for the purpose of resolving disputed claims, avoiding the
burdens and costs associated with the costs of litigating this matter through final judgment, and
ensuring both safety and certainty in advance of the 2020 elections. Nothing in this Stipulation
and Consent Judgment constitutes an admission by any party of liability or wrongdoing. The
Consent Parties acknowledge that a court may seek to consider this Stipulation and Consent

13

App. 137

Judgment, including the violations alleged in Plaintiffs’ Amended Complaint, in a future
proceeding distinct from this Lawsuit.
V.
CONSENT JUDGMENT OBJECTIVES
In addition to settling the claims of the Consent Parties, the objective of this Stipulation
and Consent Judgment is to avoid any continued uncertainty and distraction from the uniform
administration of the 2020 elections, protect the limited resources of the Consent Parties, ensure
that North Carolina voters can safely and constitutionally exercise the franchise in the 2020
elections, and ensure that election officials have sufficient time to implement any changes for the
2020 elections and educate voters about these changes.
VI.
INJUNCTIVE RELIEF
ACCORDINGLY, IT IS HEREBY ORDERED, ADJUDGED, AND JUDGED FOR
THE REASONS STATED ABOVE THAT:
A.

For the 2020 elections Executive Defendants shall extend the Receipt Deadline

for mailed absentee ballots, as set forth in N.C. Gen. Stat. § 163-231(b)(2), to the deadline set
forth in paragraph VI.B below and in Numbered Memo 2020-22 (attached as Exhibit A).
B.

Pursuant to Numbered Memo 2020-22, an absentee ballot shall be counted as

timely in the 2020 elections if it is either (1) received by the county board by 5:00 p.m. on
Election Day; or (2) the ballot is postmarked on or before Election Day and received by nine
days after the election, which is Thursday, November 12, 2020 at 5:00 p.m. For purposes of this
Stipulation and Consent Judgment and as the Numbered Memo requires, a ballot shall be
considered postmarked on or before Election Day if it has a postmark affixed to it or if there is
information in the Postal Service tracking system (BallotTrax), or another tracking service

14

App. 138

offered by the Postal Service or the commercial carrier, indicating that the ballot was in the
custody of the Postal Service or a commercial carrier on or before Election Day.
C.

For the 2020 elections, Executive Defendants shall institute a process to cure

deficiencies that may be cured with a certification from the voter in accordance with the
procedures set forth in Numbered Memo 2020-19 (attached as Exhibit B). Curable deficiencies
include: no voter signature, misplaced voter signature, no witness or assistant name, no witness
or assistant address, no witness or assistant signature, and misplaced witness or assistant
signature. If a county board office receives a container-return envelope with such a curable
deficiency, it shall contact the voter in writing by mail and, if available, email, within one
business day of identifying the deficiency, informing the voter that there is an issue with their
absentee ballot and enclosing a cure certification. The written notice shall be sent to the address
to which the voter requested their ballot be sent. The cure certification must be received by the
county board of elections by no later than 5 p.m. on Thursday, November 12, 2020, the day
before county canvass. The cure certification may be submitted to the county board office by fax,
email, in person, or by mail or commercial carrier.
D.

Pursuant to Numbered Memo 2020-23, (attached as Exhibit C) Executive

Defendants shall institute a process for establishing a separate absentee ballot drop-off station at
each one-stop early voting location and at county board offices. Such drop-off stations may be
located outdoors subject to the conditions set forth in Numbered Memo 2020-23. In addition,
when a person returns a ballot in person, the county board intake staffer shall ask the person for
their name and whether they are the voter or the voter’s near relative or legal guardian. The
staffer will indicate this information on a log along with the CIV number of the ballot and the
date that it was received. If the person returning the ballot in person indicates that they are not

15

App. 139

the voter or the voter’s near relative or legal guardian, the county board intake staffer will also
require the person to provide their address and phone number.
E.

Executive Defendants shall take additional reasonable steps to inform the public

of the contents of Numbered Memos 2020-19, -22, -23 and shall encourage all county boards of
elections to do the same.
F.

Plaintiffs will withdraw their Motion for Preliminary Injunction, filed on August

18, 2020, and will not file any further motions for relief for the 2020 elections based on the
claims raised in their Amended Complaint of August 18, 2020.
G.

In accordance with the terms of this Stipulation and Consent Judgment, the

Consent Parties shall each bear their own fees, expenses, and costs incurred as of the date of this
Order with respect to this lawsuit.
H.

All remaining claims filed by Plaintiffs against the Executive Defendants related

to the conduct of the 2020 elections in this action are hereby dismissed with prejudice. The Court
will retain jurisdiction of these claims only as to enforcement of the Stipulation and Consent
Judgment.
VII.
ENFORCEMENT AND RESERVATION OF REMEDIES
The parties to this Stipulation and Consent Judgment may request relief from this Court if
issues arise concerning the interpretation of this Stipulation and Consent Judgment that cannot be
resolved through the process described below. This Court specifically retains continuing
jurisdiction over the subject matter hereof and the Consent Parties hereto for the purposes of
interpreting, enforcing, or modifying the terms of this Stipulation and Consent Judgment, or for
granting any other relief not inconsistent with the terms of this Consent Judgment, until this
Consent Judgment is terminated. The Consent Parties may apply to this Court for any orders or
16

App. 140

other relief necessary to construe or effectuate this Stipulation and Consent Judgment or seek
informal conferences for direction as may be appropriate. The Consent Parties shall attempt to
meet and confer regarding any dispute prior to seeking relief from the Court.
If any Party believes that another has not complied with the requirements of this
Stipulation and Consent Judgment, it shall notify the other Party of its noncompliance by
emailing the Party’s counsel. Notice shall be given at least one business day prior to initiating
any action or filing any motion with the Court.
The Consent Parties specifically reserve their right to seek recovery of their litigation
costs and expenses arising from any violation of this Stipulation and Consent Judgment that
requires any Party to file a motion with this Court for enforcement of this Stipulation and
Consent Judgment.
VIII.
GENERAL TERMS
A.

Voluntary Agreement. The Consent Parties acknowledge that no person has

exerted undue pressure on them to enter into this Stipulation and Consent Judgment. Every Party
is voluntarily choosing to enter into this Stipulation and Consent Judgment because of the
benefits that are provided under the agreement. The Consent Parties acknowledge that they have
read and understand the terms of this Stipulation and Consent Judgment; they have been
represented by legal counsel or had the opportunity to obtain legal counsel; and they are
voluntarily entering into this Stipulation and Consent Judgment to resolve the dispute among
them.
B.

Severability. The provisions of this Stipulation and Consent Judgment shall be

severable, and, should any provisions be declared by a court of competent jurisdiction to be

17

App. 141

unenforceable, the remaining provisions of this Stipulation and Consent Judgment shall remain
in full force and effect.
C.

Agreement. This Stipulation and Consent Judgment is binding. The Consent

Parties acknowledge that they have been advised that (i) no other Party has a duty to protect their
interest or provide them with information about their legal rights, (ii) signing this Stipulation and
Consent Judgment may adversely affect their legal rights, and (iii) they should consult an
attorney before signing this Stipulation and Consent Judgment if they are uncertain of their
rights.
D.

Entire Agreement. This Stipulation and Consent Judgment constitutes the entire

agreement between the Consent Parties relating to the constitutionality and enforcement of the
Challenged Provisions as they pertain to the 2020 elections. No Party has relied upon any
statements, promises, or representations that are not stated in this document. No changes to this
Stipulation and Consent Judgment are valid unless they are in writing, identified as an
amendment to this Stipulation and Consent Judgment, and signed by all Parties. There are no
inducements or representations leading to the execution of this Stipulation and Consent
Judgment except as herein explicitly contained.
E.

Warranty. The persons signing this Stipulation and Consent Judgment warrant

that they have full authority to enter this Stipulation and Consent Judgment on behalf of the Party
each represents, and that this Stipulation and Consent Judgment is valid and enforceable as to
that Party.
F.

Counterparts. This Stipulation and Consent Judgment may be executed in

multiple counterparts, which shall be construed together as if one instrument. Any Party shall be
entitled to rely on an electronic or facsimile copy of a signature as if it were an original.

18

App. 142

G.

Effective Date. This Stipulation and Consent Judgment is effective upon the date

it is entered by the Court.
IX.
TERMINATION
This Stipulation and Consent Judgment shall remain in effect through the certification of
ballots for the 2020 elections. The Court shall retain jurisdiction to enforce the terms of the
Consent Judgment for the duration of this Consent Judgment. This Court’s jurisdiction over this
Stipulation and Consent Judgment shall automatically terminate after the certification of all
ballots for the 2020 elections.
THE PARTIES ENTER INTO AND APPROVE THIS STIPULATION AND CONSENT
JUDGMENT AND SUBMIT IT TO THE COURT SO THAT IT MAY BE APPROVED
AND ENTERED. THE PARTIES HAVE CAUSED THIS STIPULATION AND
CONSENT JUDGMENT TO BE SIGNED ON THE DATES OPPOSITE THEIR
SIGNATURES.

19

App. 143

NORTH CAROLINA STATE BOARD OF
ELECTIONS; and DAMON CIRCOSTA
CHAIR, NORTH CAROLINA STATE BOARD OF
ELECTIONS
Dated: September 22, 2020

By: /s/ Alexander McC. Peters
Alexander McC. Peters, N.C. Bar No. 13654
Terrance Steed
North Carolina Dept. of Justice
Post Office Box 629
Raleigh, N.C. 27602
apeters@ncdoj.gov
tsteed@ncdoj.gov
NORTH CAROLINA ALLIANCE FOR RETIRED
AMERICANS; BARKER FOWLER; BECKY
JOHNSON; JADE JUREK; ROSALYN
KOCIEMBA; TOM KOCIEMBA; SANDRA
MALONE; and CAREN RABINOWITZ

Dated: September 22, 2020

By:
Burton Craige, NC Bar No. 9180
Narendra K. Ghosh, NC Bar No. 37649
Paul E. Smith, NC Bar No. 45014
PATTERSON HARKAVY LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517
Telephone: 919.942.5200
BCraige@pathlaw.com
NGhosh@pathlaw.com
PSmith@pathlaw.com
Marc E. Elias
Uzoma N. Nkwonta
Lalitha D. Madduri
Jyoti Jasrasaria
Ariel B. Glickman
PERKINS COIE LLP
700 Thirteenth Street, N.W., Suite 800
Washington, DC 20005
Telephone: 202.654.6200
Facsimile: 202.654.6211
MElias@perkinscoie.com
UNkwonta@perkinscoie.com
LMadduri@perkinscoie.com
JJasrasaria@perkinscoie.com
AGlickman@perkinscoie.com
20
Molly Mitchell
PERKINS COIE LLP

App. 144

IT IS SO ORDERED. JUDGMENT SHALL BE ENTERED IN ACCORDANCE WITH
THE FOREGOING CONSENT JUDGMENT.
Dated: _____________________

______________________________
Superior Court Judge

21

App. 145

EXHIBIT A

App. 146

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-22
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Return Deadline for Mailed Civilian Absentee Ballots in 2020

DATE:

September 22, 2020

The purpose of this numbered memo is to extend the return deadline for postmarked civilian absentee ballots that are returned by mail and to define the term “postmark.” This numbered memo
only applies to remaining elections in 2020.

Extension of Deadline
Due to current delays with mail sent with the U.S. Postal Service (USPS)—delays which may be
exacerbated by the large number of absentee ballots being requested this election—the deadline
for receipt of postmarked civilian absentee ballots is hereby extended to nine days after the election
only for remaining elections in 2020.
An absentee ballot shall be counted as timely if it is either (1) received by the county board
by 5:00 p.m. on Election Day; or (2) the ballot is postmarked on or before Election Day and
received by nine days after the election, which is Thursday, November 12, 2020 at 5:00 p.m.1

Postmark Requirement
The postmark requirement for ballots received after Election Day is in place to prohibit a voter
from learning the outcome of an election and then casting their ballot. However, the USPS does
not always affix a postmark to a ballot return envelope. Because the agency now offers BallotTrax,
a service that allows voters and county boards to track the status of a voter’s absentee ballot, it is
possible for county boards to determine when a ballot was mailed even if it does not have a postmark. Further, commercial carriers including DHL, FedEx, and UPS offer tracking services that
allow voters and the county boards of elections to determine when a ballot was deposited with the
commercial carrier for delivery.
1

Compare G.S. § 163-231(b)(2)(b) (that a postmarked absentee ballot be received by three days
after the election).

App. 147

For remaining elections in 2020, a ballot shall be considered postmarked by Election Day if
it has a postmark affixed to it or if there is information in BallotTrax, or another tracking
service offered by the USPS or a commercial carrier, indicating that the ballot was in the
custody of USPS or the commercial carrier on or before Election Day. If a container-return
envelope arrives after Election Day and does not have a postmark, county board staff shall conduct
research to determine whether there is information in BallotTrax that indicates the date it was in
the custody of the USPS. If the container-return envelope arrives in an outer mailing envelope
with a tracking number after Election Day, county board staff shall conduct research with the
USPS or commercial carrier to determine the date it was in the custody of USPS or the commercial
carrier.

2
App. 148

EXHIBIT B

App. 149

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-19
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Absentee Container-Return Envelope Deficiencies

DATE:

August 21, 2020 (revised on September 22, 2020)

County boards of elections have already experienced an unprecedented number of voters seeking
to vote absentee-by-mail in the 2020 General Election, making statewide uniformity and consistency in reviewing and processing these ballots more essential than ever. County boards of
elections must ensure that the votes of all eligible voters are counted using the same standards,
regardless of the county in which the voter resides.
This numbered memo directs the procedure county boards must use to address deficiencies in absentee ballots. The purpose of this numbered memo is to ensure that a voter is provided every
opportunity to correct certain deficiencies, while at the same time recognizing that processes must
be manageable for county boards of elections to timely complete required tasks. 1

1. No Signature Verification
The voter’s signature on the envelope shall not be compared with the voter’s signature on file because this is not required by North Carolina law. County boards shall accept the voter’s signature on the container-return envelope if it appears to be made by the voter, meaning the signature
on the envelope appears to be the name of the voter and not some other person. Absent clear evidence to the contrary, the county board shall presume that the voter’s signature is that of the
voter, even if the signature is illegible. A voter may sign their signature or make their mark.

1

This numbered memo is issued pursuant to the State Board of Elections’ general supervisory
authority over elections as set forth in G.S. § 163-22(a) and the authority of the Executive Director in G.S. § 163-26. As part of its supervisory authority, the State Board is empowered to “compel observance” by county boards of election laws and procedures. Id., § 163-22(c).

App. 150

The law does not require that the voter’s signature on the envelope be compared with the voter’s
signature in their registration record. See also Numbered Memo 2020-15, which explains that
signature comparison is not permissible for absentee request forms.

2. Types of Deficiencies
Trained county board staff shall review each executed container-return envelope the office receives to determine if there are any deficiencies. County board staff shall, to the extent possible,
regularly review container-return envelopes on each business day, to ensure that voters have every
opportunity to correct deficiencies. Review of the container-return envelope for deficiencies occurs after intake. The initial review is conducted by staff to expedite processing of the envelopes.
Deficiencies fall into two main categories: those that can be cured with a certification and those
that cannot be cured. If a deficiency cannot be cured, the ballot must be spoiled and a new ballot
must be issued, as long as the ballot is issued before Election Day. See Section 3 of this memo,
Voter Notification.

2.1. Deficiencies Curable with a Certification (Civilian and UOCAVA)
The following deficiencies can be cured by sending the voter a certification:
•
•
•
•
•
•

Voter did not sign the Voter Certification
Voter signed in the wrong place
Witness or assistant did not print name 2
Witness or assistant did not print address 3
Witness or assistant did not sign
Witness or assistant signed on the wrong line

2

If the name is readable and on the correct line, even if it is written in cursive script, for example, it does not invalidate the container-return envelope.
3

Failure to list a witness’s ZIP code does not require a cure. G.S. § 163-231(a)(5). A witness or
assistant’s address does not have to be a residential address; it may be a post office box or other
mailing address. Additionally, if the address is missing a city or state, but the county board of
elections can determine the correct address, the failure to list that information also does not invalidate the container-return envelope. For example, if a witness lists “Raleigh 27603” you can
determine the state is NC, or if a witness lists “333 North Main Street, 27701” you can determine
that the city/state is Durham, NC. If both the city and ZIP code are missing, staff will need to
determine whether the correct address can be identified. If the correct address cannot be identified, the envelope shall be considered deficient and the county board shall send the voter the cure
certification in accordance with Section 3.
2
App. 151

This cure certification process applies to both civilian and UOCAVA voters.

2.2. Deficiencies that Require the Ballot to Be Spoiled (Civilian)
The following deficiencies cannot be cured by certification:
•
•

Upon arrival at the county board office, the envelope is unsealed
The envelope indicates the voter is requesting a replacement ballot

If a county board receives a container-return envelope with one of these deficiencies, county board
staff shall spoil the ballot and reissue a ballot along with a notice explaining the county board
office’s action, in accordance with Section 3.

2.3. Deficiencies that require board action
Some deficiencies cannot be resolved by staff and require action by the county board. These include situations where the deficiency is first noticed at a board meeting or if it becomes apparent
during a board meeting that no ballot or more than one ballot is in the container-return envelope.
If the county board disapproves a container-return envelope by majority vote in a board meeting
due to a deficiency, it shall proceed according to the notification process outlined in Section 3.

3. Voter Notification
3.1. Issuance of a Cure Certification or New Ballot
If there are any deficiencies with the absentee envelope, the county board of elections shall contact
the voter in writing within one business day of identifying the deficiency to inform the voter there
is an issue with their absentee ballot and enclosing a cure certification or new ballot, as directed
by Section 2. The written notice shall also include information on how to vote in-person during
the early voting period and on Election Day.
The written notice shall be sent to the address to which the voter requested their ballot be sent.
If the deficiency can be cured and the voter has an email address on file, the county board shall
also send the cure certification to the voter by email. If the county board sends a cure certification
by email and by mail, the county board should encourage the voter to only return one of the certifications. If the voter did not provide an email address but did provide a phone number, the county
board shall contact the voter by phone to inform the voter that the county board has mailed the
voter a cure certification.
If the deficiency cannot be cured, and the voter has an email address on file, the county board shall
notify the voter by email that a new ballot has been issued to the voter. If the voter did not provide
an email address but did provide a phone number, the county board shall contact the voter by phone
to inform the voter that the county board has issued a new ballot by mail.

3
App. 152

If, prior to September 22, 2020, a county board reissued a ballot to a voter, and the updated memo
now allows the deficiency to be cured by certification, the county board shall contact the voter in
writing and by phone or email, if available, to explain that the procedure has changed and that the
voter now has the option to submit a cure certification instead of a new ballot. A county board is
not required to send a cure certification to a voter who already returned their second ballot if the
second ballot is not deficient.
A county board shall not reissue a ballot on or after Election Day. If there is a curable deficiency,
the county board shall contact voters up until the day before county canvass.

3.2. Receipt of a Cure Certification
The cure certification must be received by the county board of elections by no later than 5 p.m. on
Thursday, November 12, 2020, the day before county canvass. The cure certification may be
submitted to the county board office by fax, email, in person, or by mail or commercial carrier. If
a voter appears in person at the county board office, they may also be given, and can complete, a
new cure certification.
The cure certification may only be returned by the voter, the voter’s near relative or legal guardian,
or a multipartisan assistance team (MAT). A cure certification returned by any other person is
invalid. It is not permissible for a cure certification to be submitted through a portal or form created
or maintained by a third party. A cure certification may not be submitted simultaneously with the
ballot. Any person who is permitted to assist a voter with their ballot may assist a voter in filling
out the cure certification.

3.3 County Board Review of a Cure Certification
At each absentee board meeting, the county board of elections may consider deficient ballot return
envelopes for which the cure certification has been returned. The county board shall consider together the executed absentee ballot envelope and the cure certification. If the cure certification
contains the voter’s name and signature, the county board of elections shall approve the absentee
ballot. A wet ink signature is not required, but the signature used must be unique to the individual.
A typed signature is not acceptable, even if it is cursive or italics such as is commonly seen with a
program such as DocuSign.

4. Late Absentee Ballots
Voters whose ballots are not counted due to being late shall be mailed a notice stating the reason
for the deficiency. A late civilian ballot is one that received after the absentee-ballot receipt deadline, defined in Numbered Memo 2020-22 as (1) 5 p.m. on Election Day or (2) if postmarked on
or before Election Day, 5 p.m. on Thursday, November 12, 2020. Late absentee ballots are not
curable.
If a ballot is received after county canvass the county board is not required to notify the voter.
4
App. 153

COUNTY LETTERHEAD

DATE

NAME
STREET ADDRESS
CITY, STATE, ZIP CODE
RE:

Notice of a Problem with Your Absentee Ballot

The [County] Board of Elections received your returned absentee ballot. We were unable to approve the counting of your
absentee ballot for the following reason or reasons:
☐

The absentee return envelope arrived at the county board of elections office unsealed.

☐

The absentee return envelope did not contain a ballot or contained the ballots of more
than one voter.

☐

Other:
________________________________________________________________________

We have reissued a new absentee ballot. Please pay careful attention to ALL of the instructions on the back of the
container-return envelope and complete and return your ballot so that your vote may be counted.
If time permits and you decide not to vote this reissued absentee ballot, you may vote in person at an early voting site in
the county during the one-stop early voting period (October 15-31), or at the polling place of your proper precinct on
Election Day, November 3. The hours for voting on Election Day are from 6:30 a.m. to 7:30 p.m. To find the hours and
locations for in-person voting in your county, visit http://www.ncsbe.gov .
U

U

Sincerely,
[NAME]
__________ County Board of Elections

App. 154

COUNTY LETTERHEAD
DATE
VOTER’S NAME
STREET ADDRESS
CITY, STATE, ZIP CODE
CIV Number

Absentee Cure Certification

There is a problem with your absentee ballot – please sign and return this form.

U

Instructions
You are receiving this affidavit because your absentee ballot envelope is missing information. For your absentee
ballot to be counted, complete and return this affidavit as soon as possible. The affidavit must be received by
your county board of elections by no later than 5 p.m. on Thursday, November 12, 2020. You, your near
relative or legal guardian, or a multipartisan assistance team (MAT), can return the affidavit by:
•
•
•
•

Email (add county email address if not in letterhead) (you can email a picture of the form)
Fax (add county fax number if not in letterhead)
Delivering it in person to the county board of elections office
Mail or commercial carrier (add county mailing address)

If this affidavit is not returned to the county board of elections by the deadline, your absentee ballot will
not count. If you decide not to return this affidavit, you may still vote in person during the early voting
period (October 15-October 31) or on Election Day, November 3, 2020. To find the hours and locations for
in-person voting in your county, visit http://www.ncsbe.gov .
U

U

U

U

READ AND COMPLETE THE FOLLOWING:
I am submitting this affidavit to correct a problem with missing information on the ballot envelope. I am an
eligible voter in this election and registered to vote in [name] County, North Carolina. I solemnly swear or affirm
that I voted and returned my absentee ballot for the November 3, 2020 general election and that I have not voted
and will not vote more than one ballot in this election. I understand that fraudulently or falsely completing this
affidavit is a Class I felony under Chapter 163 of the North Carolina General Statutes.
(Print name and sign below)
________________________________________________
Voter’s Printed Name (Required)
_________________________________________________
Voter’s Signature* (Required)

* A wet ink signature is not required, but the signature used must be unique to the individual. A typed signature is not
acceptable, even if it is in cursive or italics such as is commonly seen with a program such as DocuSign.

App. 155

EXHIBIT C

App. 156

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-23
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

In-Person Return of Absentee Ballots

DATE:

September 22, 2020

Absentee by mail voters may choose to return their ballot by mail or in person. Voters who return
their ballot in person may return it to the county board of elections office by 5 p.m. on Election
Day or to any one-stop early voting site in the county during the one-stop early voting period. This
numbered memo provides guidance and recommendations for the safe, secure, and controlled inperson return of absentee ballots.

General Information
Who May Return a Ballot
A significant portion of voters are choosing to return their absentee ballots in person for this election. Only the voter, or the voter’s near relative or legal guardian, is permitted to possess an absentee ballot. 1 A multipartisan assistance team (MAT) or a third party may not take possession of
an absentee ballot. Because of this provision in the law, an absentee ballot may not be left in
an unmanned drop box.
The county board shall ensure that, if they have a drop box, slot, or similar container at their office,
the container has a sign indicating that absentee ballots may not be deposited in it.

Intake of Container-Return Envelope
As outlined in Numbered Memo 2020-19, trained county board staff review each container-return envelope to determine if there are any deficiencies. Review of the container-return envelope

1

It is a class I felony for any person other than the voter’s near relative or legal guardian to take
possession of an absentee ballot of another voter for delivery or for return to a county board of
elections. G.S. § 163-223.6(a)(5).

App. 157

does not occur at intake. Therefore, the staff member conducting intake should not conduct a review of the container envelope and should accept the ballot. If intake staff receive questions
about whether the ballot is acceptable, they shall inform the voter that it will be reviewed at a
later time and the voter will be contacted if there are any issues. Intake staff shall accept receipt
of all ballots provided to them, even if information is missing or someone other than the voter or
their near relative or legal guardian returns the ballot.
It is not recommended that county board staff serve as a witness for a voter while on duty. If a
county board determines that it will allow staff to serve as a witness, the staff member who is a
witness shall be one who is not involved in the review of absentee ballot envelopes.

Log Requirement
An administrative rule requires county boards to keep a written log when any person returns an
absentee ballot in person. 2 However, to limit the spread of COVID-19, the written log requirement has been adjusted for remaining elections in 2020.
When a person returns the ballot in person, the intake staff will ask the person for their name and
whether they are the voter or the voter’s near relative or legal guardian. The staffer will indicate
this information on a log along with the CIV number of the ballot and the date that it was received.
If the person indicates they are not the voter or the voter’s near relative or legal guardian, the staffer
will also require the person to provide their address and phone number.

Board Consideration of Delivery and Log Requirements
Failure to comply with the logging requirement, or delivery of an absentee ballot by a person other
than the voter, the voter’s near relative, or the voter’s legal guardian, is not sufficient evidence in
and of itself to establish that the voter did not lawfully vote their ballot. 3 A county board shall not
disapprove an absentee ballot solely because it was delivered by someone who was not authorized

2

08 NCAC 18 .0102 requires that, upon delivery, the person delivering the ballot shall provide
the following information in writing: (1) Name of voter; (2) Name of person delivering ballot;
(3) Relationship to voter; (4) Phone number (if available) and current address of person delivering ballot; (5) Date and time of delivery of ballot; and (6) Signature or mark of person delivering
ballot certifying that the information provided is true and correct and that the person is the voter
or the voter's near relative.
3

Id. Compare G.S. § 163-230.2(3), as amended by Section 1.3.(a) of Session Law 2019-239,
which states that an absentee request form returned to the county board by someone other than an
unauthorized person is invalid.
2
App. 158

to possess the ballot. The county board may, however, consider the delivery of a ballot in accordance with the rule, 08 NCAC 18 .0102, in conjunction with other evidence in determining whether
the ballot is valid and should be counted.

Return at a County Board Office
A voter may return their absentee ballot to the county board of elections office any time the office
is open. A county board must ensure its office is staffed during regular business hours to allow
for return of absentee ballots. Even if your office is closed to the public, you must provide staff
who are in the office during regular business hours to accept absentee ballots until the end of
Election Day. You are not required to accept absentee ballots outside of regular business hours.
Similar to procedures at the close of polls on Election Day, if an individual is in line at the time
your office closes or at the absentee ballot return deadline (5 p.m. on Election Day), a county board
shall accept receipt of the ballot.
If your site has a mail drop or drop box used for other purposes, you must affix a sign stating that
voters may not place their ballots in the drop box. However, a county board may not disapprove
a ballot solely because it is placed in a drop box. 4
In determining the setup of your office for in-person return of absentee ballots, you should consider
and plan for the following:
•
•
•
•
•

4

Ensure adequate parking, especially if your county board office will be used as a one-stop
site
Arrange sufficient space for long lines and markings for social distancing
Provide signage directing voters to the location to return their absentee ballot
Ensure the security of absentee ballots. Use a locked or securable container for returned
absentee ballots that cannot be readily removed by an unauthorized person.
If your set-up allows the return of ballots outside, plan for the possibility of severe weather.
You may need a tent or other covering. Have a plan for how crowd control will occur
without the physical barriers of an office and the security of your staff and the balloting
materials. For safety reasons, it is not recommended you keep an outside return location
open after dark or during inclement weather.

Id.
3
App. 159

Return at an Early Voting Site
Location to Return Absentee Ballots
Each early voting site shall have at least one designated, staffed station for the return of absentee
ballots. Return of absentee ballots shall occur at that station. The station may be set up exclusively for absentee ballot returns or may provide other services, such as a help desk, provided the
absentee ballots can be accounted for and secured separately from other ballots or processes.
Similar to accepting absentee ballots at the county board of elections office, you should consider
and plan for the following with the setup of an early voting location for in-person return of absentee ballots:
•
•
•
•

Have a plan for how crowd control will occur and how voters will be directed to the appropriate location for in-person return of absentee ballots
Provide signage directing voters and markings for social distancing
Ensure adequate parking and sufficient space for long lines
If your set-up allows the return of ballots outside, plan for the possibility of severe weather.
You may need a tent or other covering. Have a plan for how crowd control will occur
without the physical barriers of an office and the security of your staff and the balloting
materials. For safety reasons, ensure that there is adequate lighting as voting hours will
continue past dark.

Because absentee ballots must be returned to a designated station, absentee ballots should not be
returned in the curbside area.

Procedures
Absentee ballots that are hand-delivered must be placed in a secured container upon receipt, similar to how provisional ballots are securely stored at voting sites. Absentee by mail ballots delivered to an early voting site must be stored separately from all other ballots in a container designated only for absentee by mail ballots. County boards must also conduct regular reconciliation
practices between the log and the absentee ballots. County boards are not required by the State
to log returned ballots into SOSA; however, a county board may require their one-stop staff to
complete SOSA logging.
If a voter brings in an absentee ballot and does not want to vote it, the ballot should be placed in
the spoiled-ballot bag. It is recommended that voters who call the county board office and do not
want to vote their absentee ballot be encouraged to discard the ballot at home.

Return at an Election Site
An absentee ballot may not be returned at an Election Day polling place. If a voter appears in
person with their ballot at a polling place on Election Day, they shall be instructed that they may
4
App. 160

(1) take their ballot to the county board office or mail it so it is postmarked that day and received
by the deadline; or (2) have the absentee ballot spoiled and vote in-person at their polling place.
If someone other than the voter appears with the ballot, they shall be instructed to take it to the
county board office or mail the ballot so it is postmarked the same day. If the person returning
the ballot chooses to mail the ballot, they should be encouraged to take it to a post office to ensure the envelope is postmarked. Depositing the ballot in a USPS drop box on Election Day may
result in ballot not being postmarked by Election Day and therefore not being counted.

5
App. 161

EXHIBIT 12

App. 162

App. 163

App. 164

App. 165

EXHIBIT 13

App. 166

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-27
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Court Order Regarding Witness Signature Deficiency

DATE:

October 1, 2020

On September 30, 2020, the U.S. District Court for the Middle District of North Carolina issued
an order requiring the parties to attend a status conference to discuss Numbered Memo 2020-19.
Democracy NC v. State Board, 1:20CV457, Order on Status Conference (M.D.N.C. Sept. 30,
2020). In the order, the court states it does not find Numbered Memo 2020-19 “consistent with
the Order entered by this Court on August 4, 2020,” and indicates that its preliminary injunction
order should “not be construed as finding that the failure of a witness to sign the application and
certificate as a witness is a deficiency which may be cured with a certification after the ballot has
been returned.” Id. at 3-4. In order to avoid confusion while related matters are pending in a
number of courts, this memo is issued effective immediately and is in place until further numbered
memo from the State Board.
County boards that receive an executed absentee container-return envelope with a missing
witness signature shall take no action as to that envelope. This includes any container-return
envelopes that contain multiple deficiencies that include a missing witness signature. County
boards shall not send a cure certification or reissue the ballot if they receive an executed containerreturn envelope without a witness signature. Absentee envelopes with a missing witness signature
shall be kept in a secure location and shall not be considered by the county board until further
notice. Once the State Board receives further direction from a court, we will issue guidance to
county boards on what actions they should take regarding container-return envelopes with a missing witness signature. Guidance will also address how to handle ballots with a missing witness
signature that were previously acted upon by the county board if a cure certification has been
returned.
In all other respects, Numbered Memo 2020-19, as revised on September 22, 2020, remains
in effect. This means that county boards shall continue to issue cure certifications for all other
deficiencies identified in Section 2.1 of Numbered Memo 2020-19 and shall follow the processes
outlined in the memo for all deficiencies except a missing witness signature.

App. 167

EXHIBIT 14

App. 168

Mailing Address:

P.O. Box 27255
Raleigh, NC 27611
(919) 814-0700 or
(866) 522-4723

Fax: (919) 715-0135

Numbered Memo 2020-28
TO:

County Boards of Elections

FROM:

Karen Brinson Bell, Executive Director

RE:

Court Orders Regarding Numbered Memos

DATE:

October 4, 2020

To avoid confusion while related matters are pending in a number of courts, this memo is issued
effective immediately and is in place until further numbered memo(s) is issued by the State Board.
For the reasons set forth in this memo, Numbered Memos 2020-19 (both versions), 2020-22, 202023 and 2020-27 are on hold until further notice from the State Board. On October 2, 2020, the
Wake County Superior Court in NC Alliance v. State Board entered a consent judgment ordering
that, to settle all of plaintiffs’ claims, Numbered Memo 2020-19 (Absentee Container-Return Envelope Deficiencies), Numbered Memo 2020-22 (Return Deadline for Mailed Civilian Absentee
Ballots in 2020), and Numbered Memo 2020-23 (In-Person Return of Absentee Ballots) shall be
issued.
However, on October 3, 2020, the U.S. District Court for the Eastern District of North Carolina
temporarily blocked the State Board from enforcing the same numbered memos. The court also
transferred the cases to the U.S. District Court for the Middle District of North Carolina that has
jurisdiction over the Democracy NC case. Moore v. Circosta, 5:20-CV-507-D, (E.D.N.C. Oct. 3,
2020); Wise v. State Board, 5:20-CV-507-D, (E.D.N.C. Oct. 3, 2020). The State Board’s attorneys
are reviewing these competing orders and will provide guidance as soon as possible on how to
move forward.
At this time, because of these conflicting orders, Numbered Memos 2020-19, 2020-22, 202023 and 2020-27 are on hold.
County boards that receive an executed absentee container-return envelope with a deficiency
shall take no action as to that envelope. County boards shall not send a cure certification or
reissue the ballot if they receive an executed container-return envelope with any deficiency.
County boards also may not accept or reject any ballots if the container-return envelope has any

App. 169

deficiencies. Envelopes with deficiencies shall be kept in a secure location and shall not be considered by the county board until further notice. Once the State Board receives further direction
from a court, we will issue guidance to county boards on what actions they should take regarding
container-return envelopes with deficiencies. If a county board has previously reissued a ballot,
and the second envelope is returned without any deficiencies, the county board may approve the
second ballot.
County boards that receive deficient envelopes shall not check them into SEIMS. We recommend
that, if a voter calls your office and wants to know about the status of their deficient ballot, your
staff state: “We have received your ballot and there is an issue. Currently the cure process is being
considered by the courts. We will contact you soon with more information.” If the ballot has a
deficiency, do not issue a cure certification or spoil the ballot even upon a voter’s request.

2
App. 170

EXHIBIT 15

App. 171

STATE OF NORTH CAROLINA

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
20 CVS 8881

WAKE COUNTY
NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS; BARKER
FOWLER; BECKY JOHNSON; JADE
JUREK; ROSALYN KOCIEMBA; TOM
KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,
v.

Plaintiffs,

THE NORTH CAROLINA STATE
BOARD OF ELECTIONS, and DAMON
CIRCOSTA, in his official capacity as Chair
of the North Carolina State Board of
Elections,
Defendants,
PHILIP E. BERGER in his official capacity
as President Pro Tempore of the North
Carolina Senate, and TIMOTHY K.
MOORE in his official capacity as Speaker
of the North Carolina House of
Representatives,
Proposed IntervenorDefendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

EXECUTIVE DEFENDANTS’
BRIEF IN SUPPORT OF THE
JOINT MOTION FOR ENTRY
OF A CONSENT JUDGMENT

App. 172

TABLE OF CONTENTS
INTRODUCTION ...........................................................................................................................1
STATEMENT OF FACTS ..............................................................................................................4
A.

COVID-19 and the State’s Response to the Global Pandemic ................................4

B.

United States Postal Service Delays ........................................................................8

C.

The M.D.N.C. Action: Democracy N.C. v. North Carolina State Board of
Elections ...................................................................................................................9

D.

The State Court Action: North Carolina Alliance for Retired Americans v.
The North Carolina State Board of Elections ........................................................11

E.

Collateral Federal Court Challenge: Moore v. Circosta and Wise v. North
Carolina State Board of Elections .........................................................................13

ARGUMENT .................................................................................................................................14
I.

Legal Standard .......................................................................................................14

II.

The Proposed Consent Judgment Is in the Public Interest .....................................14

III.

The Proposed Consent Judgment Is Fair, Adequate, and Reasonable ...................16
A.

B.

Plaintiffs Raise Strong and Grave Constitutional Concerns ......................16
1.

Challenge to the Absentee Ballot Receipt Deadline ......................17

2.

Challenge to the Early Voting Time Period ...................................21

3.

Challenge to the Witness Requirement ..........................................22

The Proposed Consent Judgment Makes Modest Adjustments That
Are Narrowly Tailored to Address the Ongoing Global Pandemic ...........26

IV.

The Proposed Consent Judgment Is the Product of Honest, Arms-Length
Negotiation .............................................................................................................30

V.

The Proposed Consent Judgment Does Not Run Afoul of the United States
Constitution ............................................................................................................34
A.

State Law Empowers the State Board To Agree to the Terms in the
Proposed Consent Judgment. .....................................................................34
i

App. 173

B.

The Provisions in the Proposed Consent Judgment Are Consistent
With the Elections Clause ..........................................................................38

C.

The Provisions in the Proposed Consent Judgment Are Consistent
With the Equal Protection Clause ..............................................................41

CONCLUSION ..............................................................................................................................42

ii

App. 174

INTRODUCTION
In the midst of this year’s extraordinary increase in absentee mail-in voting, the proposed
consent judgment before this Court is the only practical way to accomplish the following for this
year’s general election:


To ensure that all eligible North Carolina voters who choose to vote – hundreds of
thousands of whom will be voting, or voting absentee, for the first time in their
lives – will have their vote counted;



To ensure that the requirements of North Carolina’s elections laws – including the
one-witness requirement for absentee ballots, the confirmation of absentee ballot
drop-off authorization, and the requirement that all absentee ballots be
postmarked by Election Day – will continue to be preserved and applied;



To ensure that the far more expansive changes that plaintiffs have sought –
including further extending early voting, mailing unsolicited ballots to all voters,
providing postage on ballot return envelopes, and not requiring ballots to be
postmarked by Election Day– are not put in place, since they would severely
complicate administration of this year’s elections; and

To ensure that “protracted litigation”1 throughout this election season does not jeopardize
the safe, efficient, and constitutional administration of these elections.
This year’s elections are taking place in the face of unprecedented challenges. Since
March, the COVID-19 global pandemic has caused untold disruption to the American way of

1

See N.C. Gen. Stat. § 163-22.2 (“The State Board of Elections shall also be authorized,
upon recommendation of the Attorney General, to enter into agreement with the courts in lieu of
protracted litigation until such time as the General Assembly convenes.”)

App. 175

life. The virus is highly contagious and spreads through close contact with others. There is no
cure. There is no vaccine.
This virus is unique. It affects certain communities and activities more acutely, and it
particularly affects North Carolinians because of the way we vote. North Carolinians have three
ways to vote: on Election Day, early and in-person, and by absentee ballot (but with a witness).
All of these mechanisms require close contact with others and may increase the risk of
contraction of the COVID-19 virus.
The confluence of events has resulted in a slew of lawsuits being filed across the country
on behalf of voters and voter advocacy groups, bringing to light grave constitutional concerns
attendant with voting in the pandemic under statutes currently in place. Many have succeeded—
particularly by requiring an extension of the deadline for receipt of absentee ballots by at least a
week and by enjoining any witness requirement.
In North Carolina, on August 4, 2020, a group of voters and voter advocacy groups
secured a federal court injunction that prohibits the rejection of absentee ballots without a cure
procedure to correct deficiencies like witness or signature information. To comply with the State
Defendants’ understanding with this injunction, on September 22, the State Board issued the cure
procedures (Numbered Memo 2020-19) instructing county boards on the cure process in place.
Absent this cure procedure, absentee ballots cannot be rejected—and must be counted—even if
the witness or signature information is deficient under the state statutes.
Facing the prospect of protracted litigation on multiple fronts, the State Board has
become increasingly concerned about the lack of certainty about the elections rules in place for
the November 2020 general election. More than eight lawsuits have been filed, challenging
various aspects of elections law as applied during the COVID-19 pandemic, including numerous

2

App. 176

claims under the North Carolina Constitution. With voting underway and in light of the
increasing evidence of discriminatory impact that the absentee ballot procedure has on
communities of color, the State Board took measures to reach an agreement with Plaintiffs that
would resolve all of their outstanding claims for the November 2020 general election and give
the voters and local and state elections officials finality and direction.
The proposed consent judgment would result in dismissal and rejection of many of
Plaintiffs’ requests, but would implement three limited changes: (1) the deadline for absentee
ballots to be accepted by county boards of elections, so long as they bear indicia of being marked
and mailed on or before Election Day, would be extended by six days, from 5 p.m. on November
6 until 5 p.m. on November 12, to match the deadline that already exists for military and
overseas voters, (2) the logging process that occurs when absentee ballots are returned in person
to voting sites would occur at designated stations supervised by elections staff, with the
information relating to the person returning the ballot taken verbally by the elections official and
logged by that official, rather than by the person returning the ballot; and (3) the cure procedure
issued as a result of the injunction entered in federal court will allow voters to attest to the
validity of their own ballots after being contacted by board officials due to a deficiency in
meeting the witness requirement.
The proposed consent judgment honors the purposes behind North Carolina’s election
procedures. It helps ensure that all legal ballots are counted. It ensures that there is a log of the
person who returns absentee ballots so that, in the event of concerns about fraud or ballot
“harvesting,” these concerns can be investigated. It ensures that the voter to whom the absentee
ballot is issued is the person who actually voted the ballot that the county board of elections
receives.

3

App. 177

The proposed consent judgment is fair, reasonable, and adequate. And, most importantly,
it is in the best interest of voters. Voters are already submitting ballots, county boards are
already approving and rejecting ballots, and early voting begins in approximately two weeks.
Voters need to know the rules of the road, and those rules need to ensure that all voters who are
eligible may vote safely and securely.
Despite the unanimous, bipartisan vote of the State Board to approve the principles
contained in the consent judgment, the Legislative Defendants object. It appears they wish to
continue protracted litigation in both state and federal court well into the voting period,
increasing confusion and uncertainty. But the Legislative Defendants’ arguments should not
distract this Court from the central question before it, which is the fairness, reasonableness, and
all issues necessary to confirm the validity of the proposed consent judgment.
As of today, September 30, the absentee voting period has been open for 26 days. More
than 1,116,696 absentee ballots have been requested, 285,187 have been submitted, and 280,353
have been accepted. Early voting starts on October 15. Certainty and finality are essential.
The State Defendants urge this Court to approve the consent judgment, as it is a fair,
adequate, and reasonable resolution of the claims advanced by Plaintiffs.
STATEMENT OF FACTS
A.

COVID-19 and the State’s Response to the Global Pandemic

The effects of the novel coronavirus strain known as COVID-19, both on public health
and on a wide variety of activities are, by now, well-known. The COVID-19 pandemic has been
widely recognized as the greatest global health crisis in at least a century. In our State alone, at
least 207,380 people have had laboratory-confirmed cases of COVID-19 and at least 3,441 have
died from the virus. See https://covid19.ncdhhs.gov/, accessed Sept. 27, 2020. The COVID-19

4

App. 178

pandemic is the greatest threat to global health in the last century. See
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC7175860/, accessed Sept. 27, 2020. It has
affected the way we work, the way we interact with each other, and it has affected the way we
vote.
Recognizing this, on March 15, 2020, State Board Executive Director Bell issued
Numbered Memo 2020-11 to North Carolina’s 100 county boards of elections to update them on
the State Board’s responses to the COVID-19 outbreak, provide recommendations that the
county boards conduct meetings electronically, and adjust certain deadlines following the March
3 primary. See
https://s3.amazonaws.com/dl.ncsbe.gov/sboe/numbermemo/2020/Numbered%20Memo%202020-11_Coronavirus%20Response.pdf, accessed Sept. 27, 2020.
On March 26, 2020, the Executive Director issued a letter of recommendation to the
North Carolina General Assembly and the Governor to address the issues raised by COVID-19.
See https://s3.amazonaws.com/dl.ncsbe.gov/sboe/SBE%20Legislative%20Recommendations_COVID-19.pdf, accessed Sept. 27, 2020. The recommendations included allowing
absentee requests to be submitted by fax or email, establishment of an online portal for absentee
requests, permitting postage to be pre-paid for absentee ballots, and reducing or eliminating the
witness requirement for elections conducted in 2020. Id. The Executive Director also
recommended temporarily modifying the prohibition on employees of hospitals, nursing homes,
and other congregate living facilities to allow these individuals to assist voters and serve as
witnesses in light of current visitor restrictions. Id. Additionally, the Executive Director
recommended that county boards of elections be allowed flexibility to determine their sites and
hours for early voting to allow a tailored response to COVID-19 pandemic in each county. Id.

5

App. 179

On March 20, 2020, pursuant to her statutory emergency authority, the Executive
Director issued an order rescheduling the Republican second primary in Congressional District
11 from May 12 to June 23. See
https://s3.amazonaws.com/dl.ncsbe.gov/State_Board_Meeting_Docs/Orders/Executive%20Director%20Orders/Order_2020-03-20%20.pdf, accessed Sept. 27, 2020. This
order also modified some reporting deadlines and suspended certain logging requirements to
allow county board offices to work while being physically closed. Id. Finally, the order allowed
transfer of certain voters to non-adjacent precincts if the transfer was related to the COVID-19
pandemic. Id.
On June 1, 2020, the Executive Director issued Numbered Memo 2020-12, in which she
provided guidance for counties administering the June 23 primary. See
https://s3.amazonaws.com/dl.ncsbe.gov/sboe/numbermemo/2020/Numbered%20Memo%202020-12_In-Person%20COVID%20Response%20June%2023%20Election.pdf,
accessed Sept. 27, 2020. In particular, the Executive Director established policies to provide a
safe experience for voters and elections officials during the COVID-19 pandemic, including
requiring poll workers and other staff to wear personal protective equipment, including masks,
face protection, and gloves and, when appropriate, to self-screen for symptoms before reporting
to work. Id. Voters were provided with masks if they needed one, hand sanitizer, and single-use
ballot-marking devices. Id. The Executive Director also ordered routine cleanings and socialdistancing measures, consistent with CDC guidelines. Id.
On June 10, the North Carolina General Assembly enacted House Bill 1169, which the
Governor signed into law as North Carolina Session Law 2020-17 the following day. This law
made a number of changes in response to the COVID-19 pandemic. For example, it reduced the

6

App. 180

requirement of having two witnesses for absentee ballots to one witness. 2020 N.C. Sess. Laws
17, § 1.(a). In addition, it gave county boards of elections greater flexibility to allow nonresident precinct officials to serve, which will help ensure that each polling places remains open
even if some current precinct officials are unable or decline to serve. 2020 N.C. Sess. Laws 17,
§ 1.(b). Session Law 2020-17 also made provisions for multipartisan assistance teams to assist
any voter in the state, including those in nursing homes, to fill out their ballots and requests.
2020 N.C. Sess. Laws 17, §§ 1.(c), 2.(b). Additionally, Session Law 2020-17 also provided for
absentee ballot request forms to be made online through an electronic portal that will be made
available on September 1. 2020 N.C. Sess. Laws 17, § 7.(a). Finally, Session Law 2020-17
provided matching funds for the federal CARES Act (P.L. 116-136), allowing county boards to
take advantage of federal funding to assist them in preparing for the elections in light of the
COVID-19 pandemic.
Simultaneously, on June 19, 2020, the State Board announced that it was engaging in an
aggressive campaign to recruit people to serve as election officials at early voting sites and on
Election Day. See https://www.ncsbe.gov/news/press-releases/2020/06/19/election-officialssearching-democracy-heroes-launch-new-portal, accessed Sept. 27, 2020. This effort is part of a
broader plan to recruit additional poll workers to serve in 2020.
And finally, on July 17, 2020, the Executive Director issued an emergency order,
requiring county boards of elections to have a minimum of 10 hours of voting each of the first
two weekends of early voting, to have at least one polling site open during the early-voting
period for every 20,000 registered voters, and to require frequent sanitization and use of PPE in
accordance with CDC guidelines. See
https://s3.amazonaws.com/dl.ncsbe.gov/sboe/numbermemo/2020/Numbered%-

7

App. 181

20Memo%202020-14_Emergency%20Order%20of%20July%2017%2C%202020.pdf, accessed
Sept, 27, 2020. This order was intended to ensure that there were sufficient sites and sufficient
quality hours for voters to be able to exercise their right to vote safely in response to the
pandemic and disaster declaration issued by the President of the United States.
B.

United States Postal Service Delays

On July 30, 2020, Thomas J. Marshall, General Counsel and Executive Vice President of
the United States Postal Service sent a letter to North Carolina’s Secretary of State, warning her
that North Carolina elections law relating to absentee ballot deadlines was “incongruous with the
Postal Service’s delivery standards.” Pennsylvania v. DeJoy, No. 2:20-cv-04096 (E.D.P.A.),
Dkt. 1-1 at 53-55. USPS also stated that “there is a significant risk” that “ballots may be
requested in a manner that is consistent with your election rules and returned promptly, and yet
not be returned on time or be counted.” Id. In particular, USPS recommended that elections
officials transmitting communication to voters “allow 1 week for delivery to voters” and that
civilian voters “should generally mail their completed ballots at least one week before the state’s
due date. In states that allow mail-in ballots to be counted if they are both postmarked by
Election Day and received by election officials by a specific date that is less than a week after
Election Day, voters should mail their ballots at least one week before they must be received by
election officials.” Id. Accordingly, in North Carolina, voters can postmark their ballot by
Election Day, but because of USPS delays and through no fault of their own, not have their
ballots counted because the ballots arrived at the county board of elections office after the
statutory deadline.

8

App. 182

C.

The M.D.N.C. Action: Democracy NC v. North Carolina State Board of
Elections

On May 22, 2020, the groups Democracy North Carolina and the League of Women
Voters of North Carolina, together with a number of individual voters, filed an action in the
United States District Court for the Middle District of North Carolina. See Democracy North
Carolina v. NC State Board of Elections, 2020 U.S. Dist. LEXIS 138492 (Aug. 4, 2020). In that
action, the plaintiffs challenged various provisions of North Carolina election law, alleging that
in the context of the COVID-19 pandemic, those election law provisions infringe on their rights
under the United States Constitution and federal statutes. Among the provisions of North
Carolina law challenged in Democracy NC are the witness requirement for mail-in absentee
ballots and the restrictions on how absentee ballots can be returned to county boards of elections.
The Democracy NC plaintiffs also sought imposition of procedures for curing deficiencies in
returned absentee ballots. The plaintiffs filed their First Amended Complaint and their Motion
for Preliminary Injunction on June 5, 2020. On June 18, they filed their Second Amended
Complaint to reflect the changes in election law for the 2020 general election enacted by 2020
N.C. Sess. Laws 17. On June 15, 2020, the federal court granted permissive intervention to
Moore and Berger, the Legislative Defendants in this action. The State Board Defendants
vigorously defended against these claims.
On August 4, 2020, following a two-day evidentiary hearing and a third day of oral
argument, the court entered its ruling on the plaintiffs’ preliminary injunction motion.
Democracy NC, 2020 U.S. Dist. LEXIS 138492 (Aug. 4, 2020). In its 188–page opinion and
order, the court denied the request for preliminary injunction except as to two matters. First, the
court enjoined the defendants from enforcing those provisions of law that prohibit employees of
nursing care facilities from assisting voters with their absentee ballot as to one of the individual

9

App. 183

plaintiffs who is blind and who is in a nursing facility where no one but residents and employees
are allowed. Id. at *182–83.
Second, the court enjoined defendants “from the disallowance or rejection, or permitting
the disallowance or rejection, of absentee ballots without due process as to those ballots with a
material error that is subject to remediation,” and directed the adoption of procedures “which
provide[] a voter with notice and an opportunity to be heard before an absentee ballot with a
material error subject to remediation is disallowed or rejected.” Id. at *182. These changes were
necessary, the court rules, because North Carolina’s witness requirement as statutorily authorized
was likely unconstitutional. Thus, the federal court enjoined the State Defendants from “the
disallowance or rejection . . . of absentee ballots without due process as to those ballots with a
material error that is subject to remediation.” Democracy N.C. v. N.C. State Bd. of Elections,
No. 1:20-cv-00457 (M.D.N.C. Aug. 4, 2020) (Osteen, J.), DE 124 at 187. Further, the court
concluded that “when the ballot is rejected for a reason that is curable, such as incomplete
witness information, or a signature mismatch, and the voter is not given notice or an opportunity
to be heard on this deficiency, the court finds this ‘facially effect[s] a deprivation of the right to
vote.’” Id. at 156 (quoting Self Advocacy Sols. N.D. v. Jaeger, No. 3:20-cv-71, 2020 WL
2951012, at *9 (D.N.D. June 3, 2020)). This “compelled” the court to find that the absenteeballot statutes were “constitutionally inadequate” absent a statewide curing procedure. Id. at
157.
Though the court denied much of the injunctive relief sought by the plaintiffs, it noted
that “Plaintiffs have raised genuine issues of concern with respect to the November General
Election. Should Legislative and Executive Defendants believe these issues may now be
discounted or disregarded for purposes of the impending election, they would be sorely

10

App. 184

mistaken.” Id. at *4. This opinion and order was not appealed by any party, including the
Legislative Defendants.
To attempt to comply with this injunction and pursuant to its statutory authority under
section 163-22.2, the State Board released guidance that allowed voters to cure voter signature
defects but required a voter to re-vote her ballot for witness signature defects. Soon thereafter,
the State Board became concerned that the cure mechanism did not provide sufficient notice or
opportunity to be heard on witness signature defects and that it disparately affected the rights of
certain groups of voters.
As a result, and to ensure full compliance with the injunction entered by Judge Osteen,
the State Board directed county boards of elections not to disapprove any ballots until a new cure
procedure that would comply with the State Defendants’ understanding the injunction could be
implemented. On September 22, 2020, the State Board instituted the cure procedure attached to
the proposed consent judgment. The State Board subsequently notified the federal court of its
cure mechanism process.
D.

The State Court Action: North Carolina Alliance for Retired Americans v.
The North Carolina State Board of Elections

On August 10, 2020, the North Carolina Alliance for Retired Americans, together with a
number of individual voters, filed this action in Wake County Superior Court. On August 18,
2020, the plaintiffs filed their Amended Complaint. Plaintiffs challenge: (1) limitations on the
number or hours and days that counties can offer one-stop in-person absentee voting; (2) the
witness requirement for mail-in absentee ballots; (3) the lack of pre-paid postage for mail-in
absentee ballot return envelopes; (4) rejection of mail-in absentee ballots that are postmarked by
Election Day but delivered to county boards more than three days after the election, given
concerns over delivery delays and operational difficulties with the United States Postal Service;

11

App. 185

(5) rejection of absentee mail-in ballots due when the voters signature does not match the
signature on file with a board of elections; and (6) restrictions on assistance with requesting a
returning mail-in absentee ballots. Also on August 18, 2020, the plaintiffs filed their Motion for
Preliminary Injunction.
On August 12, 2020, the Legislative Defendants filed a notice of intervention as of right
in the NC Alliance action; that intervention as of right was effected by the filing of the notice,
and they are now parties to that action as intervenor-defendants on behalf of the General
Assembly. See N.C. Gen. Stat. §§ 1-72.2 and 1A-1, Rule 24(c).
During the ensuing five weeks and in light of the number of unresolved issues pending as
voting began, the State Defendants engaged in arms-length negotiations with Plaintiffs to resolve
some or all of these claims.
On September 22, 2020, the NC Alliance plaintiffs and the Executive (State Board)
defendants filed a Joint Motion for Entry of a Consent Judgment with the superior court. By that
joint motion, the NC Alliance plaintiffs and the State Defendants consent to entry of an order by
the Superior Court of Wake County. Under the proposed consent order, plaintiffs agreed to drop
many of their demands, including expanded early voting, elimination of the witness requirement
for mail-in absentee ballots, and pre-paid postage for mail-in absentee ballot return envelopes.
The State Defendants agreed: (1) to extend the deadline for receipt of mail-in absentee ballots
mailed on or before Election Day to nine (9) days after Election Day to match the UOCAVA
deadline, in keeping with the guidance received on July 30, 2020 from the Postal Service; (2)
implement the cure process set forth in Numbered Memo 2020-19, as revised; and (3) establish
separate mail-in absentee ballot “drop off stations” staffed by county board officials at each early
voting site and at each county board of elections to reduce the congestion and crowding at early

12

App. 186

voting sites and county board offices. Plaintiffs agreed to accept these measures, which fell far
short of their demands, “as a full and final resolution of Plaintiffs’ claims against Executive
Defendants related to the conduct of the 2020 elections.” This Court set a hearing on the joint
motion for Friday, October 2, 2020.
E.

Collateral Federal Court Challenges: Moore v. Circosta and Wise v. North
Carolina State Board of Elections

On the evening of September 26, 2020, the Legislative Defendants filed a collateral
challenge to this action in the United States District Court for the Eastern District of North
Carolina. Moore v. Circosta, No. 5:20-cv-507 (E.D.N.C.) (Dever, J.). In it, they challenge the
three underlying memoranda that form the basis of the consent judgment at issue in this case.
Rather than litigate the fairness, reasonableness, and adequacy of the proposed consent judgment
in this Court this week, the Legislative Defendants instead rushed to federal court on the theory
that the issuance of the memoranda violates the Elections Clause and Equal Protection Clause of
the United States Constitution. The State Defendants filed a motion to transfer the case to the
Middle District of North Carolina to Judge Osteen, as one of the memoranda issued was in
compliance of the injunction entered in Democracy NC. On September 30, the district court
denied the State Defendants’ motion to transfer and set a briefing schedule for the Legislative
Defendants’ motion for a temporary restraining order. The State Defendants’ opposition is due
tomorrow, October 1, at 9:00 a.m. The Legislative Defendants’ response is due on October 2, at
9:00 a.m. Dkt. 26.
At approximately the same time that the Legislative Defendants filed their action in
federal court, the Political Committee Intervenors, for whom this Court allowed permissive
intervention just a day earlier, also filed an action in the Eastern District of North Carolina. Wise
v. North Carolina State Board of Elections, No. 5:20-cv-505-D (E.D.N.C.). In this action, they

13

App. 187

raise the same Elections Clause and Equal Protection claims raised by the Legislative Defendants
in Moore.
ARGUMENT
I.

Legal Standard
North Carolina courts have a “strong preference for settlement over litigation.”

Ehrenhaus v. Baker, 216 N.C. App. 59, 72, 717 S.E.2d 9, 19 (2011). “Courts are generally
indifferent to the nature of the parties’ agreement; why or how the case is settled is of little
concern.” Id.
Although North Carolina courts have not articulated a standard for approval of a consent
judgment, courts in this State have looked to the federal standard to provide guidance in similar
contexts. See, e.g., Ehrenhaus, 216 N.C. App. at 71-72, 717 S.E.2d at 18-19 (adopting federal
standard for approval of class-action settlements). Before approving entry of a consent
judgment, a federal court has the duty to “satisfy itself that the agreement is ‘fair, adequate and
reasonable,’ and is ‘not illegal, a product of collusion, or against the public interest.’” United
States v. North Carolina, 180 F.3d 574, 581 (4th Cir. 1999) (quoting United States v. Colorado,
937 F.2d 505, 509 (10th Cir. 1991)).
II.

The Proposed Consent Judgment Is in the Public Interest.
Entry of the proposed consent judgment serves the public interest. Litigation over the

nature and extent of a voter’s right to access the ballot raises grave constitutional concerns in the
normal instance. But, as the nation is in the midst of a once-in-a-lifetime pandemic resulting
from a disease that is highly transmissible and that, in many instances, carries severe and even
deadly consequences, the constitutional issues raised in this case are even more serious. The
public needs assurances that every eligible voter has the opportunity to vote safely, while also

14

App. 188

being ensured of the integrity of elections administration—fear and confusion are best avoided.
See League of Women Voters of Va. v. Va. State Bd. of Elections, 2020 WL 2158249, at *5
(W.D. Va. May 5, 2020) (“[W]hen a settlement has been negotiated by a specially equipped
agency, the presumption in favor of settlement is particularly strong.”).
The proposed consent judgment meets this test. It provides clarity about the rules of the
road going forward for elections that are already underway. See United States v. Armour & Co.,
402 U.S. 673, 681 (1971) (observing that by entering into consent judgments, “parties waive
their right to litigate the issues involved in the case and thus save themselves the time, expense,
and inevitable risk of litigation.”). In addition, resolving this matter without protracted litigation
and by definitively interpreting election laws as they apply in this pandemic avoids the continued
and unnecessary use of public resources to litigate this case. See Bragg, 83 F. Supp. 2d at 717
(“Both the parties and the general public benefit from the saving of time and money that results
from the voluntary settlement of litigation.”). And where the government is the party proposing
a settlement, “the policy of encouraging settlements is particularly strong where the settlement is
proposed by a government agency acting in the public interest.” Acosta v. Agave Elmwood Inc.,
No. 1:17-cv-605, 2018 WL 5519540, at *2 (W.D.N.Y. Oct. 29, 2018)
The proposed consent judgment also acknowledges the unusual and serious health
circumstances of administering a presidential election during a global pandemic. It does so by
interpreting North Carolina law to ensure that voters continue to have viable options for voting
that do not require repeated and unnecessary exposure to COVID-19. See Stipulation and
Consent Judgment at 14-16 (bringing North Carolina’s absentee ballot receipt-deadline into
congruity with USPS time tables and existing deadlines for military and overseas voters,
reducing the congestion at in-person voting locations by requiring oral logging of absentee

15

App. 189

ballots returned in person, and formalizing a process that continues to require witness signature
but allows for voters to cure missing witness information themselves, without having to
withstand repeated exposure to the virus). See also League of Women Voters of Virginia, 2020
WL 2158249, at *10 (concluding, over objection, that consent judgment involving waiver of
witness requirement for Virginia’s June primary election was in the public interest in light of the
risks posed by COVID-19).
Finally, the consent judgment serves the public’s interest through its narrow resolution of
this case, without leading to the invalidation of the challenged provisions of state law. See
League of Women Voters of Virginia, 2020 WL 2158249, at *5 (concluding that the public
interest is “better served when parties come to a settlement agreement over an electoral process
that is likely being applied unconstitutionally.”). “This is particularly true in the context of this
agreement, which takes place during the worst pandemic this state, country, and planet has seen
in over a century. The public health implications have been vast and unprecedented in the
modern era, with no one left untouched by the risk of transmission.” Id.
The consent judgment resolves all of Plaintiffs claims through narrow relief, and without
requiring a conclusion that any provision of North Carolina election law is unconstitutional. It
also protects public health during an unprecedented national emergency, and avoids protracted
election litigation that threatens to interfere with the orderly administration of the election.
III.

The Proposed Consent Judgment Is Fair, Adequate, and Reasonable.
A.

Plaintiffs Raise Strong and Grave Constitutional Concerns.

To assess the consent judgment’s fairness, adequacy, and reasonableness, federal courts
consider “the strength of the plaintiff’s case.” United States v. North Carolina, 180 F.3d 574,
581 (4th Cir. 1999). To do so, however, courts need not conduct “a trial or a rehearsal of the

16

App. 190

trial.” Id. Instead, the critical inquiry is to “judge the fairness of a proposed compromise by
weighing the plaintiff’s likelihood of success on the merits against the amount and form of the
relief offered in the settlement.” Carson v. Am. Brands, Inc., 450 U.S. 79, 88 n.14 (1981); see
also Flinn v. FMC Corp., 529 F.2d 1169, 1172-73 (4th Cir. 1975) (holding that a court must
merely “reach an intelligent and objective opinion of the probabilities of ultimate success should
the claim be litigated,” and determine if those probabilities justify the compromise the parties
have reached).
Plaintiffs have raised constitutional claims challenging, and have sought to enjoin the
enforcement of, several provisions of North Carolina’s election law, including limitations on the
time period for early voting, absentee ballot receipt deadlines, witness requirements for absentee
ballots, the lack of prepaid postage for absentee ballots, the prohibition on assisting voters with
requesting or submitting an application for an absentee ballot, and the prohibition on assisting
voters with the delivery of their completed absentee ballots. Plaintiffs alleged that these
provisions, in light of the ongoing COVID-19 pandemic, violate the Equal Protection, Freedom
of Speech, Freedom of Assembly, and Free Elections Clauses of the North Carolina Constitution.
Because the consent judgment only contemplates an agreement as to three of the claims,
this Court need only assess the strength of those claims.
1.

Challenge to the Absentee Ballot Receipt Deadline

Plaintiffs challenge the constitutionality of the absentee receipt deadline, which requires
that ballots postmarked on or before Election Day be received within three days of Election Day
to be counted. N.C. Gen. Stat. § 163-221(b)(2).
The application of the absentee ballot receipt deadline presents unique challenges during
the COVID-19 pandemic because of the social-distancing guidelines that are required to
safelyand securely vote. As a result of the risks attendant with person-to-person contact in the
17

App. 191

midst of this global pandemic, State Defendants expect that approximately 40% of voters will
opt to vote absentee by mail—and a substantial proportion of those voters will choose to mail in
their ballots. Emily Featherston, Elections officials work to prepare for voting during a
pandemic, in the shadow of an election fraud scandal, WECT News (Apr. 23, 2020),
https://www.wect.com/2020/04/23/elections-officials-work-prepare-voting-during-pandemicshadow-an-election-fraud-scandal/. For those mailed-in absentee votes to be counted, they need
to arrive to county boards of election by the statutory deadline. N.C. Gen. Stat. § 163-221(b)(2)..
The United States Postal Service, however, has embarked on substantial operational
changes that are impacting its delivery capabilities. This will affect a substantial number of
voters in North Carolina who are dependent on USPS to request, receive, and submit their
absentee ballots. The agency itself sent a letter to the State at the end of July, warning the State
that its “deadlines for requesting and casting mail-in ballots are incongruous with the Postal
Service’s delivery standards,” that the State should plan on requiring at least one week between
the deadline to mark and postmark ballots and the deadline by which ballots must be received by
counties. Letter to North Carolina Secretary of State from USPS General Counsel, July 30,
2020. Without this accommodation, USPS warned that there was “a significant risk that . . .
ballots may be requested in a manner that is consistent with [North Carolina’s] election rules and
returned promptly, and yet not be returned in time to be counted.” Id.
These delays, which were already well documented during the primaries in other states
over the late spring and early summer,2 have only worsened since those primaries.

2

See Tom Scheck, Geoff Hing & Dee J. Hall, Postal Delays, Errors In Swing States Loom
Over Election, NPR (Aug. 16, 2020), https://www.npr.org/2020/08/16/902604303/postal-delayserrors-in-swing-states-loom-over-election (noting that 700 voters in Milwaukee and Wauwatosa,
WI never received requested ballots, and that 81,000 ballots were delivered to the state after the
primary, of which 79,054 were accepted only because of a court ruling).
18

App. 192

USPS’s operational changes have recently resulted in federal court intervention in the
form of an injunction entered by the Eastern District of Pennsylvania in Pennsylvania v. DeJoy,
No. 2:20-cv-4096, DE 62 (opinion) and 63 (order) (E.D. Pa. Sept. 28, 2020). The Court
concluded that the USPS’s operational changes have harmed its users, including the state of
North Carolina, in “various and meaningful ways,” and that “irreparable harm will result unless
[the USPS’s] ability to operate is assured.” Id., DE 62, at 2; see also Jones v. United States
Postal Service, No. 1:20-cv-6516, DE 49 (S.D.N.Y. Sept. 21, 2020) (enjoining USPS from
making certain operational changes and instituting strict reporting requirements to the Court).
As part of its order, the Eastern District of Pennsylvania made several findings of fact
detailing “the agency’s sudden and rigid pivot” that have resulted in “declines in service that . . .
have not been fully remedied and pose a threat to the operation of the November 2020 elections.”
Pennsylvania, No. 2:20-cv-4096, DE 62, at 7. For instance, carriers “are prohibited from making
late trips and extra trips even if waiting just a few minutes would ensure timely delivery to entire
communities,” and are “instructed to leave behind mail that is ready for delivery.” Id. at 14.
“The Postal Service has also set new work hour reduction targets and sought to aggressively
reduce the use of overtime on a nationwide basis.” Id. The Court concluded: “What is not
reasonably in dispute is that the delays that have occurred as a result of the initiatives described
above clearly pose a threat to the delivery of Election Mail to and from the voters.” Id. at 20.
In light of the confluence of COVID-19 and USPS operational problems, the three-day
receipt deadline places North Carolina’s voters in an untenable position. Voters who could have
abided by the deadline to postmark their marked ballots and have them counted but for these
mail delays will be forced to: (1) vote in person, and risk the possibility of serious illness or
death from COVID-19, or of transmitting the disease to others; (2) vote by mail more than a

19

App. 193

week before Election Day, and lose the benefit of late-breaking information about candidates for
public office; or (3) vote by mail on or shortly before election day and risk being disenfranchised
by mail delivery times over which the voter has no control. These burdens are not distributed
equally—for example, older, poorer, and minority voters face a higher risk of serious illness or
death from COVID-19, and thus bear a heavier burden if forced by postal delays and the receipt
deadline to vote in-person during the pandemic. See CDC, Older Adults (Sept. 11, 2020),
https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/older-adults.html (“As you
get older, your risk for severe illness from COVID-19 increases.”); CDC, Health Equity
Considerations and Racial and Ethnic Minority Groups (July 24, 2020),
https://www.cdc.gov/coronavirus/2019-ncov/community/health-equity/race-ethnicity.html
(“There is increasing evidence that some racial and ethnic minority groups are being
disproportionately affected by COVID-19.”).
At the same time that the State enforces a three-day receipt deadline for ordinary absentee
ballots, it counts military and overseas ballots so long as they are received no later than nine days
of Election Day. G.S. § 163-258.12(b). This deadline is closely tailored to the needs of county
election officials, who conduct their county canvasses on the tenth day after the election. See
N.C. Gen. Stat. § 163-182.5.
The combination of delays that are outside the voter’s control, even if the voter abides by
all of the State’s election laws, with the disparate treatment between military and overseas ballots
and civilian ballots creates a serious concern that may result in unconstitutionally burdening the
right to vote. See, e.g., Fla. Democratic Party v. Detzner, No. 4:16-cv-607, 2016 WL 6090943,
at *6 (N.D. Fla. Oct. 16, 2016) (“If disenfranchising thousands of eligible voters does not amount
to a severe burden on the right to vote, then this Court is at a loss as to what does.”).

20

App. 194

2.

Challenge to the Early Voting Time Period

Plaintiffs challenge the constitutionality of the limitations on the number of days and
hours during which counties are permitted to conduct early voting. N.C. Gen. Stat. § 163227.2(b) permits one-stop early voting “[n]ot earlier than the third Thursday before an election . .
. and not later than 3:00 PM on the last Saturday before that election.” The State Defendants
have additionally issued a Numbered Memo directing, inter alia, that: (1) all county boards shall
open one early voting site for a minimum of ten hours total for each of the first and second
weekends of the 17-day early voting period; (2) each county board shall open at least one early
voting site per 20,000 registered voters in the county, although counties may apply for waivers;
(3) county boards with only one early voting site must arrange for a back-up site and back-up
staff; and (4) boards may open early voting sites earlier than 8:00 AM or stay open later than
7:30 PM, so long as all sites are open at the same time. Numbered Memo 2020-14. Plaintiffs
allege that these changes are inadequate and, in some instances, have led to a reduction in the
availability of early voting.
In-person early voting is a crucial component of conducting a safe and orderly election
during a pandemic. While State Defendants expect a massive surge in voting-by-mail, many
voters remain committed to in-person voting. However, in-person voting still necessarily
involves risks in the midst of a pandemic: it involves lines and crowds, many indoors.
This concern is exacerbated by the fact that voters may return absentee ballots in-person
at early voting sites. Voters who return these ballots will be in the same lines as early voters and
will increase the crowds and delay—particularly as the State expects to see a ten-fold increase in
the number of absentee votes this year. Adding to the issue is the concern that, with USPS
experiencing delays, voters who otherwise would have returned their ballots by mail will instead
choose to return their ballots in person.
21

App. 195

When returning an absentee ballot in person, the person returning the ballot is required by
administrative rule to log their name and other identifying information, including their relation to
the voter, in writing. This process requires the exchange of the log and writing utensils between
an elections official and the person returning their ballot. To simplify the process, and to
minimize the chance of spreading the virus, the consent judgment allows for oral confirmation at
a designated station at each early voting site and county board office. The person returning the
ballot will still have to confirm her identity to an elections official, but instead of logging this
information herself, the elections official will log this information. In addition, the logging will
be completed at a designated station, in a line separate from the line for early voters. No ballots
will be permitted to be dropped off without an elections official logging it.
This change to an administrative rule—not a statutory requirement—will decrease the
congestion at early voting sites and ensure that materials are not passed back and forth between
the elections official and the voter unnecessarily.
3.

Challenge to the Witness Requirement

Finally, Plaintiffs claim that the witness requirement imposes a burden on the right to
vote by requiring voters to risk exposure to COVID-19 in order to secure a witness to vote via
absentee ballot. See Complaint ¶ 58-70. This burden falls unequally on voters who live in
single-member or single-adult households and older voters. Id., ¶ 64, 65. And, like the receipt
deadline, the witness requirement is not applied to military and overseas voters. Id., ¶ 69.
Witness requirements for absentee ballots have been shown to be, broadly speaking,
disfavored by the courts—particularly during the COVID-19 pandemic. In light of the COVID19 pandemic, an increasing number of courts have enjoined witness requirements in primary and
general elections in 2020. See, e.g., Common Cause R.I. v. Gorbea, No. 20-1753, 2020 WL
4579367, at *2 (1st Cir. Aug. 7, 2020) (concluding that “[t]aking an unusual and in fact
22

App. 196

unnecessary chance with your life is a heavy burden to bear simply to vote” and thus denying
motion to stay consent judgment suspending “notary or two-witness requirement” for mail
ballots), stay denied sub nom. Republican Nat’l Comm. v. Common Cause, No. 20A28, 2020 WL
4680151 (U.S. Aug. 13, 2020); Thomas v. Andino, No. 3:20-cv-01552, 2020 WL 2617329, at
*21 (D.S.C. May 25, 2020) (finding “strong likelihood that the burdens placed upon [plaintiffs]
by” single-witness signature requirement “outweigh the imprecise, and (as admitted by
[defendants]) ineffective, state interests of combating voter fraud and protecting voting
integrity”); League of Women Voters of Virginia, 2020 WL 2158249, at *8 (“In our current era of
social distancing—where not just Virginians, but all Americans, have been instructed to maintain
a minimum of six feet from those outside their household—the burden [of the witness
requirement] is substantial for a substantial and discrete class of Virginia’s electorate. During
this pandemic, the witness requirement has become ‘both too restrictive and not restrictive
enough to effectively prevent voter fraud.’”); Stipulation and Partial Consent Judgment, LaRose
v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. June 17, 2020) (approving consent judgment
to not enforce Witness Requirement and Receipt Deadline for primary election); Stipulation and
Partial Consent Judgment, LaRose v. Simon, No. 62-CV-20-3149 (2d Jud. Dist. Minn. July 17,
2020) (approving similar consent judgment for November general election).
Even in North Carolina, a federal court held that the witness requirement could not be
implemented as statutorily authorized without a mechanism for voters to have adequate notice of
and cure materials defects that might keep their votes from being counted. On August 4, 2020, a
federal court in the Middle District of North Carolina enjoined the State Defendants from “the
disallowance or rejection . . . of absentee ballots without due process as to those ballots with a
material error that is subject to remediation.” Democracy N.C. v. N.C. State Bd. of Elections,

23

App. 197

No. 1:20-cv-00457 (M.D.N.C. Aug. 4, 2020) (Osteen, J.), DE 124 at 187. The injunction
reflected the federal court’s conclusion that “when the ballot is rejected for a reason that is
curable, such as incomplete witness information, or a signature mismatch, and the voter is not
given notice or an opportunity to be heard on this deficiency, the court finds this ‘facially
effect[s] a deprivation of the right to vote.’” Id. at 156 (quoting Self Advocacy Sols. N.D. v.
Jaeger, No. 3:20-cv-71, 2020 WL 2951012, at *9 (D.N.D. June 3, 2020)). This “compelled” the
court to find that the absentee-ballot statutes were “constitutionally inadequate” absent a
statewide curing procedure. Id. at 157.
To attempt to comply with this injunction and pursuant to its statutory authority under
section 163-22.2, the State Board released guidance that allowed voters to cure voter signature
defects but required a voter to re-vote her ballot for witness signature defects. Soon thereafter,
the State Board became concerned that the cure mechanism did not provide sufficient notice or
opportunity to be heard on witness signature defects and that it disparately affected the rights of
certain groups of voters.
For example the State Board’s own statistics and reporting mechanisms in addition to
publicly available evidence indicated that the process of rejecting ballots for absentee ballot
envelope defects, including witness signature defects, has a disparate impact on minority voters,
in North Carolina and elsewhere. In North Carolina, for example, “[a]s of September 17, Black
voters’ ballots are being rejected at more than four times the rate of white voters.” Kaleigh
Rogers, North Carolina Is Already Rejecting Black Voters’ Mail-In Ballots More Often Than
White Voters’, FiveThirtyEight (Sept. 17, 2020), https://fivethirtyeight.com/features/northcarolina-is-already-rejecting-black-voters-mail-in-ballots-more-often-than-white-voters/. See
also North Carolina Early Voting Statistics, https://electproject.github.io/Early-Vote-

24

App. 198

2020G/NC.html (detailing that, as of September 28, 2020, Black voters had a rejection rate of
4.3% while white voters had a rejection rate of 1.1%). Hispanic and Native American voters’
ballots are being rejected at nearly three times the rate of white voters’ ballots, and Asian voters’
ballots are being rejected at more than twice the rate of white voters. Id. To put it another way:
as of September 28, in North Carolina alone, white voters had submitted 182,312 ballots, and
2,005 of those ballots had been rejected, while Black, Hispanic, Asian, and Native American
voters combined had submitted 83,102 ballots, and 2,075 had been rejected. Id.
The same pattern has been recognized throughout the country. See Jane C. Timm, A white
person and a Black person vote by mail in the same state. Whose ballot is more likely to be
rejected?, NBC News (Aug. 9, 2020), https://www.nbcnews.com/politics/2020-election/whiteperson-black-person-vote-mail-same-state-whose-ballot-n1234126 (citing studies demonstrating
that Hispanic and Black voters were more than twice as likely to have their ballot rejected as
white voters in elections held in Florida and Georgia in 2018). As a result, the procedures used
for rejecting absentee ballots and the cure processes in place, or lack thereof, have come under
increasing judicial scrutiny. See, e.g., Richardson v. Tex. Sec. of State, 2020 WL 5367216, at *46
(W.D. Tex. Sept. 8, 2020) (ordering Texas Secretary of State to notify local election officials that
“the rejection of a voters’ ballot on the basis of a perceived signature mismatch is
unconstitutional” in the absence of notice and an opportunity to cure), appeal filed No. 20-50774
(5th Cir. 2020); Frederick v. Lawson, 2020 WL 4882696, at *12-15 (S.D. Ind. Aug. 20, 2020)
(concluding that Indiana’s signature verification requirement violated the Due Process and Equal
Protection Clauses of the Fourteenth Amendment and enjoining the state “from rejecting any
mail-in absentee ballot on the basis of a signature mismatch absent adequate notice and cure
procedures to the affected voter”); Democratic Exec. Comm. of Fla. v. Detzner, 347 F. Supp. 3d

25

App. 199

1017, 1030 (N.D. Fla. 2018) (referring to signature matching as a “questionable practice”), stay
denied sub nom. Democratic Exec. Comm. of Fla. v. Lee, 915 F.3d 1312 (11th Cir. 2019)
(concluding that Florida’s signature-match and cure scheme imposed a “serious burden on
voters”); Martin v. Kemp, 341 F. Supp. 3d 1326, 1341 (N.D. Ga. 2018) (enjoining rejection of
ballots for perceived signature mismatch).
As a result, and to comply with the State Defendants’ understanding of the injunction
entered by Judge Osteen, the State Board directed county boards of elections not to disapprove
any ballots until a new cure procedure that would comply with the injunction could be
implemented. On September 22, 2020, the State Board instituted the cure procedure attached to
the proposed consent judgment. At the same time, the State Board notified the federal court of
its cure mechanism process.
*

*

*

As demonstrated above, Plaintiffs’ claims raise serious constitutional concerns that are
mitigated by the terms of the proposed consent judgment. In exchange, the State Defendants
were able to secure dismissal of several claims that would have, at the very least, required
protracted litigation, even if unsuccessful. And the relatively modest relief reflected in the
consent judgment reflects the fact that identical claims have been successful in other forums.
Under the circumstances, and given where North Carolina is in the election, the consent
judgment is fair, reasonable, and adequate.
B.

The Proposed Consent Judgment Makes Modest Adjustments That Are
Narrowly Tailored to Address the Ongoing Global Pandemic.

Both Plaintiffs and State Defendants agree that Plaintiffs’ claims raise serious
constitutional concerns over the guarantees against unduly burdening the right to vote. The
proposed consent judgment would remedy these concerns in a narrow way: by implementing

26

App. 200

limited additional remedies for any constitutional violations that may result from the
enforcement of existing state law in the midst of an ongoing global pandemic, and without
striking down any North Carolina statutes. In light of the strength of Plaintiffs’ claims, these
terms are fair, adequate, and reasonable.
Plaintiffs’ lawsuit asks this Court to:


enjoin the enforcement of the absentee ballot receipt deadline by waiving the
postmark requirement as it applies to any ballot that is not affirmatively
postmarked after November 3, so long as they are received by county boards of
elections up to nine days after Election Day;



enjoin the enforcement of the witness requirement for absentee ballots entirely, as
applied to voters residing in single-person or single-adult households;



enjoin the enforcement of all laws that prohibit assistance with the request and
submission of absentee ballots;



enjoin any signature-verification procedures unless the State Board provides
standards for signature-matching verification procedures;



require that the State Defendants pay for postage for absentee voters; and



require that the State Defendants extend early voting by requiring 21 additional
days for the November general elections. Complaint, Prayer for Relief.

The proposed consent judgment would not provide this full complement of relief. Instead
of enjoining these statutes, the proposed consent judgment would leave them in place and give
them effect, while resolving many of Plaintiffs’ constitutional concerns. This narrow method of
resolving these claims weighs in favor of entering the consent judgment.

27

App. 201

The proposed consent judgment does not provide any remedy for Plaintiffs’ claims
challenging the prohibition on assistance with absentee ballot requests and submissions, the
institution of signature-verification procedures, or the provision of prepaid postage for ballot
mail. And even with respect to those claims for which the proposed consent judgment provides a
limited remedy, the remedy does not encompass the full scope of Plaintiffs’ request.
Plaintiffs’ challenge to the absentee ballot receipt procedures seeks to require any ballot
that is received by mail to county boards of elections that does not bear a postmark to be counted
unless a preponderance of the evidence demonstrates that it was mailed after Election Day.
Complaint, Prayer for Relief at h. In addition, Plaintiffs request an extension of the receipt
deadline for ballots mailed in by nine days—to mirror the deadline afforded to uniformed-service
and overseas absentee voters. Id. The proposed consent judgment leaves in place the
requirement that all ballots must be marked and postmarked (or bear official indicia that the
ballot was in the hands of a postal service) by Election Day. Decree at 14. The proposed decree
only modifies the receipt deadline to mirror the deadline afforded to other voters in North
Carolina, as a response to delays caused by the USPS—delays which are out of the control of
state officials or voters. Id.; see also supra at pp. 18-20. Plaintiffs appear to continue to believe
that requiring a postmark or indicia of postmarking on or before November 3 presents an
unconstitutional barrier to vote. But the provision in the consent judgment ensuring that all votes
carry affirmative evidence of having been marked on or before Election Day preserves the
purpose of the statutory prescriptions on the manner in which North Carolinians must vote, while
providing Plaintiffs a remedy, albeit one that is more narrow than their desired outcome.
Plaintiffs’ challenge to the period of early voting seeks to require the State Board to
extend the early voting period from 17 days by adding an additional 21 days. Complaint, Prayer

28

App. 202

for Relief at c. The proposed consent judgment leaves in place the early voting period provided
by the General Statutes. Decree at 15-16. The proposed decree only modifies the procedure by
which absentee ballots are logged when they are returned in person to county board offices and
early voting sites. Id. Instead of requiring the person returning the ballot to log the ballot
herself, minimizing exposure to the COVID-19 virus by eliminating the need to pass the log and
pen back and forth between the person and the elections official, the proposed consent judgment
allows the person returning the ballot to verbally confirm that she is legally permitted to do so.
Id. This verbal confirmation procedure will speed up the return process, allowing for lines at
early voting sites to move more quickly. See supra pp. 21-22. Plaintiffs appear to continue to
believe that requiring 21 more days of early voting is necessary to eliminate barriers to vote in
the middle of the COVID pandemic. But the provision in the consent judgment ensuring that the
absentee ballot return procedure is more streamlined and reduces the potential for the COVID-19
virus to spread at early-voting sites preserves the purpose of the statutory prescriptions on the
manner in which ballots are returned, while providing Plaintiffs a remedy, though narrower than
their desired outcome.
Finally, Plaintiffs’ challenge to the witness-signature requirement seeks to enjoin the
requirement entirely for voters living in single-person or single-adult households. Complaint,
Prayer for Relief at d. The proposed consent judgment leaves the witness requirement in place in
its entirety. Stipulation and Proposed Consent Judgment at 15. The proposed decree only
incorporates a cure process that the State Defendants had already instituted to comply with an
injunction entered in Democracy North Carolina v. North Carolina State Board of Elections, No.
20-cv-457 (M.D.N.C.) (Osteen, J.). The injunction prohibits the State Board from permitting the
“disallowance or rejection of absentee ballots without due process as to those ballots with a

29

App. 203

material error that is subject to remediation.” Order on Inj. Relief (Dkt. 124) at 187. To comply,
the State Board left in place the witness requirement. But, it instituted a cure procedure that
limited repeated exposure to the COVID-19 virus where absentee ballots contained a material
error of lacking a voter signature, witness or assistant signature, witness or assistant name, or
witness or assistant address. Stipulation and Proposed Consent Judgment at 15. The cure
process as to the witness requirement requires that, where a voter makes a mistake on the ballot
container envelope, the voter is contacted by the county board of elections and is issued an
affidavit by which the voter affirms that she is the one who voted her ballot. Id. In this way, the
county board of elections serves as the witness, while providing security that the voter voted her
ballot and reducing the risk of the spread of COVID-19. Plaintiffs appear to continue to believe
that enjoining the use of the witness requirement entirely is required to protect the right to vote
for those living in single-person or single-adult households. But the provision in the consent
judgment ensuring that there is confirmation that the voter is the one who voted her ballot
preserves the purpose behind the statutory requirement for a witness while providing Plaintiffs a
remedy, even though the remedy is narrower than desired.
IV.

The Proposed Consent Judgment Is the Product of Honest, Arms-Length
Negotiation.
The proposed consent judgment is the subject of substantial negotiation and compromise

between the State Defendants and Plaintiffs. The nature and extent of these negotiations provide
the Court with assurance that the proposed consent judgment is fair, adequate, and reasonable.
As a general matter, courts will credit the parties’ representations as to their good faith in
negotiations. See Common Cause R.I. v. Gorbea, No. 1:20-cv-00318-MSM, 2020 WL 4365608,
at *4 (D.R.I. July 30, 2020) (“[N]o evidence of collusion among the parties has been presented to

30

App. 204

this Court; in fact, the parties have represented that they engaged in good-faith negotiations in
the crafting of the Consent judgment’s terms.”).
In addition, courts generally find that consent judgments that represent an actual
compromise between the parties’ positions are products of good-faith negotiations. For example,
in Gorbea, the District of Rhode Island recently rejected allegations of collusion in crafting an
election-related consent judgment because “[i]t [wa]s clear that the Consent judgment was a
compromise . . . . [T]he fact that plaintiffs did not get everything that they sought . . . suggest[s]
that the proposed intervenors’ argument that this agreement was . . . collusive is wholly without
merit or evidence.” No. 1:20-cv-00318-MSM, 2020 WL 4365608, at *4 (D.R.I. July 30, 2020),
aff’d 970 F.3d 11, 17 (1st Cir. 2020) (“All in all, we see no collusion . . . .”). This is particularly
true where the substantive reasonableness of the compromise is evident. In Carcaño v. Cooper,
for instance, the Middle District of North Carolina rejected arguments of collusion where the
consent judgment “dismisse[d] the Executive Branch Defendants from the case having ceded
nothing more than an interpretation of HB142 § 2 faithful to its plain terms.” No. 1:16-cv-236,
2019 WL 3302208, at *6 (M.D.N.C. July 23, 2019). This is true even if “the Executive Branch
Defendants . . . show[ed] little interest in litigating this case.” Id.
The consent judgment satisfies these standards. It is a compromise between the positions
of Plaintiffs and State Defendants, neither of whom achieved complete victory. See supra pp.
26-30. Rather, the consent judgment realistically reflects the parties’ perceived litigation risks.
Plaintiffs “did not get everything they sought,” Gorbea, 2020 WL 4365608, at *4, and the State
Defendants were able to secure the dismissal of all claims, with Plaintiffs bearing their own fees.
See Carcaño, 2019 WL 3302208, at *6 (securing dismissal of all claims against Executive
Defendants was proof consent judgment was not collusive); League of Women Voters of

31

App. 205

Virginia, 2020 WL 2158249, at *6 (plaintiffs’ agreement not to seek attorneys’ fees was proof
that consent judgment was not one-sided). Moreover, the consent judgment serves the State’s
interest in avoiding protracted litigation that risks disrupting the administration of an orderly,
secure election in which all eligible voters are able to participate. See League of Women Voters
of Virginia, 2020 WL 2158249, at *13.
Procedurally, the consent judgment, like this litigation more broadly, contains the
hallmarks of good-faith negotiation. Plaintiffs filed their amended complaint and motion for
preliminary injunction on August 18, 2020. Plaintiffs and State Defendants moved for entry of
the consent judgment approximately five weeks later, on September 22. The fact that the joint
motion was filed many weeks after the complaint and motion for preliminary injunction were
filed bears the indicia of good-faith negotiations—a time period that far exceeds that held to be
non-collusive in Gorbea, in which the First Circuit found “no collusion” in a settlement agreed to
“just days” after plaintiffs’ suit was filed, see 970 F.3d at 17, and in League of Women Voters of
Virginia, in which the Western District of Virginia found no collusion in a consent judgment
entered just six days after plaintiffs filed suit, see 2020 WL 2158249, at *3-4 (setting forth
procedural history), *13 (concluding agreement was not collusive despite quick resolution).
Legislative Defendants still press an objection that the consent judgment is the product of
collusion. But this objection is based on nothing more than rank speculation. Courts have
generally rejected similar baseless accusations of collusion that only attempt to scuttle a fair and
just resolution. “Absent evidence to the contrary, the court may presume that settlement
negotiations were conducted in good faith and the resulting agreement was reached without
collusion.” League of Women Voters of Va. v. Va. St. Bd. of Elections, 2020 WL 2158249 (W.D.
Va. May 5, 2020) (quoting McCurley v. Flowers Foods, Jnc., No. 5:16-cv-00194, 2018 WL

32

App. 206

6650138, at *2 (D.S.C. Sept. 10, 2018)). See also Funkhouser v. City of Portsmouth, No. 2:13cv-520, 2015 WL 12765639, at *3 (E.D. Va. May 14, 2015) (“In the absence of any evidence to
the contrary, it is presumed that no fraud or collusion occurred.”); Hemphill v. San Diego Ass’n
of Realtors, Inc., 225 F.R.D. 616, 621 (S.D. Cal. 2005) (“As a general principle, the courts
respect the integrity of counsel and presume the absence of fraud or collusion in negotiating the
settlement, unless evidence to the contrary is offered.”) (internal quotation marks omitted).
Consequently, “the burden is on the challenging party to show that the settlement is
infected with collusion.” Gray v. Derderian, No. CA 04-312L, 2009 WL 2997066, at *4 (D.R.I.
Aug. 14, 2009), adopted by 2009 WL 10727589 (D.R.I. Sep. 15, 2009).3 It is no small task to
meet this burden, and doing so requires “more than speculation” that collusion occurred. League
of Women Voters of Virginia, 2020 WL 2158249, at *13.
But Legislative Defendants have provided nothing more than speculation to support their
accusations of collusion. The only “evidence” they cite to support their baseless claims is that
Plaintiffs and State Defendants announced a proposed consent judgment, that it had been reached
“in secret without knowledge of or consultation with the Legislative Defendants.” LD CrossMotion for Continuance at 3. But neither of these accusations is cause to conclude that the
proposed consent judgment was a product of collusion.
The act of reaching a settlement itself cannot serve as proof of collusion. See In re
Warner Commc’ns Secs. Litig., 618 F. Supp. 735, 751 (S.D.N.Y. 1985) (“Settlement . . . is
hardly prima facie evidence of collusion.”). Nor can the absence of vitriol between litigants or

3

This standard is recognized across federal and state jurisdictions. E.g., United States v.
Dynamics Research Corp., 441 F. Supp. 2d 259, 268-69 (D. Mass. 2006); Dacotah Mktg. &
Research, LLC v. Versatility, Inc., 21 F. Supp. 2d 570, 578 (E.D. Va. 1998); Copper Mtn., Inc. v.
Poma of Am., Inc., 890 P.2d 100, 108 (Colo. 1995).
33

App. 207

counsel. Id. Additionally, “given the obvious interest in obtaining a resolution . . . before” the
rapidly approaching election, “the swift timing of an agreement . . . is not altogether
remarkable.” League of Women Voters of Virginia, 2020 WL 2158249, at *13.
Moreover, Legislative Defendants’ protestations that they were not consulted before
reaching a resolution ring hollow. The consent judgment is a resolution among two of the three
parties—Plaintiffs and the only defendants that have a role in exercising executive authority in
this case, the State Defendants. No part of the consent judgment affects a legislative right or
imposes an obligation on Legislative Defendants. Accordingly, there was no reason to consult or
inform them. They remain free to defend their positions on behalf of the General Assembly in
this case.
V.

The Proposed Consent Judgment Does Not Run Afoul of the United States
Constitution

As discussed above, as of this past Saturday, the Legislative Defendants and Political
Committee Intervenors are simultaneously pursuing collateral attacks against the proposed
consent judgment in federal court. Their claims in that forum lack merit, and need not give this
Court any pause about approving the parties’ agreement.
A.

State Law Empowers the State Board To Agree to the Terms in the Proposed
Consent Judgment.

The terms of the proposed consent judgment are entirely consistent with the authority that
the State Board enjoys under state law. Indeed, the State Board’s actions are specifically
authorized under two separate statutes: sections 163-22.2 and 163-27.1.
The State Board enjoys distinctiveauthority under state law—authority that has been
recognized by our State’s Supreme Court: “[C]onsistent with much modern legislation, the
General Assembly has delegated to the members of the [State Board] the authority to make

34

App. 208

numerous discretionary decisions.” Cooper v. Berger, 370 N.C. 392, 415 n.11, 809 S.E.2d 98,
113 n.11 (2018).
One of these discretionary decisions that is accorded to the State Board is the authority to
enter into consent judgments to avoid protracted litigation challenging the constitutionality of
North Carolina election laws. North Carolina General Statutes § 163-22.2 explicitly provides:
“In the event any portion of Chapter 163 of the General Statutes or any State election law . . . is
held unconstitutional or invalid by a State or federal court . . . the State Board of Elections shall
have the authority to make reasonable interim rules and regulations with respect to the pending
primary or election as it deems advisable . . . . The State Board of Elections shall also be
authorized, upon recommendation of the Attorney General, to enter into agreement with the
courts in lieu of protracted litigation until such time as the General Assembly convenes.”This
statutory provision clearly establishes that the General Assembly has given the State Board
authority to propose to the Court the consent judgment in the Joint Motion.
That authority applies here. Plaintiffs’ lawsuit challenges the constitutionality of a
number of state elections laws and asks this Court to enjoin their enforcement for the November
2020 elections. To avoid protracted litigation and ensure certainty and fairness for voters, the
State Board took reasonable action to enter into an agreement that makes modest adjustments to
voting procedures in North Carolina for the 2020 general election. These modifications preserve
the constitutionality of the statutes that Plaintiffs have challenged, while also protecting voters’
constitutional rights. Carefully calibrated modifications of that kind are precisely the sort of
policy judgments that N.C. Gen. Stat. § 163-22.2 authorizes the Board to make in response to
litigation.

35

App. 209

To the extent that the Legislative Defendants object to the implementation of the cure
mechanism, which is part of the proposed consent judgment, their complaints are meritless for at
least two reasons. First, as just explained, the State Board is authorized to implement the cure
mechanism as part of its authority to enter into consent judgments under N.C. Gen. Stat. § 16322.2. Second, the State Board has separate authority under N.C. Gen. Stat. § 163-22.2 to
implement the cure mechanism as an interim regulation necessitated by a court’s finding of a
constitutional violation.
On August 4, 2020, a federal district court held that North Carolina’s election laws
related to absentee ballots failed to afford procedural due process because they did “not afford
mail-in absentee voters any notice of, or opportunities to cure, material defects in . . . th[eir]
absentee ballots.” Democracy North Carolina v. North Carolina State Bd. of Elections, No. 20cv-457 Dkt. 124 at 150 (M.D.N.C. Aug. 4, 2020). The court specified that “when the ballot is
rejected for a reason that is curable, such as incomplete witness information, or a signature
mismatch, and the voter is not given notice or an opportunity to be heard on this deficiency, the
court finds this ‘facially effect[s] a deprivation of the right to vote.’” Id. at 156 (quoting Self
Advocacy Sols. N.D. v. Jaeger, No. 3:20-cv-71, 2020 WL 2951012, at *9 (D.N.D. June 3, 2020)).
This “compelled” the court to find that the absentee-ballot statutes were “constitutionally
inadequate” absent a statewide curing procedure. Id. at 157. Accordingly, the court enjoined the
State Board from allowing any absentee ballots to be rejected “without due process as to those
ballots with a material error that is subject to remediation.” Id. at 187. The State Board was
directed to implement a procedure which “provides a voter with notice and an opportunity to be
heard before an absentee ballot with a material error subject to remediation is disallowed or
rejected.” Id. In compliance with this injunction and pursuant to its statutory authority under

36

App. 210

section 163-22.2, on September 22, 2020, the State Board instituted the cure procedure attached
to the proposed consent judgment. At the same time, the State Board notified the federal court of
its cure mechanism process.
Finally, in addition to authority under N.C. Gen. Stat. § 163-22.2, the State Board,
through its Executive Director, also has authority to institute emergency orders to conduct an
election in the midst of a catastrophe resulting in a disaster declaration by the President of the
United States or the Governor. N.C. Gen. Stat. § 163-27.1; 08 NCAC 01 .0106. These powers
allow the Executive Director to make modifications to statutes governing the “conduct of an
election in a district where the normal schedule for the election is disrupted.” Id. The Executive
Director has exercised this authority in nearly every election cycle in recent memory, in response
to hurricanes and other disasters. Most recently, the Executive Director exercised this authority
in response to the ongoing COVID-19 pandemic when she issued an emergency order mandating
minimum weekend hours for one-stop sites, minimum one-stop early voting sites, and the
implementation of safety and sanitation requirements for the administration of in-person voting.
See Emergency Order Administering the November 3, 2020 General Election During the Global
COVID-19 Pandemic and Public Health Emergency (July 17, 2020), available at
https://s3.amazonaws.com/dl.ncsbe.gov/State_Board_Meeting_Docs/Orders/Executive%20Direc
tor%20Orders/Emergency%20Order_2020-07-17.pdf. Each of these mandates made
modifications to the enforcement of existing state law to accommodate the ongoing crisis.
Similarly here, the Executive Director would have the statutory authority to make any of
the modifications set forth in the Numbered Memos using her emergency powers if she found
them necessary. After all, the State of North Carolina is still operating under the disaster
declaration issued by the President of the United States and the Governor and the Executive

37

App. 211

Director would have authority to issue these Numbered Memos after taking into account the
enumerated factors in 08 NCAC 01 .0106.
The reason, therefore, for taking these actions as part of a consent judgment—and not as
independent exercises of authority--is, of course because a consent order has attendant benefits:
Were the State Board and Executive Director to take these actions independently, they would not
have been able to negotiate the release of all of Plaintiffs’ other claims. By taking these actions
as part of entry of a consent judgment, the State Defendants are able to ensure a greater public
benefit: securing certainty for the voters of this State while also avoiding unnecessary expense.
Because the Executive Director and the State Board are authorized to make the
modifications to the enforcement of North Carolina’s election laws under N.C. Gen. Stat.
§§ 163-22.2 and 163-27.1, the proposed consent judgment is consistent with North Carolina law
and is fair, adequate, and reasonable.
B.

The Provisions in the Proposed Consent Judgment Are Consistent With the
Elections Clause.

The Legislative Defendants and the Political Committee Intervenors’ collateral litigation
also argues that the provisions of the proposed consent judgment are unlawful because they
violate the Elections Clause of the United States Constitution. Their arguments are baseless.
The Elections Clause states, in relevant part, that “[t]he Times, Places and Manner of
holding Elections for Senators and Representatives, shall be prescribed in each State by the
Legislature thereof.” U.S. Const. art. I, § 4, cl. 1. In collateral litigation that the Legislative
Defendants filed on Saturday night—just in advance of the hearing on this motion—the
Legislative Defendants asserted that this Clause empowers “only two entities” to regulate
elections in North Carolina: Congress and the North Carolina General Assembly. Moore v.
Circosta, TRO Memorandum at 11; see also id. at 12 (contending that “[b]y choosing to use the

38

App. 212

word ‘Legislature,’ the Elections Clause makes clear that the Constitution . . . grant[s] the power
to regulate elections . . . to the state’s legislative branch” alone). Under clear Supreme Court
precedent, the Legislative Defendants’ cramped interpretation of the Elections Clause is flatly
wrong.
More than a century ago, the Supreme Court made clear that the word “Legislature” in
the Elections Clause should not be read as a reference to “the representative body alone.” Ariz.
State Legislature v. Ariz. Indep. Redistricting Comm’n, 576 U.S. 787, 805 (2015) (describing the
Court’s holding in Ohio ex rel. Davis v. Hildebrant, 241 U.S. 565 (1916)).
The Supreme Court has repeatedly affirmed this interpretation of the Elections Clause,
including as recently as a few Terms ago. See, e.g., Ariz. Indep. Redistricting Comm’n, 576 U.S.
787; Smiley v. Holm, 285 U.S. 355 (1932). In Arizona Independent Redistricting Commission,
the Court assessed the constitutionality of an independent redistricting commission that had been
created as part of an initiative ratified by Arizona voters. 285 U.S. at 792. After the commission
adopted new redistricting maps, the Arizona Legislature sued, arguing that the commission had
usurped its authority under the Elections Clause. In the Arizona Legislature’s view, the Clause’s
use of the word “Legislature” “mean[t] specifically and only the representative body which
makes the laws of the people.” Id. (citation omitted). The Arizona Legislature thus maintained
that the Commission—and the maps that it had drawn—were unconstitutional.
Again, the Supreme Court rejected this narrow reading of the Elections Clause, holding
that the word “Legislature” must be interpreted “in accordance with the [relevant] State’s
prescriptions for lawmaking.” Id. at 813, 814-24. For example, if state law requires that
elections laws be passed by a General Assembly subject to the Governor’s veto, “the Elections
Clause . . . respect[s] the State’s choice to include the Governor” in the legislative process. Id. at

39

App. 213

807; see also Smiley, 285 U.S. at 368, 372-73 (holding that “nothing in” the Elections Clause
“precludes a state from providing that legislation action in districting the state for congressional
elections shall be subject to the veto power of the Governor as in other cases of the exercise of
the lawmaking power”).
Applying these precedents, this Court cannot simply assume—as the Legislative
Defendants and the Political Committee Intervenors urge—that the North Carolina General
Assembly is the “Legislature” that the Elections Clause references. Ariz. Indep. Redistricting
Comm’n, 576 U.S. at 805, 808-09, 816. Instead, this Court must look to North Carolina law to
determine who the State authorizes to regulate elections. Smiley, 285 U.S. at 368 (question of
who has the “authority [to] mak[e] laws for the state” is a “matter of state polity”).
Here, it is clear that state law empowers both the General Assembly and the State Board
to regulate the “Time[ ], Place[ ], and Manner” of elections. See supra pp. 35-39. As discussed
above, state law specifically authorizes the State Defendants to take the actions it has in the
proposed consent judgment. See id. Because the Board’s actions are entirely consistent with
“the method which the State has prescribed” for enacting elections regulations, the proposed
consent judgment poses no problem under the Elections Clause. See Ariz. Indep. Redistricting
Comm’n, 567 U.S. at 807 (quoting Smiley, 285 U.S. at 367).
In addition, however, state law also authorizes this State’s own courts to enforce the
constitutional boundaries of the North Carolina Constitution. See, e.g., Cooper, 370 N.C. at 410,
809 S.E.2d at 109 (reinforcing the authority of state courts to “necessarily constrain[]” the
General Assembly’s authority by the “limits placed upon that authority by other constitutional
provisions”). Accordingly, this Court’s entry of a consent judgment would be entirely within the
bounds and consistent with the Elections Clause.

40

App. 214

C.

The Provisions in the Proposed Consent Judgment Are Consistent With the
Equal Protection Clause.

The Legislative Defendants and the Political Committee Intervenors also claim that the
provisions of the proposed consent judgment are unlawful because they violate the Equal
Protection Clause of the United States Constitution. Their arguments are baseless.
In the same collateral litigations that the Legislative Defendants and the Political
Committee Intervenors filed on Saturday night, they asserted that the provisions of the consent
judgment institute rules that are arbitrary and nonuniform. Moore, No. 5:20-cv-507, DE 1
(Complaint), 8 (Emergency Motion for Temporary Restraining Order); Wise v. North Carolina
State Bd. of Elections, 5:20-cv-505 (E.D.N.C. Sept. 26, 2020), DE 1 (Complaint), 3 (Emergency
Motion for Temporary Restraining Order). Again, however, their arguments are entirely
unsupported.
First, the Legislative Defendants do not have standing to challenge the provisions in the
consent judgment as arbitrary and nonuniform or that the consent judgment dilutes their votes.
The Legislative Defendants have appeared in this case in their official capacities, to press their
positions on behalf of the General Assembly. But vote-dilution and nonuniformity claims under
the Equal Protection Clause can only be brought by individual voters. The right to participate in
elections on an equal basis is a right that belongs to the voter, not to legislators who bring their
claims in their official capacity or candidates for election. Dunn v. Blumstein, 405 U.S. 330, 336
(1972). Therefore, the Legislative Defendants are not entitled to object to the consent judgment
on this basis.
Nor do the Political Committee Intervenors have standing to challenge the consent
judgment on this basis. They, too, are not individual voters who can bring this claim.

41

App. 215

Second, even if they were entitled to object on the basis of the Equal Protection Clause,
their objection is meritless. The provisions of the consent judgment do not enforce different
requirements on different voters. They actually do the exact opposite. See Numbered Memo
2020-19 (Ex. B to Joint Motion for Entry of Stipulation and Consent Judgment) (“County boards
of elections have already experienced an unprecedented number of voters seeking to vote
absentee-by-mail in the 2020 General Election, making statewide uniformity and consistency in
reviewing and processing these ballots more essential than ever. County boards of elections must
ensure that the votes of all eligible voters are counted using the same standards, regardless of the
county in which the voter resides.”). Neither the Legislative Defendants nor the Political
Committee Intervenors show that the provisions are being enforced differently on different
voters—much less that they are experiencing differential treatment. Any objection on the basis
of the Equal Protection Clause fails.

42

App. 216

CONCLUSION
For the foregoing reasons, the State Defendants respectfully request that the Court enter
final judgment in the form of the stipulation and proposed consent order.
Dated: September 30, 2020

JOSHUA H. STEIN
Attorney General
_____________________________
Alexander McC. Peters
N.C. State Bar No. 13654
Chief Deputy Attorney General
Email: apeters@ncdoj.gov
N.C. Dept. of Justice
Post Office Box 629
Raleigh, NC 27602
Telephone: (919) 716-6900
Facsimile: (919) 716-6763
Counsel for the Executive
Defendants

43

App. 217

CERTIFICATE OF SERVICE
The undersigned hereby certifies that the forgoing document was served on the following
parties via email:
Burton Craige
Narendra K. Ghosh
Paul E. Smith
Patterson Harkavy LLP
100 Europa Dr., Suite 420
Chapel Hill, N.C. 27517
bcraige@pathlaw.com
nghosh@pathlaw.com
psmith@pathlaw.com

Nathan Huff
Phelps Dunbar LLP
4140 ParkLake Avenue, Suite 100
Raleigh, N.C. 27612
nathan.huff@phelps.com
Nicole Jo Moss
David H. Thompson
Peter A. Patterson
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, NW
Washington, D.C. 20036
nmoss@cooperkirk.com
ppatterson@cooperkirk.com
dthompson@cooperkirk.com

Marc E. Elias
Uzoma N. Nkwonta
Ariel B. Glickman
Jyoti Jasrasaria
Lalitha D. Madduri
PERKINS COIE, LLP
700 Thirteenth Street, N.W. Suite 800
Washington, D.C. 20005
MElias@perkinscoie.com
UNkwonta@perkinscoie.com
AG1ickman@perkinscoie.com
JJasrasaria@perkinscoie.com
LMadduri@perkinscoie.com

Counsel for Intervenor-Defendants
R. Scott Tobin
Taylor English Duma LLP
4208 Six Forks Road, Suite 1000
Raleigh, N.C. 27609
stobein@taylorenglish.com
Bobby Burchfield
Matthew M. Leland
King & Spalding LLP
1700 Pennsylvania Ave. N.W., Suite 200
Washington, DC 20006-4707
BBurchfield@KSLAW.com
mleland@kslaw.com

Counsel for Plaintiffs

Counsel for Intervenor-Defendants

44

App. 218

This the 30th day of September, 2020.
_________________________
Alexander McC. Peters
Chief Deputy Attorney General

45

App. 219

EXHIBIT 16

App. 220

Supreme Court of North Carolina
Fax: (919) 831-5720
Web: https://www.nccourts.gov

AMY L. FUNDERBURK, Clerk
Justice Building, 2 E. Morgan Street
Raleigh, NC 27601
(919) 831-5700

Mailing Address:
P. O Box 2170
Raleigh, NC 27602

From N.C. Court of Appeals
( P20-513 )
From Wake
( 20CVS8881 )
23 October 2020

Ms. Nicole J. Moss
Attorney at Law
COOPER & KIRK, PLLC
1523 New Hampshire Ave., N.W.
Washington, DC 20036
RE: NC Alliance For Retired Americans, et al. v NC State Board of Elections, et al. - 440P20-1

Dear Ms. Moss:

The following order has been entered on the motion filed on the 21st of October 2020 by IntervenorDefendants (Philip E. Berger and Timothy K. Moore, in their official capacities) for Temporary Stay:
"Motion Denied by order of the Court in conference, this the 23rd of October 2020."
Beasley, C.J., Recused
Newby, J., Recused
Davis, J., Recused

s/ Earls, J.
For the Court

WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 23rd day of
October 2020.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. Hackney
Assistant Clerk, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. Nathan A. Huff, Attorney at Law, For Berger, Philip E et al - (By Email)
Ms. Nicole J. Moss, Attorney at Law, For Berger, Philip E et al - (By Email)
Mr. Burton Craige, Attorney at Law, For Barker, Fowler et al - (By Email)
Mr. Alexander McC. Peters, Special Deputy Attorney General, For The North Carolina State Board of Elections, et al. - (By Email)
Mr. R. Scott Tobin, Attorney at Law, For Republican National Committee, et al. - (By Email)
Mr. Narendra K. Ghosh, Attorney at Law, For Barker, Fowler et al - (By Email)
Mr. Terence Steed, Assistant Attorney General, For The North Carolina State Board of Elections, et al. - (By Email)
Mr. Ryan Y. Park, Solicitor General, For The North Carolina State Board of Elections, et al. - (By Email)
Ms. Kellie Z. Myers, Trial Court Administrator - (By Email)
App. 221
West Publishing - (By Email)

Lexis-Nexis - (By Email)

App. 222

